<html>
<title> - OVERSIGHT HEARING ON ``MANAGING OUR OCEAN AND WILDLIFE RESOURCES IN A DYNAMIC ENVIRONMENT: PRIORITIES FOR THE NEW ADMINISTRATION AND THE 111\TH\ CONGRESS.''</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





 MANAGING OUR OCEAN AND WILDLIFE RESOURCES IN A DYNAMIC ENVIRONMENT: 
    PRIORITIES FOR THE NEW ADMINISTRATION AND THE 111\TH\ CONGRESS

=======================================================================

                           OVERSIGHT HEARING

                               before the

                    SUBCOMMITTEE ON INSULAR AFFAIRS,
                          OCEANS AND WILDLIFE

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                         Tuesday, March 3, 2009

                               __________

                            Serial No. 111-6

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov






                  U.S. GOVERNMENT PRINTING OFFICE
47-756 PDF                WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office  Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001





                     COMMITTEE ON NATURAL RESOURCES

              NICK J. RAHALL, II, West Virginia, Chairman
          DOC HASTINGS, Washington, Ranking Republican Member

Dale E. Kildee, Michigan             Don Young, Alaska
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Jeff Flake, Arizona
Frank Pallone, Jr., New Jersey       Henry E. Brown, Jr., South 
Grace F. Napolitano, California          Carolina
Rush D. Holt, New Jersey             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Louie Gohmert, Texas
Madeleine Z. Bordallo, Guam          Rob Bishop, Utah
Jim Costa, California                Bill Shuster, Pennsylvania
Dan Boren, Oklahoma                  Doug Lamborn, Colorado
Gregorio Sablan, Northern Marianas   Adrian Smith, Nebraska
Martin T. Heinrich, New Mexico       Robert J. Wittman, Virginia
George Miller, California            Paul C. Broun, Georgia
Edward J. Markey, Massachusetts      John Fleming, Louisiana
Peter A. DeFazio, Oregon             Mike Coffman, Colorado
Maurice D. Hinchey, New York         Jason Chaffetz, Utah
Donna M. Christensen, Virgin         Cynthia M. Lummis, Wyoming
    Islands                          Tom McClintock, California
Diana DeGette, Colorado              Bill Cassidy, Louisiana
Ron Kind, Wisconsin
Lois Capps, California
Jay Inslee, Washington
Joe Baca, California
Stephanie Herseth Sandlin, South 
    Dakota
John P. Sarbanes, Maryland
Carol Shea-Porter, New Hampshire
Niki Tsongas, Massachusetts
Frank Kratovil, Jr., Maryland
Pedro R. Pierluisi, Puerto Rico

                     James H. Zoia, Chief of Staff
                       Rick Healy, Chief Counsel
                 Todd Young, Republican Chief of Staff
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

          SUBCOMMITTEE ON INSULAR AFFAIRS, OCEANS AND WILDLIFE

                MADELEINE Z. BORDALLO, Guam, Chairwoman
     HENRY E. BROWN, JR., South Carolina, Ranking Republican Member

Dale E. Kildee, Michigan             Don Young, Alaska
Eni F.H. Faleomavaega, American      Jeff Flake, Arizona
    Samoa                            Doug Lamborn, Colorado
Neil Abercrombie, Hawaii             Robert J. Wittman, Virginia
Frank Pallone, Jr., New Jersey       John Fleming, Louisiana
Gregorio Sablan, Northern Marianas   Jason Chaffetz, Utah
Donna M. Christensen, Virgin         Bill Cassidy, Louisiana
    Islands                          Doc Hastings, Washington, ex 
Diana DeGette, Colorado                  officio
Ron Kind, Wisconsin
Lois Capps, California
Carol Shea-Porter, New Hampshire
Frank Kratovil, Jr., Maryland
Pedro R. Pierluisi, Puerto Rico
Nick J. Rahall, II, West Virginia, 
    ex officio
                                 ------                                












                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, March 3, 2009...........................     1

Statement of Members:
    Brown, Hon. Henry E., Jr., a Representative in Congress from 
      the State of South Carolina, Prepared statement of.........     3
    Bordallo, Hon. Madeleine Z., a Delegate in Congress from Guam     1
        Prepared statement of....................................     2
    Capps, Hon. Lois, a Representative in Congress from the State 
      of California, Prepared statement of.......................    71
    Hastings, Hon. Doc, a Representative in Congress from the 
      State of Washington........................................     3

Statement of Witnesses:
    Baughman, John, Member, Sporting Conservation Council........    22
        Prepared statement of....................................    25
        Response to questions submitted for the record...........    72
    Jackson, William J., Ph.D., Deputy Director General, 
      International Union for Conservation of Nature (IUCN)......    46
        Prepared statement of....................................    48
    Kareiva, Peter, Ph.D., Chief Scientist, The Nature 
      Conservancy................................................     8
        Prepared statement of....................................    10
        Response to questions submitted for the record...........    73
    Nutter, Franklin W., President, Reinsurance Association of 
      America....................................................    53
        Prepared statement of....................................    55
    Pomponi, Shirley A., Ph.D., Executive Director, Harbor Branch 
      Oceanographic Institute, Florida Atlantic University.......    39
        Prepared statement of....................................    41
    Rothschild, Brian J., Ph.D., Montgomery Charter Professor of 
      Marine Science, School for Marine Science and Technology, 
      University of Massachusetts Dartmouth......................    58
        Prepared statement of....................................    60
    Thompson, Barton H., Jr., Perry L. McCarty Director, Woods 
      Institute for the Environment, Stanford University, and 
      Robert E. Paradise Professor of Natural Resources Law, 
      Stanford University........................................    14
        Prepared statement of....................................    15
    Trandahl, Jeff, Executive Director, National Fish and 
      Wildlife Foundation, on behalf of Mark Rockefeller, 
      Chairman, Board of Directors, National Fish and Wildlife 
      Foundation, Oral statement of..............................     4
        Response to questions submitted for the record...........    75

Additional materials supplied:
    Rockefeller, Mark F., Chairman, Board of Directors, National 
      Fish and Wildlife Foundation, Statement submitted for the 
      record.....................................................     6

 
 OVERSIGHT HEARING ON ``MANAGING OUR OCEAN AND WILDLIFE RESOURCES IN A 
  DYNAMIC ENVIRONMENT: PRIORITIES FOR THE NEW ADMINISTRATION AND THE 
                          111\TH\ CONGRESS.''

                              ----------                              


                         Tuesday, March 3, 2009

                     U.S. House of Representatives

          Subcommittee on Insular Affairs, Oceans and Wildlife

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:03 a.m. in 
Room 1324, Longworth House Office Building, the Hon. Madeleine 
Z. Bordallo [Chairwoman of the Subcommittee] presiding.
    Present: Representatives Bordallo, Kildee, Sablan, 
Christensen, Capps, Kratovil, Pierluisi, Wittman and Hastings.

STATEMENT OF THE HONORABLE MADELEINE Z. BORDALLO, A DELEGATE IN 
              CONGRESS FROM THE TERRITORY OF GUAM

    Ms. Bordallo. Good morning everyone. The oversight hearing 
by the Subcommittee on Insular Affairs, Oceans, and Wildlife 
will come to order.
    The Subcommittee is meeting today to hear testimony 
concerning ocean and wildlife conservation priorities for the 
new Administration and the 111th Congress.
    Under Committee Rule 4[g], the Chairwoman and the Ranking 
Minority Member will make opening statements.
    We begin the 111th Congress during a period of great 
uncertainty for our nation. The United States faces an economic 
crisis that has led to the loss of more than 3 million jobs, 
frozen credit markets, and resulted in large Federal and state 
budget deficits.
    Ever-increasing energy demands are driving efforts to 
rapidly develop new and existing energy sources, while the 
threat of climate change has great potential to affect 
virtually every aspect of our society.
    These realities are presenting new challenges to how we 
manage and conserve our natural resources. Spending freezes and 
budget cuts, in many states and the territories, have led to a 
reduction in, and the cancellation of, conservation projects 
for fish and wildlife habitat restoration.
    Charitable giving from private endowments and foundations 
and corporations has also declined, further straining the 
capabilities of public-private conservation partnerships 
dependent on non-Federal sources of funding.
    In addition to this, the push for new energy development 
and energy conservation has created unanticipated trade-offs 
for conventional fish and wildlife conservation.
    Wind energy is just one example. As we seek to develop 
green wind farms, we still have little understanding of how 
wind turbines, installed on an industrial scale, might impact 
migratory bird populations that the Federal Government invests 
millions of dollars annually to conserve. At the same time, 
climate change is causing shifts in migration and habitats of 
many species that we are only just beginning to understand.
    The dynamic nature of this period of time directly 
challenges our conventional approaches to the conservation of 
fish and wildlife habitat, and to the maintenance of healthy 
ecosystems. In fact, the dynamic nature of our time suggests 
the need for a new conservation paradigm, and new information 
and management tools to effectively conserve fish and wildlife 
habitat over the long term, and across an uncertain landscape 
in the 21st century.
    We need specific practical and constructive recommendations 
and priorities if we are to develop a new framework to support 
science-based and information-driven adaptive management of our 
fish and wildlife resources, both on land and in the ocean.
    So, I look forward to hearing from our invited witnesses, 
who are presently engaged in a variety of innovative approaches 
to address these needs. And I also look forward to engaging my 
colleagues in a broader dialogue to determine how we might 
shape a more effective, adaptive, and cooperative conservation 
model for the time that we live in.
    [The prepared statement of Ms. Bordallo follows:]

     Statement of The Honorable Madeleine Z. Bordallo, Chairwoman, 
          Subcommittee on Insular Affairs, Oceans and Wildlife

    We begin the 111th Congress during a period of great uncertainty 
for our Nation. The United States faces an economic crisis that has led 
to the loss of more than three million jobs, frozen credit markets, and 
resulted in large federal and state budget deficits.
    Ever-increasing energy demands are driving efforts to rapidly 
develop new and existing energy sources, while the threat of climate 
change has catastrophic potential to affect virtually every aspect of 
our society.
    These realities are presenting new challenges to how we manage and 
conserve our natural resources. Spending freezes and budget cuts in 
many states and the territories have led to a reduction in and the 
cancellation of conservation projects for fish and wildlife habitat 
restoration. Charitable giving from private endowments, foundations and 
corporations has also declined, further straining the capabilities of 
public-private conservation partnerships dependent on non-Federal 
sources of funding.
    In addition, the push for new energy development and energy 
conservation has created unanticipated trade-offs for conventional fish 
and wildlife conservation.
    Wind energy is just one example. As we seek to develop ``green'' 
wind farms, we still have little understanding of how wind turbines 
installed on an industrial scale might impact migratory bird 
populations that the Federal Government invests millions of dollars 
annually to conserve.
    At the same time, climate change is causing shifts in migration and 
habitats of many species that we are only just beginning to understand.
    The dynamic nature of this period of time directly challenges our 
conventional approaches to the conservation of fish and wildlife 
habitat and to the maintenance of healthy ecosystems. In fact, the 
dynamic nature of our time suggests the need for a new conservation 
paradigm and new information and management tools to effectively 
conserve fish and wildlife habitat over the long-term and across an 
uncertain landscape in the 21st Century.
    We need specific, practical, and constructive recommendations and 
priorities if we are to develop a new framework to support science-
based and information-driven adaptive management of our fish and 
wildlife resources, both on land and in the ocean.
    I look forward to hearing from our invited witnesses who are 
presently engaged in a variety of innovative approaches to address 
these needs. I also look forward to engaging my colleagues in a broader 
dialogue to determine how we might shape a more effective, adaptive and 
cooperative conservation model for the times we live in.
                                 ______
                                 
    Ms. Bordallo. And now, as Chairwoman, I recognize Mr. 
Hastings, the Ranking Republican Member of the Natural 
Resources Committee, for any statement that he may have.

 STATEMENT OF THE HONORABLE DOC HASTINGS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    Mr. Hastings. Well, thank you very much, Madame Chairman. 
And I have to say that I am here in place of the Ranking Member 
of this Subcommittee, Henry Brown, who is delayed because of 
the weather. And so I will just simply ask unanimous consent 
that Mr. Brown's full statement appear in the record, and we 
will go to the panel.
    Ms. Bordallo. Hearing no objection, so ordered.
    Mr. Hastings. Thank you very much, Madame Chairman.
    [The prepared statement of Mr. Brown follows:]

  Statement of The Honorable Henry E. Brown, Jr., Ranking Republican, 
          Subcommittee on Insular Affairs, Oceans and Wildlife

    Good morning, Madam Chairwoman. As our new President has frequently 
reminded us, the American people are tired of partisan politics and 
want bipartisan solutions to the serious problems facing our country.
    Today's hearing offers us an excellent opportunity to engage in 
bipartisanship because there are no Republican or Democratic fish, 
marine turtles, white tail deer or neotropical migratory birds.
    It is my hope that during the next two years, we will try to work 
together to craft bipartisan solutions. Let me suggest some areas of 
potential agreement. First, we can work together to ensure through 
oversight hearings that the $280 million appropriated to the U.S. Fish 
and Wildlife Service and the $830 million appropriated to the National 
Oceanic and Atmospheric Administration in the stimulus package is 
wisely spent.
    The money for the Service was allocated to undertake backlog 
maintenance projects, to replace old or outdated equipment, improve 
wildlife conservation and to improve access for the American people to 
our 548 national wildlife refuges and 70 national fish hatcheries. The 
funding for NOAA was directed toward habitat restoration, hydrographic 
survey backlog and for construction and vessel maintenance activities. 
Each agency will also receive additional funding in the Omnibus 
appropriations bill. It is very important that this Subcommittee 
oversee how these funds are being spent.
    Second, we can work together to reauthorize the Sikes Act which 
provides valuable fish and wildlife habitat to thousands of species who 
reside on our 400 military installations. This law, which was first 
enacted nearly 50 years ago, has been a huge wildlife conservation 
success story.
    Third, it is my hope that we can work together on the plethora of 
ocean-specific legislation coming before the subcommittee this 
Congress. Many of the bills that moved out of the Subcommittee last 
Congress may have been referred to as bipartisan based on the list of 
cosponsors, but many of the bills that were approved by this 
Subcommittee were not bipartisan with respect to the legislative 
language included in the bill.
    Finally, I look forward to our collective efforts to extend the 
Marine Turtle Conservation Act, the Great Ape Conservation Act and the 
Neotropical Migratory Bird Conservation Act at the earliest 
opportunity. These three landmark conservation laws have financed 
nearly 700 projects that have literally stopped several of these 
species from sliding towards extinction. Nevertheless, there is more 
work to be done and these laws must be reauthorized this year.
    Thank you Madame Chairwoman, I look forward to hearing from out 
witnesses today.
                                 ______
                                 
    Ms. Bordallo. I would also like to, I would like to 
recognize other Members who are here with us. Lois Capps from 
the State of California, Donna Christensen from the Virgin 
Islands, and Mr. Kratovil, Mr. Kratovil. I welcome you to our 
Subcommittee meeting today.
    And I thank Mr. Hastings. And I would now like to recognize 
our first panel of witnesses, who are already seated. Mr. Jeff 
Trandahl, Executive Director of the National Fish and Wildlife 
Federation; Dr. Peter Kareiva, Chief Scientist and Director of 
Science, the Nature Conservancy; Mr. Barton Thompson, Jr., Mr. 
Thompson is the Perry L. McCarty Director of the Woods 
Institute for the Environment and the Robert E. Paradise 
Professor of Natural Resources Law at Stanford University; and 
finally, Mr. John Baughman, Member of the Sporting Conservation 
Council.
    Good morning, gentlemen. Welcome to our hearing. I will 
begin now with the first of the panel. And as we begin, I would 
note for all the witnesses that the red timing light on the 
table will indicate when five minutes have passed, and your 
time has concluded. We would appreciate your cooperation in 
complying with these limits, and be assured that your full 
written statement will be submitted for the hearing record.
    And now, Mr. Trandahl, thank you for joining us today, and 
please begin.

        STATEMENT OF JEFF TRANDAHL, EXECUTIVE DIRECTOR, 
             NATIONAL FISH AND WILDLIFE FOUNDATION

    Mr. Trandahl. Madame Chairwoman, Mr. Hastings, and Members 
of the Committee. I am Jeff Trandahl, the Executive Director of 
the National Fish and Wildlife Foundation. And I have to first 
start by apologizing.
    Mark Rockefeller, the Chair of our board, was delayed 
because of the storm in New York and not able to appear. So, I 
am appearing on his behalf.
    I will summarize some of his statement, and then be 
available, obviously at the end, for questions, or at the end 
of the panel for questions.
    As we approach this year, the Foundation was created 25 
years ago. And it was created specifically to generate private 
dollars to match with Federal seed monies on conservation 
projects of mutual interest between the Federal Government and 
the private sector.
    In its history, we have managed more than $500 million in 
grant dollars, and have leveraged an impact of over $1.5 
billion on the ground.
    Ms. Bordallo. Excuse me, could you move just a little 
closer to the mic, please?
    Mr. Trandahl. Sure thing.
    Ms. Bordallo. Bring it closer. Thank you.
    Mr. Trandahl. There you go. In its history it has managed 
more than $500 million, and has leveraged a total impact of 
$1.5 billion. The source of these leverage funds have come from 
corporate, individuals, state, and other non-Federal sources.
    As we all know, these have been especially difficult and 
challenging times. While the last few years have provided a 
very positive trend related to increased environmental 
awareness and giving, the entire landscape has changed in the 
last six months.
    Nationally, philanthropic giving has taken a sudden dip, 
and environmental giving is expected to lose resources as 
funders begin to respond to human-need programs, such as 
shelters and food banks.
    With this unanticipated and rapid decline in the economy, 
and also major changes in the political environment, I believe 
the way to increase conservation funding from private sources, 
corporate and individual, is to do two things in particular.
    One, provide clear prioritization of Federal goals and 
objectives. And two, create incentives to maintain and increase 
environmental giving by promoting the partner of private and 
Federal resources around common goals.
    First I need to say that I believe strongly that there are 
many immediate and high-priority conservation needs. And more 
importantly, I strongly believe there is a significant 
financial giving capacity that can still be harnessed from the 
corporate community and other philanthropic funders if the 
right actions are taken, even in this difficult economy.
    As the Subcommittee knows well, the Federal Government 
continues to be the largest funder of conservation work 
throughout the United States. Congress and the Federal 
Government oversee much of that funding directly, and other 
funds are distributed to state fish and wildlife agencies 
through Federal programs, such as Pittman-Robertson.
    The Federal dollars divided among several different 
agencies cover hundreds, if not thousands, of different 
priorities. This investment has significant public benefits and 
positive impacts on land, sea, and air.
    That said, Federal agency expenditures on conservation are 
also so broad and diverse, it is incredibly difficult to 
comprehend exactly what the Federal government's overall goal 
is for such spending.
    What are the Federal conservation priorities? For example, 
many Federal statutes require agencies to treat all issues 
equally, rather than encouraging agencies around conservation 
partners to prioritize their efforts around achieving 
achievable conservation outcomes.
    Moreover, across Federal agencies, even within individual 
agencies, there are differing conservation goals and 
objectives.
    For private funders, these competing priorities cause 
confusion, and sometimes lead to inaction. Major private 
funders in conservation tend to be focused on many of the same 
funding priorities as the Federal government. However, often 
the programs are not operated as a single effort.
    While funders in conservation tend to gravitate toward, not 
away from, the Federal government, largely because of 
leveraging opportunities, it is my experience that the Federal 
agencies are either not equipped, not interested, or otherwise 
constrained from working with private funders.
    Federal Government lacks the necessary culture for 
partnership. Why?
    Our experience is that private funders are generally 
seeking public partners to leverage their funds, ensure a 
strong scientific basis for their investments, identify 
strategic priorities, and provide appropriate oversight to 
ensure a project achieves the anticipated results once the 
funding has been initiated.
    The Federal government is an attractive partner because it 
has financial resources; but more importantly, it has the 
ability to provide planning, science, strategy, and certainty 
of completion.
    As Executive Director of the Foundation, I oversee an 
entity that was created by Congress to specifically fund and 
find those partnerships. While the Foundation continues to 
experience a period of growth and success, we still are not 
able to maximize fully the Federal partnerships that are out 
there.
    I will submit the rest of my statement for the record.
    [The prepared statement of Mark Rockefeller, Chairman, 
Board of Directors, National Fish and Wildlife Foundation, 
submitted by Mr. Trandahl follows:]

    Statement of Mark F. Rockefeller, Chairman, Board of Directors, 
                 National Fish and Wildlife Foundation

    Madame Chairwoman, Congressman Brown and Members of the 
Subcommittee ``
    Thank you for providing me the opportunity to appear today to 
discuss the current trends in conservation and environmental work 
throughout the United States and what can be done at the federal level, 
in particular, to encourage the expansion of private funding.
    As we all know, these have been especially difficult and 
challenging times. While the last few years have provided a very 
positive trend related to increased environmental awareness and 
giving--the entire landscape has changed in the last six months. 
Overall philanthropic giving has taken a sudden dip and environmental 
giving is expected to lose resources as funders begin to respond to 
more ``human need'' related programs (such as shelters, food banks, 
etc.).
    With the unanticipated and rapid decline in the economy and also 
major changes in the political climate, I believe the way to increase 
conservation funding from private sources (corporate, individual, and 
foundations) is to:
    1.  Provide clear prioritization of federal goals and objectives; 
and
    2.  Create incentives to maintain and increase environmental giving 
by promoting the partnering of private and federal resources around 
common goals.
    First, I need to say that I believe strongly that there are many 
immediate and high-priority conservation needs. And, more importantly, 
I strongly believe there is significant financial giving capacity that 
can be harnessed from the corporate community and other philanthropic 
funders if the right actions are taken, even in this difficult economy.
    As this Subcommittee knows well, the Federal Government continues 
to be the largest funder of conservation work throughout the United 
States. Congress and the Federal Government oversee much of that 
funding directly and other funds are distributed to state fish and 
wildlife agencies through federal programs such as the Pittman-
Robertson Act.
    The federal dollars are divided among several different agencies 
and cover hundreds (if not thousands) of different priorities. This 
investment has significant public benefits and positive impacts--on 
land, in the sea, and in the air. As a conservationist and father, I 
strongly support these efforts.
    That said, federal agency expenditures on conservation are also so 
broad and diverse, it is incredibly difficult to comprehend exactly 
what the Federal Government's overall goal is for such spending. What 
are the federal conservation priorities?
    For example, many federal statutes require agencies to treat all 
issues equally rather than encouraging agencies and conservation 
partners to prioritize their efforts around achieving measurable 
conservation outcomes. Moreover, across federal agencies--and even 
within individual agencies--there are differing conservation goals and 
objectives. For private funders, these competing priorities cause 
confusion and lead to inaction.
    State Wildlife Action Plans have helped to establish priorities at 
the state level; however, many of these plans are still quite broad and 
don't adequately address conservation issues that cross state 
boundaries (e.g., conservation of habitat for migratory species).
    Major private funders in conservation tend to be focused on many of 
the same funding priorities of the Federal Government. However, often 
the programs are not operated as a single effort. While funders in 
conservation tend to gravitate towards (not away from) the Federal 
Government (largely because of leveraging opportunities), it is my 
experience that the federal agencies are either not equipped, not 
interested, or otherwise constrained from working with private funders. 
Federal Government lacks the necessary culture of ``partnerships.''
    Why?
    Our experience is that private funders are generally seeking public 
partners to leverage their funds, ensure a strong scientific-basis for 
their investments, identify strategic priorities, and provide 
appropriate oversight to ensure a project achieves the anticipated 
results once funding has been initiated.
    The Federal Government is an attractive partner because it has 
financial resources, but most importantly, it has the ability to 
provide planning, science, strategy and certainty of completion.
    As Chairman of the National Fish and Wildlife Foundation (NFWF), I 
oversee an entity that was specifically created by Congress to promote 
and fund public-private partnerships. What started as a small 
experiment to leverage federal funding for conservation through public-
private partnerships has grown into a highly successful, major catalyst 
for conservation action. Since our inception 25 years ago, NFWF has 
successfully leveraged nearly $500 million in federal funds into over 
$1.5 billion in on-the-ground and in-the-water conservation.
    A few recent successes exemplify how NFWF has been able to 
establish partnerships among corporations and federal agencies with 
great success. For example, NFWF and the National Oceanic and 
Atmospheric Administration (NOAA) recently established a partnership 
with Covanta Energy, a waste-to-energy company located in the U.S., and 
Schnitzer Steel, to pilot a program, Fishing for Energy, through which 
fishermen dispose of derelict gear, free of charge, that Covanta in 
turn burns to create energy. And the results have been extraordinary; 
in one year, the partnership has collected and disposed of over 122 
tons of derelict fishing gear from 10 gear collection ports in the 
Northeastern United States. Each ton of debris burned produces enough 
electricity to power one home for 25 days. That is enough recycled 
energy to run a U.S. home for eight years!
    In 2008, NFWF also announced a landmark partnership with 
ArcelorMittal--the world's largest steel company--to address the ever 
increasing pressure on the freshwater ecosystems of the Great Lakes. 
The pooled resources of ArcelorMittal and several federal agencies has 
facilitated unprecedented coordination of partners and resources to 
support projects including habitat improvements for the endangered 
piping plover in Michigan, stream corridor restoration in Illinois, 
invasive species removal in Wisconsin, and wetland restoration in New 
York. With the President's FY 2010 budget request including significant 
increases for Great Lakes restoration, the future for partnerships in 
the region is very bright.
    While we continue to experience a period of growth and success in 
bringing new funds to wildlife conservation, we still continue to fail 
to fully maximize the potential. Even NFWF (an organization uniquely 
positioned and experienced at working with agencies) finds it difficult 
to convince agencies to partner with us in order to leverage existing 
federal funds with private dollars. Too often, federal agencies opt 
instead to do their work alone and only with federal funds.
    I am not opposed to the Federal Government as the single funder of 
certain efforts--but as an avid conservationist and businessman, I want 
to see all potential funds (both public and private) captured and put 
on the ground during this time of great environmental need.
    We believe there are several untapped opportunities to establish 
new partnerships that will expand the base of funding for conservation. 
Our own experience this past year working with USDA Natural Resources 
Conservation Service (NRCS) illustrates some of this potential. Through 
the Conservation Innovation Grants (CIG) program, NRCS awards 
approximately $20 million annually to support projects that advance 
innovative practices and technology to improve stewardship on working 
farms and ranches. This program is highly attractive to private funders 
as it is geared to ensuring that America maximizes food production 
while enhancing environmental protection goals such as minimizing soil 
and nutrient runoff, improving wildlife habitat, and reducing water and 
energy consumption.
    NFWF reached out to several corporations and private foundations 
who share an interest in these issues. Based on our initial inquiries, 
we were able to identify 6-10 private funders who were excited about 
the opportunity to work with NRCS and NFWF to leverage funds and expand 
the pool of financial resources to address the high demand for this 
program.
    We believe there are other existing federal programs that offer 
similar opportunities to generate partnerships with interested 
corporations and private foundations. It is critical for the federal 
government to take full advantage of these partnership opportunities if 
we want to achieve measurable progress in restoring healthy populations 
of fish and wildlife and their habitats.
    I was very pleased to see in recent days statements from Secretary 
Salazar regarding his efforts to define a set of conservation 
priorities under an initiative dubbed ``America's Treasures.'' While 
this initiative has yet to take shape and definition, I am very hopeful 
about this opportunity.
    As you may be aware, NFWF is scheduled for reauthorization this 
coming year. I offer the opportunity to use our reauthorization as a 
mechanism for this Subcommittee to consider changes that will 
facilitate the kind of effective public private partnerships we have 
described today.
    I believe efforts to clarify, inspire and focus potential private 
support will be very beneficial.
    I appreciate your allowing me this time before the Committee. I am 
available at the appropriate time to answer any questions you may have.
    Thank you again.
                                 ______
                                 
    Ms. Bordallo. Thank you, Mr. Trandahl, for the valuable 
contribution of the National Fish and Wildlife Foundation to 
conservation, and for all of the work to develop and implement 
innovative public-private partnerships. And your complete 
statement will be entered into the record.
    To the persons who are standing, you could be seated up 
here around the table, if you would like.
     Voice. Right here?
    Ms. Bordallo. Right here. Some day you may be able to sit 
up there.
    [Laughter.]
    Ms. Bordallo. I now recognize Dr. Kareiva from the Nature 
Conservancy to testify for five minutes.
    Please proceed.

              STATEMENT OF PETER KAREIVA, Ph.D., 
            CHIEF SCIENTIST, THE NATURE CONSERVANCY

    Mr. Kareiva. Thank you, Madame Chairwoman, for this 
opportunity.
    The Nature Conservancy, as many of you may know, is the 
world's largest conservation organization. And just one 
dimension of that is we own and manage over 1400 private nature 
sanctuaries. That is a tremendous investment.
    And much of my job is geared toward providing scientific 
tools and decision support for how to protect that investment 
and other natural assets.
    And I just want to draw attention to a couple of examples 
of these decision-making tools and support. My written 
testimony goes into much greater detail.
    Let us start with the coastline. Seventy percent of the 
world's population lives along the coast, and an equal 
percentage of the world's economic activity is in coastal areas 
or in delta areas. And these are areas that are at risk from 
rising sea level, more extreme storms, and are getting heavily 
battered. They are vulnerable. They also are sites of important 
habitats and nursing grounds for fisheries.
    So, the suite of tools that we develop for these marine 
coastlines are to identify what is vulnerable, identify what is 
valuable, and very clearly map some of the options and provide 
some guidance to the decisions that are before us.
    We have two examples of where we have played this out. One 
is in the Florida panhandle, where we map wildlife, we map 
offshore habitat that could reduce storm surge. We also 
actually map vulnerable human communities. And that helps us 
establish priorities for actions that would protect nature and 
people.
    And we don't do any of this alone. A big partner in this is 
NOAA and universities.
    Another example is the Long Island Sound, where we detail 
some of the consequences of sea level rise, and look at 
different adaptation strategies, different ways of responding 
to that threat, and make clear the choices before us.
    So, we don't just do maps of shoreline. The second tool I 
want to turn your attention to is what is called the Natural 
Capital Project. And this is a partnership where we rely on 
cutting-edge science from Stanford University--and I like to 
think that we do the cutting-edge implementation of that 
science. And again, it is maps, and again, it is decision 
support; but it is maps not just of the shoreline, it is maps 
of land and water use and infrastructure and energy 
development.
    And what we do is we economically value ecosystem services. 
Things like climate regulation, carbon sequestration, clean 
water, timber, agriculture, recreation. We map the landscape, 
we map alternative uses of the landscape, and translate it into 
cost-benefit analysis. And this has proven to be a very 
valuable tool to have when you see the consequences of the 
choices that are between us, and to deal with those trade-offs 
you mentioned in your opening remarks.
    We have applied it in several countries around the world, 
and are just beginning to apply these tools in the United 
States.
    And let me end by making one sort of general point about 
these tools. And this is more from my personal experience, 
working with these mapping techniques, and working in real 
places.
    In these times, with water creeping up, storms being more 
severe, heat stress, and many of the other stresses we face, 
you know, it is hard not to feel enormous anxiety, I guess you 
would say.
    But we have options. When you look at these maps, what you 
see is we do have options. The landscape isn't totally filled. 
There is more than one thing we could do. And it is my personal 
experience that often the best option is investing in natural 
ecosystems. It is the most cost-effective and durable option, 
in many cases.
    Not always. Not always, for sure. For sure, sometimes are 
engineering solutions and alternative solutions. But using 
these mapping techniques, looking at what is valuable, what is 
vulnerable, and what our options are, I think we could have a 
very affective investment strategy for our natural resources 
that benefit both the natural ecosystems and our economies, and 
people's safety.
    Thank you.
    [The prepared statement of Mr. Kareiva follows:]

Statement of Dr. Peter Kareiva, Chief Scientist, The Nature Conservancy

    I am Peter Kareiva, the Chief Scientist for The Nature Conservancy 
(TNC). Prior to taking a position at The Conservancy, I served as 
Director of Conservation Biology Division at the Northwest Fisheries 
Science lab in Seattle, which is part of NOAA. Prior to working for 
NOAA, I was a Professor at University of Washington and had pursued a 
twenty year career of research in conservation, agriculture, and 
resource management. I have dedicated my scientific career to using 
rigorous but practical analysis and synthesis of environmental 
information in order to effectively manage and use our lands and 
waters. I am here today to talk about the information needs for 
resource management in an uncertain world facing climate change and 
potential ecosystem degradation. I also want to describe some new 
decision-support tools and planning tools that have the potential to 
guide future human impacts in a way that provides a sustainable future 
for people and our natural assets.
    The Nature Conservancy's on-the-ground conservation work is carried 
out in all 50 states and in 32 foreign countries and is supported by 
approximately one million individual members. The Nature Conservancy 
has protected more than 117 million acres of land and 5,000 miles of 
river around the world. Our work also includes more than 100 marine 
conservation projects in 21 countries and in 22 U.S. states. The 
Conservancy owns and manages approximately 1,400 reserves throughout 
the United States--the largest private system of nature sanctuaries in 
the world. We use science to protect our investments, to manage our 
lands, and to make sure our natural assets will sustainably contribute 
to both biodiversity protection and to meeting human needs. To achieve 
our goals we routinely partner with government agencies, with other 
land trusts, with universities, and with private enterprise. As climate 
change has begun to show its impacts on lands and waters, and as the 
human footprint grows, we have found our responsibility increasingly 
challenging. It is my job as Chief Scientist to provide technical 
guidance and leadership so that the Conservancy is able to make smart 
decisions about marine, freshwater, and terrestrial conservation and 
management. There are two lessons we have learned as we seek to make 
sure that people and nature emerge as winners in the face of the many 
different and interacting threats to the environment.
    1.  First, we need to invest in data collection, information 
systems and performance measures that allow us to engage in adaptive 
management, which is a fancy phrase that means ``learn by doing in as 
efficient a way as possible''. There is nothing more essential to 
institutional, national, and environmental survival than learning and 
improving.
    2.  Second, we need to create and provide easy access to decision-
support tools that can clarify for the public and decision makers the 
tradeoffs inherent in different options. Honest assessments of 
tradeoffs will promote informed decisions that in some cases might mean 
sacrifices to certain stakeholders, but in other cases could actually 
be win-win's for all involved. Particularly needed are tools that help 
people to see the economic value of natural assets so that people do 
not make foolhardy decisions that at first glance seem like a good 
investment, but upon rigorous analysis turn out to be bad ideas.
    I will focus in this testimony on concrete examples of tools and 
approaches that represent The Conservancy's experience at synthesizing 
information for adaptive management and developing decision support 
tools. We initiated development of many of these approaches before the 
impact of climate change was evident, but now feel a sense of urgency 
to improve our approaches given the rapid change and the uncertainty 
that the world faces.
Marine Regional Assessments
    Over the last 10 years, the Conservancy has worked with a wide 
range of stakeholders and partners to complete marine regional 
assessments in nearly all U.S. waters and many waters internationally. 
Through these assessments, we have integrated databases and developed 
maps of the distributions of marine ecosystems, habitats, species, and 
human uses for most of the United States. This information, when used 
as part of a stake-holder process, provides a foundation to identify 
priority areas for conservation, restoration, and management. Examples 
of how these integrated data sets have been used range from helping to 
identify marine protected areas and no-trawl areas in California to 
developing comprehensive fish and wildlife management plans in Oregon 
and Florida to partnering with NOAA to assess priority sites for 
restoration throughout the country. We have also used regional planning 
information to provide guidance on energy siting decisions. We have 
shared these data and approaches through workshops, scientific 
publications, reports, and websites. Over the last several years, we 
have we have worked with partners to expand our conservation decision-
support tools to directly address fishery, coastal hazard, and energy 
objectives jointly with conservation objectives. Examples of these 
approaches and current products are available at www.marineebm.org. The 
key to these mapping tools is identifying a smart mix of fishing, 
resource extraction, and nature protection.
Developing Multi-Objective Marine Management Approaches: Adapting to 
        Protect Human and Natural Communities
    One cannot promote fisheries over all other alternatives, just as 
one cannot just promote only conservation. The world is not that 
simple. Instead resource managers must move from single objective plans 
and management (e.g., just conservation or just fish production) 
towards approaches that look at the trade-offs among multiple 
objectives and services. The aim is to identify solutions that minimize 
conflicts and maximize benefits among these multiple objectives and 
services. The Conservancy and partners have been developing approaches 
for combining fisheries, hazard mitigation, energy siting, and 
conservation objectives together into common frameworks.
    One of the areas where there are real opportunities for identifying 
win-win solutions for human and natural communities is in building 
approaches that combine hazard mitigation and biodiversity conservation 
in coastal zones. The goal here is to restore coastal ecosystems to 
preserve infrastructure and protect human communities. Coastlines have 
always been dynamic, but are now more so than ever because of changing 
storm patterns and sea level rise, placing human and natural 
communities at greater risk. The costs of these hazards to human and 
natural communities are increasing as coastal development continues and 
natural buffers, such as coastal wetlands and dunes, are lost.
    Despite a growing awareness of the reality of these hazards, 
communities and local decision makers still have little access to 
information on likely changes in storm and flooding risk or tools to 
visualize the potential impacts and identify alternative scenarios. As 
a consequence, communities are unable to integrate sea level rise and 
coastal hazard risk into decision-making regarding natural resource 
protection and land use management. This information is needed to 
protect human communities from the dramatic changes that are underway. 
The Conservancy has contributed to the development of two different 
examples of tools and approaches that can help address these services 
and objectives jointly in the Florida panhandle (www.marineebm.org/
32.htm) and a more advanced and developing decision support tool for 
the southern shores of Long Island (http://www.coastalresilience.org).
    The salt marshes, sea-grass beds and oyster reefs of Florida's Gulf 
Coast harbor manatees, sea turtles, piping plovers and many other 
threatened species, as well as serving as nurseries for economically 
important shrimp, crab and red snapper. These habitats also provide 
protection from storm surges that accompany hurricanes. Yet strategies 
to defend and restore coastal ecosystems--which could simultaneously 
assist people and expand habitats for threatened and economically 
valuable species--have largely been ignored in favor of engineering 
projects (diking, building levees, and hardening the coastline) that 
accelerate erosion and habitat loss. Working with scientists from the 
National Oceanic and Atmospheric Administration, TNC recently combined 
maps of critical habitats and threatened species in the Florida 
Panhandle with maps of anticipated storm surges and of human 
communities most physically and socio-economically vulnerable to storm 
damage. By overlaying these data sets, they were able to identify areas 
in which restoration should simultaneously protect the most vulnerable 
human populations as well as many of the area's most important species.
    On the south shore of Long Island, we have developed an interactive 
web mapping tool to explore flooding scenarios from sea level rise and 
storm surge for the south shore of Long Island, New York. The aim of 
the project is to support evidence-based decision making to better 
understand the risks to human and natural communities from climate 
change and to inform management options. The website (http://
www.coastalresilience.org) presents IPCC climate scenarios for flooding 
from sea level rise and storms and identifies some of their ecological, 
social, and economic impacts using models developed by NOAA and FEMA. 
We have incorporated management options such as the creation of buffers 
into the map server and there will be a full policy options report (and 
web summary) from the Pace University Land Use Law Center forthcoming. 
This interactive web-tool includes a set of alternative future 
scenarios that will help decision-makers keep the environment and 
public safety in mind as sea levels rise and coastal hazards increase. 
A wide range of partners across academia, government, and non profits 
are directly included in this effort. The partners include TNC, NOAA, 
NASA-Goddard, Association of State Floodplain managers (running FEMA 
models), University of California Santa Barbara, and University of 
Southern Mississippi, among others. There is a compelling need to 
expand this approach to the entire U.S. coastline. This is crucial to 
environmental protection and environmental justice.
Marine mapping and spatial planning: Key Points & Advice
    The Conservancy has worked on marine regional plans for more than 
10 years and with partners--including NOAA, EPA, USFWS, and many state 
agencies (e.g., Washington State Department of Natural Resources, 
Oregon Department of Fish and Wildlife)--has completed more than 15 
regional plans around the U.S. and internationally. You cannot manage 
marine habitats and ecosystems if you don't know where they are and for 
most coastal ecosystems, decent maps of even habitat distribution do 
not exist. In New York, the maps that are currently used for statewide 
salt marsh management are from 1974. In the Gulf of Mexico, the 
distribution of oyster reefs was better document in the 1880s than it 
is today. The technology for mapping habitats nearshore is becoming 
quick and cheap and a concerted investment in this sort of mapping will 
have a high payoff. There is not a lot of sense in having comprehensive 
spatial management tools if the base of information does not exist.
    In addition to the need for multi-objective plans described 
earlier, a second key element for the future of marine spatial 
management is in interactive decision support. We at TNC think the 
future is not in the prioritization tools per se but in our ability to 
examine alternative management scenarios interactively with 
stakeholders. The interactive decision support shown at www.marinemap 
and www.coastalresilience.org are two examples of useful approaches for 
the future. There is no one right answer to how to jointly manage the 
needs of natural and human communities. Interactive and scenario based 
tools allow stakeholders to examine alternatives and identify 
approaches.
    There is no common database(s) or clearinghouse for marine 
information to be used in decision making. There does not need to be 
just one common framework and database for marine information, but a 
common framework would serve us all well. For example, we support the 
efforts to develop a multipurpose marine cadastre.
Methods and tools that help us manage freshwater systems for people and 
        nature
    Human alterations to natural stream and river flow patterns take a 
serious toll on the plants, animals, and freshwater ecosystems that 
people depend on. Environmental flows are the amount and timing of 
water flows required to maintain healthy freshwater ecosystems and 
their benefits to human communities. A well-managed water resource is 
appropriately allocated to people's immediate needs and to 
environmental flows. Conservancy scientists have pioneered the field of 
environmental flows and developed tools that help water managers 
understand how much water a river needs in each season as well as 
across years to support important ecological functions and 
biodiversity. We have developed Indicators of Hydrologic Alteration, a 
software program that provides useful information for those trying to 
understand the hydrologic impacts of human activities or trying to 
develop environmental flow recommendations for water managers. We have 
also collaborated with the U.S. Army Corps on Engineers on a software 
program called the Regime Prescription Tool (HEC-RPT) to assist in the 
development of ecologically sustainable recommendations for dam 
operations.
    We are also developing specific tools that assess the effect of 
land use changes on freshwater ecosystems. In particular, Water for 
Tomorrow, a web-based tool being developed in partnership with IBM, 
will provide a modeling and visualization platform to allow users to 
assess the water and sediment yields of a landscape from current and 
projected scenarios of land cover. This project is set to conclude in 
April of 2010, resulting in a free-standing and broadly accessible 
product.
    From The Conservancy's perspective, society is at a crossroads in 
water management and freshwater conservation. If society chooses to 
continue as it has, the health of our freshwater ecosystems will 
continue to decline at an alarming rate. But we can choose a different 
path, one which addresses human and ecosystem needs for water, one in 
which critical water quantity patterns are protected along with water 
quality. Capitalizing upon this opportunity, The Conservancy is 
contributing to the development of two certification programs that will 
promote sustainable water use, dam planning and operations, and 
catalyze the engagement of corporate leaders, water utilities and the 
hydropower industry. Please go to http://
allianceforwaterstewardship.org/ for more information about one of 
these efforts.
Valuing Natural Capital in order to make smart decision about 
        development, infrastructure, and land or water use
    Long ago The Conservancy realized that the world is not divided 
into pro-environment and anti-environment. Rather, everyone seeks a 
better world and the trick is to have tools that help us see the 
consequences of our decisions with as complete a cost-benefit analysis 
as possible. As a partnership with Stanford University and World 
Wildlife Fund, we have developed spatially explicit mapping and 
valuation tools, called InVEST (see http://
www.naturalcapitalproject.org/InVEST.html). The motivation for this 
approach is simple: relative to other forms of capital, assets embodied 
in ecosystems are often poorly understood, scarcely monitored, and 
undergoing rapid degradation. Often the benefits that natural 
ecosystems deliver to humans are recognized only upon their loss. For 
example, Hurricane Katrina brought broader recognition of the 
importance of coastal ecosystems in dissipating the energy of large 
waves that occur during storms. Natural capital and the ``ecosystem 
services'' that flow from nature are typically undervalued--by 
governments, businesses, and the public--if indeed they are considered 
at all.
    Two fundamental changes need to occur to replicate, scale up, and 
sustain the pioneering efforts underway to give ecosystem services 
weight in decisions. First, the science of ``ecosystem services'' (the 
delivery of benefits from natural ecosystems to humans) needs to be 
advanced rapidly. In promising a return on investments in nature, the 
scientific community needs to deliver knowledge and tools to quantify 
and forecast this return. Second, ecosystem services must be explicitly 
and systematically integrated into decision-making by individuals, 
corporations and governments. Without these advances, the value of 
nature will remain little more than an interesting idea captured in 
small, scattered, and idiosyncratic efforts.
    The tool we have been developing (InVEST) is a suite of models that 
uses land use and land cover patterns to estimate levels and economic 
values of ecosystem services, biodiversity conservation, and market 
value of commodities provided by the landscape. Examples of the 
ecosystem services and commodity production that InVEST can model 
include water quality, water provision for irrigation and hydropower, 
storm peak mitigation, soil conservation, carbon sequestration, 
pollination, cultural and spiritual values, recreation and tourism, 
timber and non-timber forest products, agricultural products, and 
residential property value. InVEST can be run at different levels of 
complexity, making it sensitive to data availability and an 
understanding of system dynamics. Results can be reported in either 
biophysical or monetary terms, depending on the needs of decision-
makers and availability of data. We have been applying InVEST in 
Hawaii, California, Washington State, China, and Colombia. This 
approach has already proven to be influential with decision-makers and 
has brought a common currency to bear on discussions among private 
enterprise, government, and environmental groups regarding development 
projects and land use.
Synthesis and Presentation of Environmental and Resource Information
    When you work internationally as I do, you quickly realize we in 
the USA have the best data and best information on soils, topography, 
land cover, stream flows, climate data and so forth anywhere in the 
world. We could also have the best data on ecological processes and 
biodiversity with modest increases in investment. But we do not get the 
full benefit of our information advantage. Information on something as 
critical as climate change, past and future, is not readily accessible 
to decision makers or land and water-use planners. It is for this 
reason that TNC scientists have begun to develop a tool called 
``Climatewizard'' (see www.climatewiz.org) that allows one to pick any 
state in the USA or any country in the world and get records of past 
temperature and precipitation trends as well as future projections 
under different scenarios.
    There is so much environmental and ecological information out 
there, that decision-makers and the public get overwhelmed. For that 
matter, even scientific experts can be overwhelmed. There are two tiers 
of information and data synthesis needed. One tier concerns the simple 
tools The Conservancy has been using. Importantly, one must understand 
the limitations and biases of those tools. For that reason serious 
scientific research aimed at modeling and synthesis across disparate 
datasets (such a population distribution, wealth, climate 
vulnerability, freshwater flows, and biodiversity) are essential. Much 
of The Conservancy's success at developing practical tools is due to a 
``hidden'' support base of analysis by researchers at universities, and 
especially the National Center for Ecological Analysis and Synthesis 
(see http://www.nceas.ucsb.edu/). The nation desperately needs centers 
such as NCEAS. NCEAS has supported resource management and conservation 
around the world through its synthesis of environmental data and 
development of prototype models that resource management institutions 
can then tailor to everyday practical decisions.
    We live in a time of rapid population growth, dramatic climate 
disruption, economic stress, and critical resource decisions. In spite 
of these challenges we still have many options. In the United States we 
have vast areas of intact ecosystems and some of the world's cleanest 
rivers. Energy development, coastal development, infrastructure 
development, agriculture and forestry can be done smartly in a way that 
gives us a sustainable future. But this will happen only with science-
based decision-support tools, easy access to wide-ranging datasets, 
institutions that support synthesis and analysis, and monitoring of the 
environment in critically vulnerable regions. By combining climate 
change models with models of ecosystem services and human vulnerability 
it is possible to pinpoint sentinel sites for the monitoring of our 
national well-being. While The Conservancy can help develop practical 
tools, we cannot collect the early-warning data that the nation needs. 
We encourage the nation to invest in sentinel sites that track changes 
in our most vulnerable ecosystems. To do otherwise would be 
irresponsible. Moreover, as we develop the information systems and 
decision-support models, we can lead the world ``other nations are 
hungry for the tools that we are developing.
    Access to data and easy-to use decision support tools are the keys 
to smart choices about our future. We know how to do this--we need only 
to invest in expanding these efforts.
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Dr. Kareiva. Your work 
in developing important applied tools is very encouraging.
    And our next witness that will speak to us is Mr. Thompson 
from Stanford University. Mr. Thompson, the floor is yours. 
Please begin.

    STATEMENT OF BARTON H. THOMPSON, JR., PERRY L. McCARTY 
    DIRECTOR, WOODS INSTITUTE FOR THE ENVIRONMENT, STANFORD 
    UNIVERSITY, AND ROBERT E. PARADISE PROFESSOR OF NATURAL 
               RESOURCES LAW, STANFORD LAW SCHOOL

    Mr. Thompson. Madame Chair and Members of the Committee, 
thank you very much for the opportunity to testify here today.
    There are multiple challenges that are currently facing our 
efforts for oceans and wildlife. Climate change, competition 
from a growing set of land uses, including alternative energy 
development, reduced funding levels; all of these will require 
a shift in the character of the agencies that are responsible 
for the management of our oceans and land, and the laws that 
are underpinning them.
    Today, separate agencies often manage separate sectors, 
sometimes with minimal coordination. In the oceans area, for 
example, one agency will manage the marine reserves, another 
agency will manage oil and gas development. We have something 
in the nature of 20 different agencies that are responsible for 
management in the Federal oceans, and additional ones on the 
state side.
    Today, most agencies focus on current needs and demands, 
and don't necessarily have to plan ahead for future challenges. 
In administering some laws, such as the Endangered Species Act, 
Federal agencies are inevitably crisis-driven.
    Today, conservation statutes generally do not admit trade-
offs among species.
    Today, managerial actions are largely static. Today, 
management decisions tend to focus on relatively small, and 
sometimes isolated, areas, not on broad ecological regions.
    Today, the funding that agencies have to undertake their 
responsibilities is often inadequate.
    The nature of the new challenges that are facing 
conservation efforts will require change.
    In the future, agencies with overlapping geographical 
jurisdictions will need to coordinate, both to minimize 
conflicts between competing uses, and also to maximize 
protection.
    In the future, agencies will need to be more proactive in 
anticipating the impacts of climate change, and also competing 
uses.
    In the future, conservation agencies may need to engage in 
triage, and recognize that some species inevitably will 
disappear.
    In the future, planning will need to be more comprehensive, 
and in particular, focused on the creation of an integrated 
network of reserves.
    In the future, agencies will need to make greater use of 
adaptive management. And unfortunately, in the future, agencies 
will have to accomplish even more, with actually fewer 
resources.
    These changes may, in some cases, require modification of 
existing laws, or the adoption of new laws.
    In your letter of invitation to me, you asked for my views 
on the priorities for creating new legal frameworks. 
Thankfully, current laws provide significant discretion to 
existing agencies to accomplish many of the things that they 
need to do in the face of the challenges that you are 
examining. However, there are probably two priority areas that 
you may wish to review.
    The first is to see whether or not there is currently 
adequate authorization for the creation of integrated networks 
of reserves on both land and water, that are climate-aware.
    The second area would be to examine current laws to see 
whether or not there exists an adequate system at the moment 
for coordinating among the multiple Federal agencies with 
responsibilities over activities on Federal lands and oceans, 
and for proactive planning on how to utilize such lands.
    There is reason, I think, for optimism. You already have a 
sizable number of laws that provide a foundation for agencies 
to do again what they will need to do in the future to address 
climate change, a growing number of competing uses, and reduced 
funding. As you will hear from the other witnesses, there are 
emerging tools to manage these various challenges.
    With that, I will submit my written testimony, and look 
forward to your questions.
    Thank you very much.
    [The prepared statement of Mr. Thompson follows:]

Statement of Barton H. Thompson, Jr., Perry L. McCarty Director, Woods 
Institute for the Environment, Robert E. Paradise Professor of Natural 
                   Resources Law, Stanford University

    Madam Chairwoman and Members of the Committee, thank you for 
inviting me to testify before you today on this important subject. My 
name is Barton Thompson. I am one of the two directors of Stanford 
University's Woods Institute for the Environment, which brings together 
over 300 faculty members at the university to help develop practical 
solutions to sustainability challenges. I am also a professor of law at 
Stanford University and have extensive experience with many of the laws 
under your jurisdiction. I serve on the board of several land trusts 
and foundations supporting land and marine conservation. I am 
testifying today in my individual capacity.
    My testimony will focus on the institutional needs for protecting 
ocean and wildlife resources in the face of climate change and other 
emerging challenges. In particular, what types of governmental 
institutions, programs, and processes will be needed for effective 
protection?
    The good news is that current Congressional legislation already 
provides many of the management tools and much of the authority and 
discretion that the government will need to address climate change and 
other emerging challenges in the coming decades. Many key federal 
agencies, moreover, have already begun to use their authority to 
develop programs and strategies for addressing the challenges. The 
United States Geological Survey, for example, has created the National 
Global Warming and Wildlife Science Center to project climate impacts, 
help federal agencies develop effective adaptation strategies, and 
collaborate in developing new tools. The U.S. Fish & Wildlife Service 
has developed a draft Climate Change Strategic Plan for the 21st 
Century, in which it commits to developing a National Fish and Wildlife 
Adaptation Strategy.
    To provide effective protection, however, the federal government 
will need to (1) adopt new management approaches focused on creating 
effective networks of land and ocean reserves and on adapting over time 
to climate change; (2) collect, analyze, and use information regarding 
the state of, and trends in, land and marine species and ecosystems in 
the face of climate change; and (3) coordinate and collaborate more 
actively among themselves and with state managers, conservation 
organizations, private landowners, and other local stakeholders. 
Resource managers may also need to establish priorities in attempting 
to conserve species, recognizing that some species will be more 
difficult than others to protect in the future. These additional steps 
may require new authorizing and guiding legislation and almost 
certainly will require new resources. Given the increased conservation 
effort that is likely to be required in the future, all levels of 
government will want to look for new ways of reducing the cost of 
conservation efforts (e.g., by finding ways of conserving species on 
farms, ranches, and other ``working landscapes'' that also produce an 
economic profit) and identify new potential funding sources (e.g., by 
turning to those who benefit from the ecosystem services often provided 
by effective conservation).
I. Emerging Challenges
    In prior sessions of Congress, the Subcommittee has already heard 
testimony on the emerging challenges to protection of fish and wildlife 
resources and ecological services. A quick overview of these challenges 
is important, however, because they form the basis for determining what 
institutional changes may be necessary.
    The potential pressures from climate change head the list of 
challenges. No matter what mitigation measures the United States 
chooses to adopt, the effects of greenhouse gases in the atmosphere 
have substantial lag time and are predicted to impact fish and wildlife 
for decades to come through changes in temperature, water availability, 
wildfires, sea level, ocean acidification, and pests. Scientists 
predict that, in North America, temperature rise will shift the range 
of many species northward and to higher altitudes. A growing number of 
studies indicate that recent temperature rises have already begun to 
affect the ranges and migration patterns of species in the United 
States and globally. Scientific studies also suggest that ocean fish 
populations will be affected both by continuing increases in water 
temperature and decreases in recovery periods as extreme events occur 
more frequently.
    One of the most troubling aspects of climate change for managers of 
fish and wildlife is the high level of uncertainty involved. 
Uncertainty regarding the level of climate change that will occur is 
compounded by uncertainty regarding the impact of that change on 
ecosystems and the fish and wildlife that inhabit them. Many scientists 
believe that the nation is facing a ``no analog'' future for fish and 
wildlife: current ecosystems will disassemble as species try to adjust 
to climate change, and then reform into new assemblies.
    Land and ocean ecosystems also face new competing interests. 
Important efforts at energy development, in particular, may create new 
pressures on fish and wildlife. Both the new administration and the 
111th Congress have announced that alternative energy development will 
be a priority. Land managers will need to coordinate projects to 
develop solar, wind, geothermal, and other energy sources with 
potentially conflicting conservation objectives. Ocean managers will 
need to coordinate protection of fish and ocean ecosystems with 
increased interest in liquefied natural gas facilities, renewable 
energy projects involving wave and tidal energy, and coastal 
aquaculture, as well as potentially with new oil and gas operations.
    Government agencies and private conservation organizations, 
moreover, will need to protect ocean and wildlife resources in the face 
of more limited resources. State managers are already facing reduced 
conservation budgets both because of reduced tax revenues and a fall-
off in new bond measures that have historically supported conservation 
efforts in many states. Private conservation organizations are affected 
not only by these same revenue declines, but also by a reduction in 
private donations.
II. Ensuring that Institutions Are Up to the Challenges
    Existing laws and institutions designed to protect fish and 
wildlife will remain central to addressing the challenges outlined 
above. One of the most important steps in helping species adapt to 
climate change, for example, will be to reduce the other stresses that 
the species face--e.g., habitat loss and fragmentation, over-
utilization, pollution, and invasive species. Reducing these other 
stresses can increase natural resistance and resilience to climate 
change. A limited number of studies also suggest that climate change 
can exacerbate other stresses. Changes in water flows, for example, 
might worsen the impact of water pollution. To the degree that current 
programs to address non-climate stresses are successful, therefore, the 
affected species are more likely to survive climate change. And because 
many of these stresses are local and discrete, they will often be 
easier to address than climate change.
    In looking beyond current programs, however, eight considerations 
are important in designing new institutions, programs, and tools. It is 
important to emphasize that, because the need to adapt to climate 
change is a new challenge, there is little experience upon which to 
directly draw in divining best practices for ocean and wildlife 
management. Scientific studies of how species respond to climate 
impacts and experience with similar challenges, however, can provide 
useful initial guidance.
1. Proactively Incorporate Climate Considerations into Management 
        Programs and Plans
    First, government conservation managers should use the best 
information available regarding the potential future impacts of climate 
change on ecosystems and species to proactively seek to protect those 
ecosystems and species. Many of the nation's current laws are focused 
on ``crisis management,'' protecting species that are already in 
trouble from immediate threats, rather than anticipating and avoiding 
future problems. Where management takes place in a crisis setting, 
management agencies generally have only limited options, and conflicts 
with various stakeholders are more likely. To the extent the government 
can identify at an early stage climate-vulnerable species, the habitat 
that they may need to survive, and steps that can reduce the impact of 
climate change on the species, the government is likely to be more 
effective in protecting the species and to avoid the need either to 
ultimately list the species under the Endangered Species Act (ESA) or 
engage in other forms of crisis management.
    Once a species is listed under the ESA, the Act appears to give the 
Fish & Wildlife Service and the National Oceanic and Atmospheric 
Administration (NOAA) significant authority to proactively address 
climate-related threats to the species. Section 4(a)(ii), for example, 
appears to allow these agencies to designate as ``critical habitat'' 
areas that will be essential future habitat for the species in light of 
climate change, even though the areas are not currently occupied by the 
species. Under the recent decision in NRDC v. Kempthorne, 506 F.Supp.2d 
322 (E.D.Cal. 2007), the agencies must also consider the effects of 
climate change in jeopardy consultations (at least where the effects 
are ``reasonably certain to occur'' and ``reasonably expected'' to 
jeopardize the relevant species). In evaluating the adequacy of habitat 
conservation plans (HCPs) under section 10, the agencies would appear 
to be authorized to require that the HCPs address ``reasonably 
foreseeable'' risks from climate change.
    The regulatory provisions of the ESA, however, were not designed to 
address uncertain future threats such as climate change and therefore 
are not sufficient to provide the type of proactive management that is 
likely to be needed. First, the ESA covers only species that are 
already endangered or threatened (i.e., are already at a crisis stage). 
Second, many provisions of the Act can be used only awkwardly, at best, 
to provide proactive management. Section 9, for example, applies only 
to land modifications that pose proximate and foreseeable harm to 
endangered species, making it very difficult to regulate land uses that 
pose threats to likely future habitat or to important corridors. 
Finally, even where the ESA permits some degree of proactive management 
as described above, the level of uncertainty involved in predicting the 
future range and needs of listed species may frequently make it 
impossible to meet the Act's standards.
    Although federal laws would appear to provide the Fish & Wildlife 
Service and NOAA with the authority to proactively manage federal areas 
under their jurisdiction for the risks of climate change, neither 
agency has historically engaged in such planning. The National Wildlife 
Refuge System, for example, lacks a system-level proactive planning 
program for climate change. The management of federal marine reserves 
also does not currently incorporate projected impacts from climate 
change. Both agencies, however, have begun to consider how to 
incorporate climate change into their missions.
    The federal government might consider several proactive steps in 
addressing climate change. First, in establishing new land or ocean 
reserves, the government could consider what areas will be most 
important in light of likely climate impacts. New refuges might focus 
on what scientists often refer to as ``refugia,'' which are areas that 
will probably be less affected by climate change and therefore safe 
havens for climate-sensitive migrants or sources of ``seeds'' that can 
be transplanted elsewhere. For example, marine protected areas might 
focus on areas where upwelling reduces thermal stress. New refuges 
might also focus on establishing current or future havens for species 
that are likely to be most vulnerable in other locations to climate 
change impacts.
    Second, governmental agencies could incorporate climate change 
projections into their management plans for existing reserves. As 
mentioned earlier, the Fish & Wildlife Service has already begun to 
examine this option. Finally, the national government could develop new 
incentive systems and other programs to encourage the conservation of 
private lands that are likely to be essential for the future survival 
of species in the face of climate change, either as refugia or as the 
destination of migrating species.
2. Consider ``Resilience,'' ``Replication,'' and ``Connectivity.'' in 
        the Creation and Management of Reserves
    A related goal in establishing new reserves or conservation 
programs, and in managing existing ones, should be to maximize the 
probability that the reserves will protect species over the long run in 
the face of climate change. In discussing what types of reserve system 
are likely to do so, scientists often talk in terms of ``resilience,'' 
``replication,'' and ``connectivity.'' Resilience refers to the ability 
of an ecosystem or species to resist shocks or surprises and to 
revitalize or repair itself if damaged. Scientists believe that 
ecosystems with high biodiversity will more easily recover from climate 
impacts. As mentioned earlier, reserves that are not under other 
stresses are also likely to be more resilient to climate change. 
Replication emphasizes the importance of creating a reserve system that 
includes multiple examples of key species or ecosystem so that, if 
species die out in one area, the species might still survive in another 
and provide a long-term source for recolonization. Finally, 
``connectivity'' emphasizes the importance of providing connections 
between reserves both so that species can move from one reserve to 
another in response to climate change and so that species that survive 
in one area can naturally recolonize another.
    A variety of governmental agencies and private conservation groups 
around the world are already utilizing these concepts to design reserve 
systems that are more likely to resist or recover from climate impacts. 
In the Florida Keys, for example, The Nature Conservancy (TNC) has 
created a Florida Reef Resilience Program to try to enhance the 
probability that coral reefs will survive climate change and other 
impacts. TNC is growing multiple coral genotypes at different locations 
along the reef and studying their survival. This in-place experiment 
will provide important knowledge about the genetic and geographic 
determinants of reef resilience and provide the basis for the 
selection, creation, and management of more resilient reserves in the 
face of climate change. The Australian government has adopted a Climate 
Change Action Plan for the Great Barrier Reef Marine Park that also 
focuses on protecting those areas with high resilience (as determined 
by such factors as water quality, coral cover, community composition, 
larval supply, recruitment success). In their work in the Australian 
Central Desert, TNC and the Australian Wildlife Conservancy are focused 
on creating connections between protected lands in order to maximize 
the probability of successful migration of species when necessary for 
survival.
    These experiences, along with scientific studies, suggest again a 
number of considerations for improving the effectiveness of 
conservation laws and practice in the United States. First, focus on 
the creation of networks of effective protected areas, rather than on 
the creation of a portfolio of separate sites. The nation's current 
system of wildlife refuges, for example, largely consists of a number 
of separate sites that are often small, located in altered landscapes 
(and thus subject to significant external stresses), and incompletely 
representing imperiled species. The system would likely be more 
effective in the face of climate change if it consisted of a network of 
interrelated, resilient reserves. To the degree possible, the network 
would replicate critical ecosystems and species and would be connected 
by corridors permitting species to migrate northward or upward in 
response to climate change. Where possible, the network would include 
reserves along climate gradients, in order to ensure effective 
migration in response to climate change.
    Creation of a network of marine protected areas would also be 
valuable in protecting the oceans against the impacts of climate 
change. In an ideal world, the network would protect a full range of 
habitat and community types, and include areas of apparent resilience 
(e.g., reefs that still have high coral cover). The network would also 
ensure that the individual reserves were connected by taking into 
account currents, larval dispersal, and the movement of adults. Much 
like a diverse stock portfolio can reduce financial risk in normal 
economic conditions (albeit not today), such a network would also 
reduce risk to marine ecosystems and species from climate change.
    A number of governments have created or are developing effective 
systems of marine reserves. The Australian government has created a 
network of marine reserves as part of its Great Barrier Reef Marine 
Park. In the United States, California is currently developing a system 
of marine reserves in an even larger geographic areas, the state's 
entire coastline, under its Marine Life Protection Act (MLPA).
    Current laws in the United States would appear to provide adequate 
authority for the creation of such reserves. In practice, however, 
absent legislative directive, most reserves have been established on an 
individual basis rather than as part of a more comprehensive and 
strategic network. California's creation of a network of marine 
reserves has been advanced by (1) explicit legislation calling for the 
creation of such reserves (the MLPA), (2) the establishment of 
deadlines for the creation of such reserves, and (3) the creation of an 
institutional structure, including science advisory teams and regional 
stakeholder groups, to advice in the design and selection of the 
reserves.
    Second, to the extent possible, reserves should minimize stresses 
on protected species from outside activities. Where practical, wildlife 
reserves should be surrounded by buffer zones that minimize stress from 
adjacent land uses. Wildlife refuges should also have adequate water 
supplies. Many refuges today have only limited jurisdiction or 
authority over needed water. For this reason, the Fish & Wildlife 
Service's draft strategic plan emphasizes the need to work with other 
governmental agencies and water users to ensure water resources of 
adequate quantity and quality. Marine reserves also can benefit from 
buffer areas. Australia's Great Barrier Reef Marine Park provides for 
buffering, and a new proposal in California would ``zone'' the coastal 
waters in part to ensure that uses adjacent to marine protected areas 
are compatible with the protection.
3. Provide for Flexibility and Adaptation
    The uncertainty surrounding the impact of climate change on oceans 
and wildlife calls for flexibility and adaptive management in response 
to climate change over time. The Great Barrier Reef Marine Park is 
effective in part, for example, because the flexibility of its 
management plans have permitted adjustments in the face of new 
information. The marine park has established a variety of tools to 
which it can turn as soon as new information becomes available showing 
the need for the tools, ensuring that managers can respond rapidly and 
responsively to ongoing changes.
    Many of the existing conservation laws in the United States would 
seem to allow for, or in some cases explicitly call for, flexibility 
and adaptive management in the face of climate change. Section 7 of the 
ESA, for example, provides that agencies must reinitiate consultations 
if ``new information reveals effects of the action that may affect 
listed species or critical habitat in a manner or to an extent nor 
previously considered.'' The laws governing the National Wildlife 
Refuge System would appear to give the Fish and Wildlife Service 
substantial latitude to manage the system adaptively.
    In practice, however, adaptive management is only infrequently 
utilized. In some situations, the law does not provide adequate 
flexibility. Some wildlife refuges established by presidential 
proclamation, for example, have very specific purposes that limit 
flexibility. Section 7 of the ESA provides for reinitiations of 
consultation only where the affected federal agency has retained 
discretion over the covered action. In the case of private land trusts, 
federal tax laws require the creation of perpetual conservation 
easements that may be difficult to modify in response to climate 
change. In other cases, both the flexibility and authority needed to 
engage in adaptive management might exist but there is no requirement 
that it be utilized. Even where section 7 of the ESA provides for the 
reinitiation of consultations in the face of relevant new information, 
for example, there is no affirmative obligation to seek out new 
information.
    A number of practical considerations often discourage the use of 
adaptive management where it is not required. First, the flexibility of 
adaptive management can conflict with the degree of certainty that is 
often demanded both (1) by private landowners and other commercial 
interests whose actions may be affected by management changes, and (2) 
by conservationists seeking to ensure protection. As a result, property 
owners and other commercial stakeholders often oppose the use of 
adaptive management and have no incentive to provide new information 
that might lead to the adoption of new management measures. As 
illustrated by the recent decision in NRDC v. Kempthorne, courts may 
worry that adaptive management measures are too open ended and 
insufficiently certain to provide effective management. Efforts such as 
the Fish & Wildlife Service's ``no surprises'' policy can reduce 
uncertainty for property owners but, in the view of some environmental 
organizations, only at the cost of threatening to undermine the 
agency's use of its adaptive discretion. Second, the legal focus on 
``final agency action'' may also indirectly discourage agencies from 
engaging in adaptive management. NEPA, the Administrative Procedure 
Act, and specific conservation laws all emphasize finality, and the 
process required to develop a final agency action may tend to lock such 
actions into place.
    Limited resources also restrict the use of adaptive management. 
Most conservation agencies have little funding and other resources 
available to engage in monitoring and the development of iterative 
actions. Management agencies also often lack the metrics needed to 
implement adaptive management.
    The effective use of adaptive management to address climate change 
may therefore require explicit Congressional directive and support. New 
incentive systems may also need to be created to reduce stakeholder 
opposition to climate change. Some studies, for example, have urged the 
creation of economic incentives to encourage permittees under section 
10 of the ESA to provide information regarding species on their 
property that could call for adaptive measures.
4. Develop & Use Adequate Information & Science
    In order to implement the above approaches, governmental agencies 
need significant new science and information, including:
    <bullet>  Models that can predict, at regional and local levels, 
the likely impacts of climate change on fish and wildlife. Such models 
are critical to proactive management, the creation of effective reserve 
networks, and identifying adaptive measures.
    <bullet>  Baseline data on current ranges and distributions of 
species. This data is again important in all of the approaches 
described above.
    <bullet>  Monitoring of ecosystems and species over time. Important 
data can include ranges, distributions, abundance, changes in 
phenology, arrival and departure times of migrants, flowering dates for 
plants, and emergence dates for insects. Such monitoring data is 
critical to effective adaptive management and to determining what 
management approaches are likely to work in the future. Such data can 
also be used to help inform the public and relevant stakeholders about 
the impacts that climate change is having on oceans and wildlife.
Governmental agencies and other conservation groups also can benefit 
from more robust and comprehensive exchanges of information regarding 
the effectiveness of various measures to address climate change.
    Significant work is still needed on all of these fronts. The 
National Research Council, for example, has concluded that climate 
change predictions are still relatively poor at both the regional and 
local scales. Few conservation agencies have either substantial 
baseline data or monitoring programs. Studies of HCPs, for example, 
have concluded that few HCPs have well-developed and statistically-
valid monitoring programs. (Due to cost and for the reasons discussed 
in the last section, moreover, land owners oppose significant 
monitoring requirements.) Although the National Wildlife Refuge System 
Administration Act requires the Fish & Wildlife Service to monitor the 
status and trends of fish, wildlife, and plants in each refuge, the 
service's budget has not kept up with the needed work. While a large 
percentage of refuges have presence information regarding relevant bird 
species, for example, many have no information regarding seasonal 
presence or abundance.
    Effective management in the face of climate change could therefore 
benefit from support for several new scientific efforts. First is the 
development of new models of regional and local impacts from climate 
change that could aid in the development of simulation maps and other 
tools for predicting ecological changes in response to climate change. 
Second is an inventory of the existing ranges and abundances of at-risk 
species in order to establish a baseline against which management 
actions can be planned and evaluated. Third are nationally coordinated 
monitoring systems that can be used by management agencies to gauge the 
success of management measures and decide on needed adaptive measures. 
The Fish & Wildlife Service in its draft strategic plan calls 
explicitly for a National Biological Inventory and Monitoring 
Partnership. The final effort is a national interagency climate-change 
information network that can exchange information on successful and 
unsuccessful management efforts.
    Efforts to collect new information can build off of existing 
efforts, such as NOAA's Coral Reef Ecosystem Integrated Observing 
System (CREIOS) and the USGS's National Phenology Network. In many 
cases, efforts to inventory and monitor species may be able to enlist 
community volunteers. A privately-supported example is the Reef Check 
program that uses community volunteers to collect coral reef monitoring 
data to supplement scientific and governmental data.
5. Integrate Across Institutions & Geographic Areas
    Climate change and other emerging challenges to the effective 
management of oceans and wildlife are likely to require greater 
management integration across geographic areas and management 
institutions. As discussed earlier, addressing climate change may 
require large networks of protected areas, including corridors for 
moving between areas. Existing governmental reserves tend to be 
relatively small and, on land, embedded in a matrix of private land 
ownership. Such fragmentation restricts the ability of the government 
to address changing dynamics. Even if we started from scratch to create 
reserve networks, moreover, no single agency or private conservation 
group would be likely by itself to be able to create an optimal 
network. And today coordination among agencies may be more practical 
and efficient than significant expansion of individual reserve systems. 
Other groups also frequently have control over potential external 
stresses. Water supplies for national wildlife refuges, for example, 
are often under the control of water agencies such as the Army Corps of 
Engineers or the Bureau of Reclamation, rather than the Fish & Wildlife 
Service.
    A number of groups, ranging from the Fish & Wildlife Service to the 
Western Governors' Association, have therefore called for national and 
regional task forces or partnerships to help bring together national, 
state, and local agencies, as well as private conservation groups and 
landowners, to address climate change on a more comprehensive basis. 
Although agencies and other groups probably have the authority to enter 
into such partnerships already, Congress might be able to help promote 
and speed the formation of such partnerships through explicit 
legislation and funding. Conservation partnerships could have multiple 
purposes, including coordinating conservation actions, building 
essential connectivity among reserves, reducing local stresses, and 
protecting needed water resources. Such partnerships can build on 
existing partnership or funding programs (such as the Partners for Fish 
and Wildlife Program or the State Wildlife Grants program), although 
Congress might wish to rationalize these programs into a more 
integrated system rather than simply building haphazardly on top of 
existing programs.
    Greater integration among agencies can also help in addressing the 
increasing conflicts between energy and conservation uses both on land 
and in the oceans. Different agencies have authority over various 
commercial uses of land and oceans and over conservation efforts. These 
differing agencies also tend to have conflicting missions, policies, 
and programs, and they are used to having sole responsibility over the 
activities under their jurisdiction. Effective coordination of 
activities is therefore often exceptionally difficult.
    A recent study of conflicts in the use of California's territorial 
waters examined a variety of options for resolving such conflicts among 
state agencies and creating an effective system for managing competing 
ocean activities. (See Deborah A. Sivas & Margaret R. Caldwell, A New 
Vision for California Ocean Governance: Comprehensive Ecosystem-Based 
Marine Zoning, 27 Stan. Envtl. L.J. 209 (2008).) The least radical 
option was to legislatively create a common set of management 
principles that all agencies would need to consider and follow in 
carrying out their management responsibilities. At the more radical end 
of the spectrum, the legislature could create a master management plan 
to be implemented by a single agency. Intermediate options would allow 
existing agencies to maintain their current management jurisdictions 
but subject them to varying levels of oversight and review by a 
``master agency.'' The study ultimately concluded that a balance was 
needed between protection of existing jurisdictions (given the 
significant expertise that existing agencies have developed over time) 
and the need for establishing a coordinated management regime among the 
agencies.
6. Be Willing to Consider the Necessity of Triage
    Scientific discussions have begun to suggest that triage might be 
needed in protecting oceans and wildlife in an age of climate change. 
Some species may not be able to adjust to climate change. For example, 
species such as the Devil's Hole pupfish, which lives in a single cave 
in Ash Meadows National Wildlife Refuge in Nevada, may not be able to 
adjust to change. Climate change, moreover, may quickly overburden the 
abilities of conservation agencies to respond.
    Some governmental agencies have already begun to prioritize actions 
based on the chances of success. In a recent report, for example, the 
Tahoe National Forest stated that it has decided not to engage in some 
projects that might not succeed due to climate change--e.g., trying to 
restore salmon in rivers that are not likely to provide suitable future 
habitat.
    Most conservation laws, however, including the ESA, appear to 
demand action in the face of jeopardy and do not appear to allow for 
consideration of feasibility. Agencies, moreover, have little 
experience with explicit tradeoffs. Congress, therefore, may need to 
provide guidance to federal agencies on how to deal with species that 
cannot be effectively protected or protected only with great difficulty 
in a time of limited resources. Should resources be spent, for example, 
under the ESA in developing recovery plans for non-recoverable species? 
One policy option for dealing with this issue would be to focus 
attention on ecosystem-based management rather than on single species 
and seek to support long-term species diversity.
7. Seek Methods for Reducing Costs
    Given the sizable task of trying to protect oceans and wildlife in 
the face of climate change, governmental agencies at all level will 
need to find methods of reducing the costs of conservation measures. 
Land conservation managers, for example, might where possible consider 
the feasibility of carrying out management measures (such as the 
creation of corridors) on farms, ranches, and other working landscapes 
before seeking to establish non-use reserves. Allowing the use of land 
while promoting conservation can reduce the costs of the conservation. 
Conservation agencies might similarly look to relatively liberal 
easements (with consequently lower price tags) where appropriate before 
considering fee acquisitions of property. In all of these cases, 
federal agencies would seem to have the general authority to consider 
lower cost options, although agency culture or specific Congressional 
mandates might present an obstacle.
8. Look for New Funding Sources
    Finally, governmental agencies at all levels, as well as private 
conservation organizations, could obviously benefit from new funding 
sources. As earlier discussion suggests, conservation in the face of 
climate change is likely to be expensive. One potential source of 
funding could be ecosystem service markets in which the beneficiaries 
of ecosystem services help pay for conservation measures that protect 
those services. Existing ecosystem service markets tend to be 
relatively small and localized (with the exception of the emerging 
carbon sequestration market), and the degree to which more significant 
markets will arise is questionable.
    Efforts to quantify and value ecosystem service markets, however, 
can be helpful here. The Natural Capital Project (a collaboration among 
Stanford, The Nature Conservancy, and WWF) is one of several groups 
developing tools that can help in this quantification and valuation. 
Congress can help facilitate such markets through provisions such as 
section 2709 of the Food, Conservation, and Energy Act of 2008, which 
has led to the creation of the government-wide Conservation and Land 
Management Environmental Services Board. Even where markets for 
ecosystem services do not arise, the ability to quantify and value the 
services flowing from conservation may help local and state governments 
justify continued financial support of critical conservation 
measures.DISCLOSURE REQUIREMENT
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Mr. Thompson. And I now 
recognize Mr. Baughman to testify.

              STATEMENT OF JOHN BAUGHMAN, MEMBER, 
                 SPORTING CONSERVATION COUNCIL

    Mr. Baughman. Thank you, Madame Chairwoman, Mr. Hastings, 
Members of the Subcommittee, for this opportunity to testify 
today.
    I am John Baughman, a biologist by training, former 
Director of the Wyoming Game and Fish Department, former 
Executive Director of the Association of Fish and Wildlife 
Agencies here in Washington. I am currently on the Sporting 
Conservation Council, which is a FACA committee that advises 
both the Secretaries of Interior and Agriculture on sportsmen's 
issues, including wildlife conservation.
    Over the past year I have been involved in three parallel, 
but independent, efforts to formulate recommendations on fish 
and wildlife conservation for the new Administration and 
Congress.
    The first is in my role with Sporting Conservation Council, 
where we developed a series of white papers on eight of the 
biggest conservation issues of our time. Those are contained in 
a report entitled, ``Strengthening America's Hunting Heritage 
and Wildlife Conservation in the 21st Century.''
    The second effort worked with the American Wildlife 
Conservation Partners--that is a consortium of 42 conservation 
organizations--to revise their recommendations for the Obama 
Administration. They are in a report entitled, ``Wildlife for 
the 21st Century, Volume Three.''
    And the third effort, the Association of Fish and Wildlife 
Agencies also came up with recommendations for the new 
Administration and Congress. These represent the collective 
opinions of those agencies legally charged with the stewardship 
responsibility for the nation's fish and wildlife resources.
    All of those are contained in reports that accompanied my 
written testimony to the staff.
    While these efforts were independent, the recommendations 
were strikingly similar. And I have characterized the really 
big issues identified in all three. These are my 
characterizations.
    One is global climate change. Two is maintenance of fish 
and wildlife habitat. Three, invasive species and diseases. 
Four, the disconnect between Americans and nature. And the 
fifth, a lack of reasonable assured funding.
    Given the short time for oral testimony, I will highlight 
just a few of the challenges and opportunities.
    Global climate change, certainly other entities will work 
on the causes and solutions to global climate change. The 
challenges for fish and wildlife conservation will be 
maintenance of functional ecosystems, lessening impacts of a 
warmer world on at-risk species, and developing and 
implementing wildlife and habitat monitoring systems that are 
sensitive enough to allow us to identify and react to emerging 
impacts.
    Challenges to maintenance of fish and wildlife habitats 
include, but certainly aren't limited to, urban sprawl, 
increasing frequency of catastrophic fire, poorly managed land-
use practices such as agriculture and timbering, conversions 
from native habitat to agriculture, from agriculture to urban 
and suburban landscapes, impacts of energy development. And all 
of these are exacerbated by, and in addition to, the impacts of 
global climate change and invasives.
    Invasive species and diseases. The most important challenge 
is to stop the spread of invasives. But even more challenging 
will be the methods to control, manage, and/or eradicate 
invasives once they are introduced.
    The disconnect between Americans and nature. We are raising 
a generation of Americans whose only link to nature comes from 
a TV screen or computer monitor. It is not surprising that 
childhood obesity is epidemic. Those who don't comprehend and 
understand the link between habitat and animals, man and 
nature, aren't likely to support the political and on-the-
ground processes that ensure perpetuation of these resources.
    Lack of reasonable assured funding. The challenges are 
twofold: less money available, lots more to do. At the turn of 
the last century, wildlife conservation was setting regulations 
for law enforcement and stalking fish. And we had adequate 
resources from the revenues from hunters and anglers, and 
appropriations from Congress for national programs.
    Now we have preserving biodiversity, recovering species at 
risk. We have conservation education. We have solving human-
wildlife conflicts, controlling wildlife/human/livestock 
diseases, and so forth.
    Failure to act on any of these challenges will mean less 
wildlife, less and more fragmented habitat, more threatened and 
endangered species, along with regulatory and cost burdens; an 
unhealthier country, and greater long-term costs.
    Our opportunities under global climate change, I would say 
comprehensive legislation that addresses emissions of 
greenhouse gases also generates revenues to drive the programs 
to identifying remedy impacts.
    Maintenance of fish and wildlife habitat, opportunity to 
work on the really big issues, through landscape scale 
initiatives, such as North American Water Fowl Management Plan, 
conservation features of the Farm Bill, National Fish Habitat 
Action Plan, Healthy Lands Initiative.
    Invasive species, diseases, we need to secure comprehensive 
legislation to address importation, possession, and management 
of invasives. Disconnect between Americans and nature, to 
support existing and create new programs and partnerships that 
encourage adults and children to participate in wildlife- and 
nature-based outdoor recreation.
    Lack of reasonable assured funding. We need to improve the 
sustainability of traditional funding, while working with 
state, Federal, and private partners to develop new sources of 
funding.
    In conclusion, there are dozens of excellent 
recommendations in the three reports I mentioned. The new 
Administration and Congress can make the needle move; that is, 
make measurable on-the-ground differences in conservation of 
fish and wildlife resources if we seize a few big opportunities 
under each of my categories.
    But we have to do things a little different than we did in 
the 20th century. First, we need to address issues on a much 
larger landscape scale. Second, we need to work together 
better. Virtually all conservation needs to be delivered via 
partnerships. Third, we need to spend dollars more efficiently. 
Virtually all conservation dollars need to be leveraged. And 
fourth, when contributions from hunters, anglers, and Federal 
appropriations are no longer adequate as a primary source for 
funding conservation of all species for all Americans in the 
21st century, new streams of adequate assured funding have to 
be developed.
    Thank you, Madame Chairwoman.
    [The prepared statement of Mr. Baughman follows:]

               Statement of John Baughman, Member of the 
                     Sporting Conservation Council

    Thank you Madame Chairwoman. I am John Baughman, a member of the 
Sporting Conservation Council (SCC), which is an officially sanctioned 
FACA committee that advises both the Secretaries of Interior and 
Agriculture on issues important to America's sportsmen and women--
including those issues related to conservation of our wildlife 
resources. I am a biologist by training and have spent over 30 years as 
a wildlife conservation professional including 6 years as Director of 
the Wyoming Game and Fish Department and 4 years as Executive Director 
of the Association of Fish and Wildlife Agencies (AFWA) which is an 
organization of the state and federal agencies charged with management 
of North America's fish and wildlife resources. At present I work for 
AFWA, from my home in Cody, Wyoming, as a liaison between state and 
federal agencies, industry, and non-profit organizations on energy 
development and wildlife conservation issues.
    Our topic today is especially timely given the new Congress, the 
change in administrations, and the mega-issues of world population 
growth, global climate change, invasive species and diseases, a 
faltering economy, changing demographics and social values, and a 
growing list of tasks and problems to be addressed with a shrinking 
supply of money and personnel resources.
    Over the past year, I have had the opportunity to be involved to 
some degree in three efforts that have analyzed the wildlife 
conservation issues of our time and made recommendations for 
maintaining our fish and wildlife resources in the future. The first 
effort was the Sporting Conservation Council's role in responding to 
Executive Order 13443, ``Facilitation of Hunting Heritage and Wildlife 
Conservation.'' In cooperation with the Council on Environmental 
Quality, the Department of Agriculture and Interior, the American 
Wildlife Conservation Partners, other conservation organizations, and 
state wildlife agencies; the SCC produced a series of white papers and 
recommendations on eight topics related to wildlife conservation and 
our nation's hunting heritage. Those white papers are contained in a 
report entitled ``Strengthening America's Hunting Heritage and Wildlife 
Conservation in the 21st Century: Challenges and Opportunities'' which 
accompanies my written testimony.
    The second effort was working with the American Wildlife 
Conservation Partners (AWCP) to update their recommendations for the 
incoming administration. The AWCP is a consortium of 42 conservation 
organizations with a common goal to safeguard America's wildlife 
resources and the interests of sportsmen and sportswomen. Beginning in 
2000, and then preceding each presidential election thereafter, the 
AWCP has prepared a series of recommendations related to the most 
important issues facing wildlife conservation and America's sporting 
traditions. The revised recommendations, ``Wildlife for the 21st 
Century: III'' which were presented to President Obama, also accompany 
this testimony.
    Finally, the AFWA also prepared a series of recommendations for the 
Obama administration. These recommendations represent the collective 
opinion of those agencies legally charged with the stewardship 
responsibilities for our nation's fish and wildlife resources. Their 
recommendations accompany this testimony in a report entitled, 
``Furthering Conservation in the Public Trust: A National Fish & 
Wildlife Agenda.''
    The purpose of all three efforts--to define and analyze today's 
fish and wildlife conservation issues and produce actionable 
recommendations to ensure the future health and sustainability of these 
resources--is squarely on target with the purpose of this hearing. For 
a more in-depth discussion of the subject we are addressing I highly 
recommend that members of the committee and their staffs peruse these 
documents. Even though these three efforts were independent, the 
similarities between their recommendations are striking. The reports 
identify literally scores of issues, challenges, and opportunities, but 
I would categorize the really big issues--common to all three--as 
follows:
    1.  Global climate change.
    2.  Maintenance of fish and wildlife habitat.
    3.  Invasive species and diseases.
    4.  Disconnect between Americans and nature.
    5.  Lack of reasonable, assured funding.
Challenges:
Global Climate Change
    While others work on the causes of and solutions for global climate 
change, the biggest challenges in managing aquatic and terrestrial 
habitats and wildlife will be in conserving functional ecosystems, 
lessening impacts of a warmer world on at-risk species, and developing 
and implementing wildlife and habitat monitoring systems with 
sufficient sensitivity to identify the emerging impacts of climate 
change so adaptive management strategies can be employed. Failure to 
meet these challenges will mean greater loss of habitat and wildlife 
populations, more species becoming jeopardized or even extinct, and far 
more resources spent on recovery of individual species than would have 
been needed to take early preventative actions.
Maintenance of Fish and Wildlife Habitat
    Healthy, sustainable ecosystems and wildlife populations depend on 
a healthy, somewhat stable, and resilient habitat base. Major 
challenges to our ability to sustain fish and wildlife habitat include, 
but certainly aren't limited to, urban sprawl, increasing frequency of 
catastrophic wildfire, poorly managed agricultural practices, impacts 
from domestic energy development, conversion of native habitat to 
agriculture and conversion of agriculture to urban/suburban landscapes, 
and all of these are compounded by and in addition to changes in 
habitat due to climate changes and invasive species. Failure to react 
adequately to these challenges will result in habitat loss and 
fragmentation, and the net effect will be fewer animals and more 
species at-risk.
Invasive Species and Diseases
    Invasive species and diseases cause challenges on a number of 
fronts such as maintaining wildlife habitat; protecting human, 
wildlife, and livestock health; safeguarding the economic viability of 
agricultural and timber operations, etc. Perhaps the biggest challenges 
for Congress, the Administration, and all of us will be first and 
foremost developing and implementing better systems to prevent the 
spread of invasive species and diseases, and secondly, though even more 
challenging, developing and implementing programs to manage, control, 
and eliminate invasive species and diseases once they are introduced.
Disconnect Between Americans and Nature
    As American society becomes more urban and opportunities for fish 
and wildlife-related recreation diminish, our citizens become more and 
more disenfranchised from nature. People who don't understand the 
uniqueness and success of the North American Model of Wildlife 
Conservation have little reason to actively support its continuance. 
Those who don't comprehend the link between habitat and wildlife aren't 
likely to participate in and support political and on-the-ground 
processes that ensure perpetuation of these resources. America is 
raising an entire generation whose only link to the out-of-doors is 
through a TV screen or computer monitor, and it is not surprising that 
child obesity is epidemic. The challenge is to increase our nation's 
understanding and appreciation of nature and their participation in 
hunting, fishing, and other wildlife-related recreation. To maintain 
the public's support and participation, there is also a challenge to 
ensure access to opportunities for quality recreational experiences.
Lack of Reasonable, Assured Funding
    The North American Model of Wildlife Conservation was founded on a 
user-pays concept where the cost of fish and wildlife conservation was 
almost exclusively funded by hunters and anglers through their purchase 
of licenses, permits, and stamps and taxes on their equipment and 
supplies along with federal appropriations for national programs (e.g. 
wildlife refuges, interstate law enforcement, national fish hatchery 
system). This method of funding worked well for much of the 20th 
Century when wildlife conservation meant establishing regulations, law 
enforcement, and raising and stocking fish and wildlife to establish 
and supplement natural populations. The challenges now in providing 
adequate funding for fish and wildlife conservation are two-fold: 1) 
less money available, 2) lots more to do. Hunters and anglers who once 
provided most of the funding for all fish and wildlife conservation are 
declining as a percentage of the population nation-wide, and with the 
national economy and federal budget priorities, federal appropriations 
for fish and wildlife conservation have less flexibility and purchasing 
power than 30 years ago. Fish and wildlife conservation still includes 
establishing regulations, law enforcement, and stocking fish and 
wildlife, but it also includes major additional programs to manage and 
conserve all wildlife resources for all citizens (e.g. environmental 
protection, maintaining biodiversity, species at-risk recovery, 
conservation education, watchable wildlife programs, managing human/
wildlife conflicts, wildlife/livestock/human disease control, etc.).
Opportunities:
    As mentioned earlier in my testimony, there are literally scores of 
opportunities identified in the reports from the SCC, the AWCP, and the 
AFWA. I will highlight of few of the most important opportunities, i.e. 
things that can actually make a significant on-the-ground difference 
under each of my five major categories.
Global Climate Change
    1.  Enact comprehensive climate change legislation that regulates 
greenhouse gas emissions.
    2.  Dedicate a portion of the revenue from carbon credits or other 
cap-and-trade protocols to state and federal programs that identify and 
remediate the impacts of global climate change.
Maintenance of Fish and Wildlife Habitat
    1.  Ensure continuance of meaningful conservation features in 
future Farm Bills.
    2.  Support delivery of habitat conservation through landscape-
level conservation initiatives based on strong federal, state, 
corporate, private partnerships and highly leveraged federal dollars 
(e.g. North American Waterfowl management Plan, National Fish Habitat 
Action Plan, Health Lands Initiative).
    3.  Support tax credits and other incentives to encourage private 
landowners to voluntarily preserve habitat and incorporate conservation 
practices.
    4.  Support legislative and administrative changes in federal 
energy development processes to better balance the needs of domestic 
energy development with conservation of fish and wildlife resources, 
and develop the appropriate capacity to run these processes with 
federal, state, and industry funding from rents, royalties, receipts, 
and income.
    5.  Incorporate state and regional wildlife plans (e.g. State 
Wildlife Action Plans, Sage Grouse Conservation Strategy, Mule Deer 
Conservation Plan) into federal land use planning processes.
    6.  Develop and implement landscape-level programs to treat at-risk 
forest, grassland, and wetland habitats.
Invasive Species and Diseases
    <bullet>  Secure comprehensive legislation to address importation, 
possession, and management of invasive species (including pathogens and 
regulation of ballast water).
Disconnect Between Americans and Nature
    1.  Support existing and create new programs to encourage children 
and adults to participate in fish, wildlife, and nature-based outdoor 
recreation.
    2.  Develop federal training programs designed to give in-coming 
employees an understanding of wildlife conservation and the North 
American Model of Wildlife Conservation.
    3.  Develop and support programs that enhance access to public and 
private lands for fish, wildlife, and nature-based recreation including 
incentive-based programs to encourage private landowners to voluntarily 
provide public access.
    4.  Include natural resource agencies in any forthcoming ``No Child 
Left Inside'' legislation.
    5.  Improve and revise the Wildlife Restoration Act of 1937 to 
create a Recreational Boating and Fishing Foundation-like entity to 
promote hunting, shooting, and wildlife related outdoor recreation.
Lack of Reasonable, Assured Funding
    1.  Stabilize traditional funding (i.e. hunter and angler user fees 
and federal appropriations).
    2.  Encourage comprehensive evaluation of the Wildlife and Sport 
Fish Trust Funds by state, federal, industry, and sportsmen 
representatives with a goal to simplify and modernize the processes for 
collecting revenue and to sustain and expand funding over time.
    3.  Create additional sources of funding for conservation of all 
species and their habitats (e.g. carbon credit revenue, OCS revenue, 
income from new energy development).
    4.  Provide incentives to encourage states and private entities to 
develop new sources of funding.
Summary and Conclusions:
    Most of the big issues we face in managing our ocean and wildlife 
resources in this dynamic environment can be included under one or more 
of my five categories: Global Climate Change, Maintenance of Fish and 
Wildlife Habitat, Invasive Species and Diseases, the Disconnect between 
Americans and Nature, the Lack of Reasonable and Assured Funding. If 
the new Congress and Administration dedicate themselves to seizing a 
few of the very top priority opportunities for each of these categories 
we will have ``moved the needle'' in making a real difference in 
conservation of these resources. If we are going to continue to be 
successful we will have to do a few things differently from the way we 
operated over the past 100 years: 1) we have to address issues at a 
much larger landscape-level scale, 2) we (federal and state 
governments, industry, tribes, NGOs, private individuals) have to work 
together much better, everything should be done in partnership, 3) all 
conservation dollars need to be leveraged, and 4) contributions from 
hunters and anglers and federal appropriations are not adequate, and 
probably not appropriate, as the primary source to fund wildlife 
conservation in America for the 21st Century; new streams of adequate 
assured funding must be developed. Leadership from Congress and the new 
Administration will be essential.
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Mr. Baughman. And I want 
to commend all of our witnesses; they stayed within the time 
limit. Congratulations.
    Your entire written statement will be included in the 
record.
    I will now recognize the Members of the committee for any 
questions they may wish to ask the witnesses, alternating 
between the Majority and the Minority, and allowing five 
minutes for each Member. However, should the Members need more 
time, we will have a second round of questions.
    I will begin with myself. And I have just one question, 
three parts of it, to Mr. Trandahl.
    You have testified that Congress should provide clear 
priorities of Federal conservation goals and objectives in 
order to increase conservation funding from private sources.
    Now, how does NFWF establish its own conservation 
priorities?
    Mr. Trandahl. Great question. We have within our staff a 
scientific group. And we have identified what we call keystone 
objectives. In forming those keystone objectives, we are 
working alongside with the Federal agencies, as well as the 
conservation community, to identify through a scientific 
process where we believe we can move the needle on particular 
species or particular habitats, based upon the financial 
contributions we can invest into those areas.
    So, it is called the keystone process. And I can submit for 
the record a very detailed explanation of it.
    Ms. Bordallo. Very good. I would like to have that entered 
into the record.
    Mr. Trandahl. OK.
    Ms. Bordallo. And the second part of the question, how can 
the goal-setting process of NFWF and the Federal government be 
made mutually reinforcing?
    Mr. Trandahl. I believe it is a matter of really getting a 
spirit within the Federal agencies to really pursue 
partnerships through the Foundation, or with other partners, in 
order to bring together those private and public dollars. As 
well as everyone, science and wildlife plans and everything 
else.
    We are not short on planning, and we are not short on 
science. We are short on coordination, in my opinion.
    Ms. Bordallo. And then the third question along the same 
lines. How would Federal priorities improve the availability of 
funding from private sources?
    Mr. Trandahl. What has happened is many private donors are 
very interested in partnering with the Federal government. I 
will use a real-life example here, just the last couple months.
    We have been working with the Natural Resources 
Conservation Service, which is an agency of the USDA, on a 
program that is called Conservation Innovative Grants, which is 
a $20 million-a-year grant program.
    I have been trying for two years to get them to move it 
into the Foundation, so one, we could administer the grants 
much more efficiently; but more importantly, we could then turn 
and try to leverage it up with the corporate community.
    And in just gauging corporate interest in leveraging 
against that $20 million, we have had seven different companies 
come forward and say yes, we would want to do that, if you are 
able to do it.
    Now, we are still pursuing, and hopefully we will be able 
to bring that into the agency.
    The thing to realize is the values within an agency aren't 
necessarily to partner. Partnerships cause complication and 
more work. And the idea of bringing in more money is not 
necessarily enough of an incentive for agencies to enter into 
it.
    Ms. Bordallo. Thank you, thank you very much, Mr. Trandahl.
    I have another question, just one more, for Dr. Kareiva. 
And again, Dr. Kareiva, while the Nature Conservancy has 
developed some impressive tools for marine mapping and 
planning, your testimony provided examples of data gaps that 
limit the ability of decision makers to use adaptive management 
strategies.
    Now, is this patchwork of data the critical limitation on 
adaptive management? In other words, why isn't adaptive 
management used more often?
    Mr. Kareiva. I will also speak for NOAA, where I worked for 
the fisheries and fisheries management, as well, where that was 
a struggle.
    Certainly there are data gaps. In the marine system, part 
of it is we don't have good maps yet for the whole coastline 
for the habitats and the resources. So, the data is a 
limitation.
    I would say the other two limitations are strong incentives 
to the agencies to engage in it. We talk about it a lot, but 
you really need sort of strong administrative incentives. 
Performance, have your performance based in your agency job 
onto the extent to which you do adapted management.
    And the third thing is that adaptive management is new, and 
you need some tools to help people. You need, some of the tools 
that we develop at the Nature Conservancy are meant to 
synthesize that information, and present it in a way that 
doesn't overwhelm you with the complexity of the program.
    And if you have those tools, I think people will be much 
more amenable to doing it. If we make it easy for them. 
Incentivize and make it easy.
    Ms. Bordallo. Another part of the question. Do tools and 
technology exist to effectively fill the critical data gaps? 
And can this be done in a cost-efficient manner?
    Mr. Kareiva. Prototypes of all the tools and data do exist. 
With, I hesitate to give a timeframe, but in a relatively short 
timeframe, you know, two to five years, we could fill the data 
gaps and get the tools up to easy implementation. And really, 
on your desk, anybody could use them in a very cost-effective 
manner.
    Most of the hard work has been done. Most of the early 
investment, and a lot of the hard work and research have been 
done.
    Ms. Bordallo. Thank you very much, Doctor. And now I would 
like to invite the person standing in the back to please come 
and be seated around the lower table here.
    And now I would like to recognize the Ranking Member, Mr. 
Hastings, for any questions he may have.
    Mr. Hastings. Thank you very much, Madame Chairman. I just 
have a couple of questions here.
    Mr. Trandahl, you were--and it is good to see you.
    Mr. Trandahl. Good to see you.
    Mr. Hastings. You had mentioned the private and the public 
partnerships several times in your testimony, and in response 
to the Chairman's, Chairwoman's remarks.
    Give me your assessment of the President's proposed budget 
that limits tax deductibility of those earning more than 
$250,000.
    Mr. Trandahl. Yes, I expect to be going over to the Ways 
and Means Committee at some point.
    Yes, as people are probably familiar, in the President's 
sort of outline of a request, there is an idea of limiting 
individuals who earn more than $250,000 a year, limiting their 
tax deductibility to nonprofits.
    And I personally would have great hesitation and 
disappointment if that were adopted as a concept. And from the 
Foundation's perspective, it would be disastrous.
    We rely on major gifts--obviously corporate as well as 
Federal dollars. And my average individual contribution is well 
in excess of $100,000 a year; it is not five dollars a year.
    And you know, we are working the very high end of the 
economy in order to generate tens of millions of dollars back 
into conservation, that is then, in turn, matched on the 
ground.
    So, it would have a very negative impact. And I have spent 
my entire weekend actually putting together all the empirical 
data to kind of show exactly what it would do for us, but as 
well for others.
    Mr. Hastings. I thank you for that. We are not the Ways and 
Means Committee, but I felt it was worth, worth at least 
asking.
    Mr. Trandahl. I appreciate it. And I should just mention, 
as well. This committee, last Congress, expanded our board from 
25 to 30, which I have to say had exactly the impact that we 
were hoping for with the committee, which would be a dramatic 
increase, again, in the individual giving for the Foundation. 
Which it did. It has had more than a million-dollar impact.
    Mr. Hastings. Good, thank you. Mr. Thompson, I want to ask 
a very broad question, because this is a hearing on climate 
change, yet we haven't talked about what climate change is, and 
how one looks ahead of it.
    My understanding is that most of the predictions are based 
on modeling data. And I want to put this--and I want you to 
respond to that--but I want to put it in real-world terms. 
Because I was here last Thursday, and I flew back to my home in 
Washington. And I listened to the weather report for this 
weekend. And they said it was going to cool down.
    There was absolutely no prediction, when I left on 
Thursday, that you were going to have all of this snow here. 
And I come back, and I see that low records were set here 
during the week.
    So, my question to you is, based on the data long term, how 
can we have any confidence, when we can't predict what, just 
this last week we didn't predict how cold it was going to be 
this weekend?
    Mr. Thompson. So, Mr. Hastings, this is a very important 
question. Because of the difficulties of predicting exactly 
what the impacts of climate change will be on our oceans and 
wildlife in the future, our first priority should clearly be to 
protect the fish and wildlife today.
    But we also have to recognize that climate change may very 
well impact those fish and wildlife in the future. Scientists 
are already beginning to see what they believe is an impact on 
the fish and wildlife today.
    And so that would suggest two things. First of all, that we 
be as adaptive as possible, recognizing that we are not that 
good at the moment at predicting into the future--so that as we 
begin to see change, we can adjust to those changes.
    And then second of all, we do know the general nature of 
impacts in the future. We know, for example, that species are 
likely to move, that they are likely, in the United States, to 
move north to higher altitudes. And therefore, in thinking 
about the reserves that we are setting aside, and the 
coordination between Federal actions, state actions, and the 
actions of organizations like the Nature Conservancy, we need 
to be providing for that opportunity of movement.
    Mr. Hastings. Madame Chairman, I see my time is about out. 
My question was more, how can we have confidence--because we 
are going to be potentially making huge decisions here that is 
going to cost individuals and taxpayers millions, if not 
billions, of dollars. And yet we are doing it, what appears to 
be on something that is not extremely solid data.
    Madame Chairman, I have other questions, and I will wait 
for the second round. And maybe, Mr. Thompson, I would ask you 
to rethink that. I understand the impact that probably 
everybody feels on climate change. After all, history, long 
before humans were here, climate change had an effect on the 
species in the world, so I think that is self-evident.
    The question is, how do we make these determinations based 
on good data. And I guess that is what the question is. But 
thank you very much. And thank you for your indulgence, Madame 
Chairman.
    Ms. Bordallo. I thank the Ranking Member, Mr. Hastings from 
the State of Washington.
    I would like to just introduce a few new Members that have 
come in. We have Mr. Sablan from the Northern Marianas, and we 
have Mr. Pierluisi from Puerto Rico, and Mr. Wittman, State of 
Virginia.
    And now I would like to recognize the gentlewoman from 
California, Lois Capps.
    Ms. Capps. Thank you, Madame Chair. And may I say at the 
outset, congratulations on this hearing. The topics and the 
esteemed testifiers managing our oceans and wildlife resources, 
this is very valuable to have as we confront the 111th Congress 
and our new Administration. And with the goal of establishing 
some priorities.
    I would like to turn to Dr. Kareiva, if I could, please. 
And I commend you, as an organization amongst many who have 
worked very closely to set aside millions of acres of land and 
water as habitat for plants, birds, fish, other animals.
    You have been working in Morro Bay in my Congressional 
district, dealing with marine protection. And by the way, you 
have also been working on that endangered group, the fishing 
community, through sustainable fishing that you partnered with 
the Environmental Defense, a very novel, and I think very 
worthwhile, approach, which actually touches on some of the 
things we are talking about here.
    I would like to ask if you could describe for us what a 
failure to act on climate change--a little different take on it 
from the previous question--what a failure to act or delay to 
action would mean for the ability of existing marine protected 
areas and wildlife preserves, to protect wildlife and sensitive 
ecosystems.
    Mr. Kareiva. First I would like to say----
    Ms. Capps. And as you are thinking of your answer, let me, 
I can maybe focus it a little more specifically.
    How would climate change impact the national marine 
sanctuaries, for example? I have two sanctuaries in my 
district, the Channel Islands and Monterey Bay, the tip of 
Monterey Bay Sanctuary.
    As you know, national marine sanctuaries are set up to be 
some of the best examples of ecosystem-based management. They 
will be affected by climate change. Maybe that is a good way to 
approach this question.
    Mr. Kareiva. So, first I want to correct sort of a 
misimpression. We actually have very good data and science 
about climate change.
    We don't about weather. There is a distinction between 
weather and climate change. Weather is what happened, you know, 
here in D.C. the last couple days. Climate change is long-term 
trends and expectations.
    So, in any given year, any given day, any given week, you 
might be surprised. But it is the long-term averages we are 
doing on climate change.
    Ms. Capps. Yes.
    Mr. Kareiva. So, turning to the marine protected areas, and 
just the marine resources in general, it is quickly becoming 
evident that our marine systems are some of our most 
vulnerable. And they are vulnerable for a number of reasons.
    They are vulnerable in coral reefs because rising sea 
surface temperatures stresses and kills the coral. They are 
vulnerable because they change currents and up-welling 
patterns; and thus, they change the fisheries that we harvest. 
And they are vulnerable because some species shift their, their 
distributions. And in fact, it has been noticed along the 
California coast that species will shift their distributions.
    As a result of that, if we have a marine protected area set 
up in one place for a suite of species we are trying to manage, 
and as a result of climate change the physical conditions are 
altered, that place will no longer provide the protection for 
those species.
    So, it is going to be a challenge to management in that we 
won't just be able to rely on fixed marine protected areas. We 
are going to need much more sophisticated management, like 
zoning and some of the innovative techniques we have.
    But we already have good data showing shifts in 
distributions, showing stresses in offshore habitats, that are 
tightly linked to climate change in the last 30 years.
    And there will be surprises, for sure. And we will be 
surprised. But I think we know generally, strategically how to 
approach the problem.
    Ms. Capps. Thank you. Another justification for having 
these areas, because of the data that you are able to collect 
in an intensive way.
    Mr. Kareiva. That is right, we do monitor those places.
    Ms. Capps. I want to talk about sanctuaries. I happen to--
this is a little self-serving question for me. I am Co-Chair of 
our newly formed caucus on National Marine Sanctuaries. The 
other Co-Chair is Ileana Ros-Lehtinen. I represent a specific 
district, she represents a district in Florida.
    The sanctuaries are applying the principles of ecosystem-
based management, I understand, to manage their diverse set of 
natural resources and ecosystem services. Maybe you would talk 
about this a little bit, as a follow-up to the previous 
question.
    And more specifically, how are sanctuaries using ecosystem-
based management to meet the growing threat of climate change? 
And what they do then is important for its own sake, but 
clearly because of their status; but also as an example and a 
model for other areas.
    Mr. Kareiva. So, ecosystem-based management is jargon for, 
I guess you would say trying to achieve many purposes with one 
sanctuary. And balancing those purposes using the best science. 
And in doing that in a very transparent way, so it is also 
clear to the stakeholders that are involved.
    So, early on in the history of marine protected areas, it 
might have been thought they were just for biodiversity, or 
just for one species. No longer is that the case. You look at 
the entire ecosystem, and the many services they provide.
    So, shoreline ecosystems, as an example, they provide 
fisheries for commercial fisheries; they provide sport fishing; 
they provide recreation. They can provide habitats that reduce 
storm surge, and protect human communities.
    See, we would look at all those natural assets, and you 
would look at the economics in the stakeholder zone. That is 
what ecosystem-based management is, looking at the many 
different interests in the sanctuaries.
    The other thing, for the Federal ones that have been set 
up, that is especially valuable, is they are well-monitored. We 
have invested money into collecting information. And I think of 
them as probably our best sentinels for climate change.
    We have too few places in the world where we are collecting 
comprehensive information, and we will be able to see, before 
it is too late, what is going on. So, they also serve that 
purpose, although maybe that isn't what they were originally 
set up for.
    Ms. Capps. Thank you very much. I have used my time. But 
Madame Chair, that, of course, prompts with me a follow-up, an 
additional question, what kind of resources. Do we have enough 
resources, if this is indeed that critical, for advice to the 
new Administration and to our 111th Congress? Do we need 
additional resources for the kind of information that you are 
going to be able to supply?
    But I will yield back. Thank you.
    Ms. Bordallo. We will have a second round. I thank the 
gentlelady from California.
    I recognize the gentleman from Virginia, Mr. Wittman.
    Mr. Wittman. Thank you, Madame Chairwoman. I would like to 
begin by yielding to the Ranking Member, Mr. Hastings.
    Mr. Hastings. Thank you, Mr. Wittman.
    Mr. Baughman, I want to ask you a question real briefly. In 
your oral testimony you talked about regulating greenhouse 
emissions. Could you elaborate on what your recommendations 
would be on that?
    Mr. Baughman. Well, I think if you look at my testimony, 
part of it is that there are other people working on the 
emissions of greenhouse gases, other than the wildlife 
conservation community. I think our bigger task is reacting to 
those impacts on the communities, and maintaining those 
functional ecosystems.
    I am not an expert on it, but certainly some of these 
carbon-trading protocols, carbon credits, I think those are the 
most--I think there is promise in some of those protocols. 
There is always the devil in the details, things that have to 
be worked out.
    You mentioned the tremendous costs of some of those. We 
need to look at the tremendous benefits of some of those 
protocols, too. There is always someone paying things, 
receiving money. There is a money end of it, but there is also 
the behaviors-and-outcomes end of that equation, too. And we 
need to look at the whole picture, to where whatever protocols 
are adopted, those things balance. And the net is a positive 
effect for the country.
    Mr. Hastings. Thank you very much. I yield back to my 
friend.
    Mr. Wittman. Thank you. Mr. Baughman, you have had over 30 
years of experience in the area of wildlife conservation. Can 
you tell us what you believe the overall impact of climate 
change is having on our wildlife?
    Mr. Baughman. Well, I am most directly, of course, familiar 
with the West, the Rocky Mountain West. And certainly the last 
15 years has been warmer and drier than any situation we have 
witnessed. And in fact, I think the records document, it just 
has been warmer and drier than any period in the last 500 
years.
    And we have seen species decrease in abundance. We have 
seen entire habitats devastated, trying to manage through 
drought for 15 years. Our systems of timbering, our systems of 
public land, they just break down. They were never, they were 
never meant to operate that way, and we have not adopted 
behaviorally or economically to some of those systems. And some 
of the net results the whole country is looking at are species 
like sage grouse becoming listed as threatened and endangered, 
and the impacts that would have. I think the Northern Spotted 
Owl would pale in comparison. Our mule deer are in jeopardy. 
All of these high grassland step species are at risk.
    But in the whole country, there are just species and, and 
habitats that evolved in much wetter, cooler times. And things 
are moving, things are changing, like some of the other 
speakers talked about. Things are disappearing.
    Mr. Hastings. Now, you spoke earlier about making sure we 
get our children out from behind televisions and computer 
screens, and I couldn't agree with you more. I think it is high 
time that our youth be as acquainted as they can with our 
outdoor environment.
    I wanted to sort of pick your brain about, how do you think 
we can best achieve that? I think there has to be an 
understanding from top to bottom about, obviously about the 
issue of climate change; but also how that affects our natural 
environments. And we have to have, I think, people plugged in 
from top to bottom, as far as the spectrum of age.
    So, if you could give us your thoughts about how we can 
make sure we can fully engage folks, and that includes our 
youth.
    Mr. Baughman. Well, certainly there are some really good 
programs out there. And there are some really good programs 
emerging.
    Congress, the Administration doesn't have to do everything, 
but it would be nice for them to be partners in these efforts. 
And I think the most important needs, and probably the biggest 
successes, we have is one, developing some national 
conservation environmental education standards, that there are 
some concepts and principles that every child, every citizen of 
America understands. We don't have that.
    And the second is concentrating on opportunities as this 
country becomes more urban, and we get more kids with that 
computer monitor and TV screen. And access becomes tougher, not 
only the legal access to public and private lands, but just the 
difficulties of getting out of the beltway to find a place to 
recreate.
    We have to focus on, again through partnerships, on 
developing those opportunities that people know about, and they 
are easy to take advantage of.
    Mr. Hastings. Thank you, Madame Chairman.
    Ms. Bordallo. Thank you, gentleman. I would now like to 
recognize the gentlewoman from the Virgin Islands, Mrs. 
Christensen.
    Mrs. Christensen. Thank you, Madame Chair. And thank you 
for holding this hearing, and thank you to our witnesses today.
    I would like to begin by welcoming our former Clerk of the 
House, Jeff Trandahl, who is now representing, is now the 
Executive Director of the National Wildlife Foundation.
    Before I ask a question, and I will ask this inside of a 
question, I have a concurrent resolution, too. I don't know if 
you are familiar with it. I know we are talking today about 
specific legislative changes and administrative changes that 
are needed. But this would express a sense of Congress that the 
Fish and Wildlife Service in particular should incorporate 
consideration of global warming and sea level rise into 
comprehensive conservation plans for coastal national wildlife 
refuges, and for other purposes.
    And Madame Chair, we are working with your staff to move 
this through the committee. But is that something that the 
panelists would support? At least as a beginning step, getting 
the Congress to recognize--and we could expand it to include, 
you know, all planning, if you so recommend.
    Mr. Trandahl, you focus a lot on the need for clear and 
synchronized goals, one reason being that it is a barrier to 
you felt the kind of public-private partnerships you are 
charged to create. And Mr. Thompson, I think you also 
referenced the same concern.
    I can understand, within agencies, the need for consistent 
and clear goals. But across different agencies with somewhat 
different missions and different oversight, I am not sure if 
that can be done successfully.
    Are there some key overarching areas that you would want to 
suggest, that the Park Service, BLM, Fish and Wildlife could 
have clearer goals that are synchronized with each other?
    Mr. Trandahl. OK. First, Donna, it is always great seeing 
you. I prefer to see you in the Virgin Islands, though.
    [Laughter.]
    Mr. Trandahl. First, I want to start and say I do think 
that the need of coordination among the agencies is incredibly 
important. And it is going to take leadership from one agency 
in particular, which I think the Department of the Interior is 
the agency that should lead it.
    The good news, to me, and the optimism is, Secretary 
Salazar spent a lot of time, the last couple weeks in 
particular, talking about his America's Treasures concept. Of 
which he is talking about exactly the same thing: creating a 
priority list of habitats, ecosystems, actions that are 
potentially, should become Federal priorities, and agencies 
should look at those priorities to try to do a better job in 
working with one another.
    An example I would give just right off the top is invasive 
species. A lot of money is spent at USDA, a lot of money is 
spent at the Department of the Interior to deal with invasive 
species. But I have yet to see the Department of Transportation 
do anything.
    Yet how do they get there? Well, they normally arrive 
through a transportation system: a highway, a plane, a boat. 
And if we were able to coordinate better, and get the agency 
sort of at the front end of the problem involved, I think we 
would find ourselves in a much more successful position down 
the road. And hopefully save money, instead of just trying to 
manage through a problem.
    Mrs. Christensen. And I was thinking just under Interior. I 
wasn't even thinking about the departments outside.
    Mr. Trandahl. OK.
    Mrs. Christensen. But we are actually employing the same, 
trying to get the same kind of coordination on healthcare 
issues.
    Mr. Trandahl. Right, right.
    Mrs. Christensen. Because there are many ways that other 
agencies, other than the HHS, can collaborate and coordinate, 
and within the department also, to address those issues.
    Dr. Kareiva, as you know, the Nature Conservancy has been 
doing a lot of work in the Virgin Islands. I wanted to talk a 
little bit about the multi-objective marine management 
approaches that you talked about.
    Your remarks referenced the utility of such techniques in 
places such as Long Island and Florida. But what about in a 
smaller community like ours, or Culebra, which my colleague, 
Mr. Pierluisi, represents, and where I understand you may be 
partnering with an organization shortly, where single objective 
approaches such as coral farming or small-scale community 
conservation projects have been quite successful. Are these 
approaches transferrable to smaller communities like ours, and 
can they support what are sometimes unique and often cultural 
concerns?
    Mr. Kareiva. For sure they can. To be honest, probably----
    [Electronic interference.]
    Mr. Kareiva.--there is support then for doing the research 
and development.
    But as we get better at the tools, of course, what they 
really are about is balancing competing needs, and making clear 
the tradeoffs and the consequences of decisions.
    So, instead of making a decision yes/no, the decision is, 
what is your full suite of options to meet everybody's needs. 
And those needs for sure include cultural values, impact on 
family structure. In some of the Pacific Islands we worked on, 
paying attention to role of women in the community, impact on 
family structure, and household surveys. What are the 
consequences for household satisfaction.
    And I think you will see these tools in a second generation 
being widely used across scales, not just for Long Island, and 
not just for Florida. I think it is a general, it is common 
sense. It is really a common-sense vision, supported by science 
and transparent presentation of information.
    Mrs. Christensen. I think my time is up. Thank you for your 
responses. Thank you, Madame Chair.
    Ms. Bordallo. I thank the gentlelady from Virgin Islands. 
Now I would like to recognize the Ranking Member, Mr. Wittman 
from Virginia.
    Mr. Wittman. Thank you, Madame Chairwoman. I would like to 
go back to Mr. Baughman again, and talk a little bit about the 
President's budget submission. As you know, he has set aside 
some dollars for wildlife adaptation. And of that, it 
designates 31 percent of those dollars will go to the states.
    In considering that states have primacy over wildlife 
resources in their state, would it be more judicious if the 
split were 50/50, rather than 31 percent going to the states, 
as far as utility in getting dollars down to make meaningful 
impacts on wildlife adaptation?
    Mr. Baughman. Yes.
    [Laughter.]
    Mr. Baughman. You know, I am really not familiar with that, 
so I wouldn't be, I would be out of my league to comment right 
now without doing a little homework on that.
    But in general, the conservation programs are developed and 
run more efficiently. And like most forms of government, the 
more local we get in the delivery. And so I would certainly 
favor that.
    But there are certainly roles for the Federal dollars, 
private dollars, state dollars. And there are programs where 
all those entities kind of take a lead, and do it very well. 
And we just need to segregate and figure out who is best at 
doing what.
    But on all programs, as long as we are working together, 
maybe the end outcome isn't going to be that different where it 
goes.
    Mr. Wittman. Any other panel members have a comment on how 
funding should take place under wildlife adaptation?
    [No response.]
    Mr. Wittman. Thank you, Madame Chairwoman.
    Ms. Bordallo. I thank the gentleman for his questions.
    I have a couple of questions before we go into any further 
questions from the Members.
    For Mr. Thompson, this has to do with climate change and 
adaptive management. How will incorporating climate change 
projections into programs and plans enhance our ability to 
manage ocean and wildlife resources?
    Mr. Thompson. So, Madame Chair, I think there are two 
important issues here.
    The first one is the importance of immigrating what we 
already know about the likely impacts of climate change into 
the current management plans. That would suggest that we need, 
for example, a network of reserves, on both the marine side and 
the land side, that permit species to adjust over time.
    As Dr. Kareiva mentioned earlier, given the likely impact 
of climate change, fixed reserves that are relatively isolated 
will not be as effective as they were in the past. So, we need 
a broader network of reserves.
    In California, for example, under the Marine Life 
Protection Act, we are currently setting up reserves along the 
entire California coast which are immigrated, and are likely to 
be far more effective in addressing climate change.
    The second aspect, though, is in addition to taking climate 
change into account in our current plans, we also have to 
always be ready in the future to adjust our management efforts 
to take into account the new information and the surprises that 
will come along.
    Ms. Bordallo. Mr. Thompson, a second part of the question. 
What lessons can be learned and applied at a Federal level from 
California's Marine Life Protection Act?
    Mr. Thompson. So, there are several lessons that I think 
can be learned from the Marine Life Protection Act.
    The first one is the importance of having a very explicit 
directive to establish a set of marine reserves. The second is 
to establish a process for setting up those marine reserves 
which are effective.
    When California first started implementing its Marine Life 
Protection Act, for example, the agencies did not fully consult 
with the stakeholders; and as a result, it wasn't that 
effective of a process.
    Today we have a process where, first of all, the state is 
going region by region, and looking to see what the set of 
marine reserves should look like in each of those areas. And it 
has set up a very clear process that involves a scientific 
advisory committee and a stakeholders group and a blue ribbon 
task force. So then, each of those regions help to shape what 
those reserves are going to look like.
    And then finally, there are a clear set of deadlines by 
which action is actually supposed to be taken.
    Ms. Bordallo. Very good. I also have, for Mr. Baughman, you 
recommend that the Congress take action to screen and prevent 
the introduction of invasive species.
    Now, does the Sporting Conservation Council support my 
legislation, H.R. 669, which would address that particular gap?
    Mr. Baughman. I have not read the legislation, and I know 
that counsel has not done a thorough analysis of it. But 
certainly the concepts we would support.
    And as you know, perhaps better than I do, that is a tough, 
tough challenge to, first, control the spread of those 
invasives around this planet; and then even tougher, to try to 
control things once we have them. It is just an overwhelming, 
overwhelming task with challenges that are just mind-boggling. 
How to address some of these things once they are introduced.
    But yes. Again, the devil is also in the detail. I think 
there is still some work, as there always is in Congress, to be 
done before a fine piece of legislation goes out the door.
    Ms. Bordallo. Well, I suggest you read the bill, and give 
us your comments.
    Mr. Thompson. So noted.
    Ms. Bordallo. Thank you. The Chair wishes to welcome Mr. 
Kildee from Michigan, who has entered. And just in time for our 
second panel.
    Are there any other questions of--gentlelady from Virgin 
Islands, do you have any other questions?
    Then I wish to thank the witnesses for being with us this 
morning, and would like to welcome the second panel of 
witnesses.
    [Pause.]
    Ms. Bordallo. For anyone who is standing in the back of the 
room, please come forward and be seated here in the lower level 
here. There are many chairs.
    As Chairwoman, I now recognize our second panel of 
witnesses. Dr. Shirley Pomponi, Executive Director of the 
Harbor Branch Oceanographic Institute; Dr. William Jackson, 
Deputy Director General, the International Union of 
Conservation of Nature; Mr. Franklin Nutter, President of the 
Reinsurance Association of America; and Dr. Brian Rothschild, 
Montgomery Charter Professor of Marine Science, Professor, 
School of Marine Science and Technology at the University of 
Massachusetts at Dartmouth.
    As a reminder to the second panel of witnesses, I would 
note for all of you that the red timing light on the table will 
indicate when five minutes have passed, and your time has 
concluded.
    However, a reminder that your full written statement will 
be submitted for the hearing record.
    And now I would like to begin with the first witness of the 
second panel, Dr. Pomponi. Please begin.

  STATEMENT OF SHIRLEY A. POMPONI, Ph.D., EXECUTIVE DIRECTOR, 
    HARBOR BRANCH OCEANOGRAPHIC INSTITUTE, FLORIDA ATLANTIC 
                           UNIVERSITY

    Ms. Pomponi. Good morning, Chairwoman Bordallo and Members 
of the Subcommittee. My name is Shirley Pomponi, and I am the 
Director of Harbor Branch Oceanographic Institute at Florida 
Atlantic University.
    Today I am providing my perspective as a career 
oceanographer, Chair of the board of trustees of the Consortium 
for Ocean Leadership, and Chair of the Ocean Studies Board of 
the National Research Council.
    The ocean covers two thirds of our planet. It is the 
driving force behind the climate and weather. It provides 
oxygen, food, recreation, and highways for commerce, and 
significantly contributes to our nation's economic regime.
    As we have come to better appreciate the complexity of 
marine ecosystems, we have developed new approaches to ocean 
management that seek to balance the human uses of coastal and 
ocean environments, while maintaining the integrity of marine 
ecosystems.
    I am going to highlight five priority areas for managing 
our ocean resources.
    First, ecosystem-based management, about which we have 
heard quite a bit this morning already. This recognizes the 
complex interactions of the entire ecosystem, rather than just 
a single fishery.
    The many aspects of human interactions with the oceans are 
also taken into consideration in resource management decisions. 
Although not a new concept, we have not made significant 
progress toward realizing ecosystem-based management in our 
current regulatory regimes.
    Marine protected areas are an essential component of 
ecosystem-based management that could provide some insurance 
against over-harvesting.
    In addition to committing to the establishment of marine 
protected areas, we must also ensure that there is continuing 
support for science to monitor their effectiveness.
    Second, in the ongoing debates about climate change and how 
to mitigate and adapt to its effects, the role of the ocean and 
the impact of climate change are often overlooked. One example 
is sequestration of carbon dioxide. While the processes by 
which the ocean absorbs CO<INF>2</INF> are well understood, the 
impact of a more acidic ocean on critical ocean ecosystems like 
coral reefs is not known.
    I want to thank this committee for its leadership in 
passing the Federal Ocean Acidification Research and Monitoring 
Act last year.
    As the committee considers climate change and energy 
legislation, I ask you to include provisions for funding to 
support research and monitoring activities to better understand 
the effect of climate change on the ocean.
    Third, the ocean plays an important role in human health. 
Harmful algal blooms produce toxins that not only affect fish 
and marine mammals, but also humans who eat fish or shellfish, 
or simply visit a beach during a bloom.
    A renewed emphasis on research into the mechanisms of 
transmission of water-borne pathogens and toxins and the 
effects of climate and weather patterns on ocean and human 
health would provide public health officials with the tools and 
information that they need to prevent human exposure to 
illness, both in coastal communities and hundreds of miles 
inland.
    Fourth. By integrating existing ocean observing and 
monitoring systems and expanding the system to incorporate new 
sources of data, we can combine information from regional 
systems into one national integrated ocean observing system, 
and provide multiple scales of information to a variety of end 
users; from ship captains to coastal resource managers, to 
recreational fishers and public health officials.
    A critical need is to expand and sustain the basic 
components of the integrated observing system, including a 
national commitment to a program of satellite observations from 
space, coupled with an investment in our academic research 
fleet, to support simultaneous in situ observations. A robust 
integrated ocean observing system will fundamentally alter our 
ability to understand, conserve, and manage our ocean 
resources, and will enable ocean forecasting, ecosystem-based 
management, and adaptive management during the next decade.
    Fifth. I would like to emphasize the need for continued 
coordination among the 25 Federal agencies that conduct or fund 
ocean research. A coordinated mechanism for inter-agency OMB 
budget reviews would ensure that inter-agency priorities are 
included in budget planning for individual agencies. A 
comprehensive inter-agency review as part of the annual budget 
process would help ensure that the full suite of ocean research 
priorities is addressed.
    In conclusion, we have drawn down our ocean assets. We now 
need to reinvest in, and recommit to, the health of our ocean 
planet. The oceans are finite, and cannot indefinitely 
withstand the stresses of overfishing, climate change, and 
pollution.
    New technologies to map, explore, and observe the ocean 
will enable us to achieve ecosystem-based and adaptive 
management, restore the health of the ocean, and indeed, our 
planet.
    Chairwoman Bordallo and Members of the Subcommittee, I 
thank you for the opportunity to testify before you; and on 
behalf of the ocean science community, I look forward to 
working with you to provide the science to conserve our ocean 
planet for future generations.
    [The prepared statement of Ms. Pomponi follows:]

      Statement of Shirley A. Pomponi, Ph.D., Executive Director, 
   Harbor Branch Oceanographic Institute, Florida Atlantic University

    Good morning Chairwoman Bordallo, Ranking Member Brown, and members 
of the Subcommittee. It is an honor to be invited to testify before 
this committee on ocean research priorities for the 111th Congress and 
the new administration. My name is Shirley Pomponi. I am the Executive 
Director of Harbor Branch Oceanographic Institute at Florida Atlantic 
University. Today I am providing my perspective as a career 
oceanographer, science advisor to the U.S. Commission on Ocean Policy, 
Chair of the Board of Trustees for the Consortium for Ocean Research, 
and Chair of the Ocean Studies Board of the National Research Council.
    Both the U.S. Commission on Ocean Policy and the Ocean Studies 
Board have provided recommendations on issues ranging from the 
management of fisheries and protected marine species, the prevention of 
oil and other ocean pollutants, the ocean's role in climate change, and 
preparedness for coastal hazards such as hurricanes and tsunamis. 
Clearly, there is a need to improve our understanding of the oceans to 
inform decision making on these and a suite of other issues affecting 
society and imperiling our oceans.
    I appreciate the opportunity to share with you what we have learned 
about data needs as well as methods and tools to manage living natural 
resources within an adaptable, ecosystem-based management regime. I 
will highlight five areas: ecosystem-based management, climate change, 
oceans and human health, ocean observing, and interagency cooperation. 
I will underscore some recommendations from recent Ocean Studies Board 
reports, the U.S. Commission on Ocean Policy Report ``An Ocean 
Blueprint for the 21st Century,'' and the Ocean Research Priority Plan 
and Implementation Strategy (ORPPIS) developed by the Joint 
Subcommittee on Ocean Science and Technology (JSOST), Charting the 
Course for Ocean Science in the United States: Research Priorities for 
the Next Decade. The Ocean Studies Board has prepared a set of 
booklets, the Ocean Science Series, which present overviews of key 
findings and recommendations from National Research Council reports on 
selected topics including: Oceans and Human Health, Coastal Hazards, 
Pollution in the Ocean, Marine Ecosystems and Fisheries, and Ocean 
Exploration (forthcoming). The booklets are available at: http://
dels.nas.edu/osb/ocean--science--index.shtml.
INTRODUCTION
    The ocean covers two-thirds of the planet, holds 97% of the Earth's 
water, and 97% of the biosphere. The ocean is the driving force behind 
climate, weather, and planetary chemistry; it generates more than half 
of the oxygen in the atmosphere; and it absorbs approximately one-third 
of the carbon dioxide released to the atmosphere from the burning of 
fossil fuel. The ocean, coasts, and Great Lakes are critical to our 
survival and the long-term vitality of the United States: they provide 
food, recreation, and highways for commerce, thereby contributing 
significantly to our nation's economic engine. As an example, our 
commercial marine fishing industry contributed $35.1 billion to the 
2006 U.S. Gross National Product. More than 40 million people around 
the world depend on fishing or fish farming for their livelihood--a 
number that has more than tripled since 1970. The vast majority of 
these people are working in developing countries, where fishing and 
aquaculture constitute the economic backbone of most coastal areas. 
Their efforts now bring in more than 141 million tons of seafood per 
year, supplying a primary source of protein to more than one billion 
people.
    But the ocean provides more than fish--it contains a dazzling 
diversity of life and a seemingly endless bounty of marine resources. 
Coral reefs draw tourists to support growing ecotourism industries. 
Marine organisms are the source of thousands of unique chemicals with 
the potential to treat human diseases. Some are already clinically 
available. Coastal communities have deep cultural ties to the ocean and 
depend on it for their livelihood.
    But consider this sobering fact: despite the vastness of the ocean, 
it is not limitless. Ocean resources are under intense pressure to 
satisfy the expanding demand due to population growth and 
globalization. Globally, 75% of 441 different stocks of fish are fully 
exploited, overexploited, or depleted; invasive species have disrupted 
marine food webs; an increasing number of species are in danger of 
extinction as a result of human activities; and point and non-point 
pollution and marine debris are polluting our oceans at an alarming 
rate. Changes such as habitat loss and degradation are significant 
threats to marine life while climate change has the potential to modify 
entire marine ecosystems. The ocean's ability to continue to sustain 
the multibillion dollar industries it supports is increasingly 
uncertain.
    As scientists have come to better appreciate the complexity of 
marine ecosystems, we have developed new approaches to ocean management 
that seek to balance the human uses of coastal and ocean environments 
while maintaining the integrity of the marine ecosystem. Scientific 
research on how these ecosystems function and react to physical, 
chemical and biological changes has helped inform policy decisions that 
promote the sustainable use of marine resources; however, we need 
sustained investments in research and strategic, long-term planning to 
ensure that future generations will have an opportunity to experience 
and enjoy the ocean and its many resources.
ECOSYSTEM-BASED MANAGEMENT
    The concept of ecosystem-based management has been around for some 
time, yet we have not made significant strides toward realizing 
ecosystem-based management in our current regulatory and management 
regimes. In this approach, the many aspects of human interactions with 
the oceans--fishing, shipping, water quality, extraction and transport 
of oil, gas and renewable energy resources, and invasive species, among 
others--are taken into consideration as a whole in fishery management 
decisions. Recognizing that human activities often have rippling 
effects on marine ecosystems, ecosystem-based management takes a big-
picture approach to using and conserving marine resources.
    Although fisheries management is not its only application, 
ecosystem-based management represents a new approach to harvesting 
marine resources. Rather than focusing on single species, it emphasizes 
fisheries management practices that take into account food web and 
multispecies interactions. Ecosystem-based management recognizes the 
complex interactions among fished species, their predators and prey, 
and other aspects of the marine environment. Two reports of the 
National Research Council--Sustaining Marine Fisheries (1999) and 
Dynamic Changes in Marine Ecosystems (2006)--conclude that an 
ecosystem-based approach would improve the prospects for long-term 
sustainability of marine fisheries. Integrating information about 
predator-prey relationships, food webs, habitats, and the effects of 
climate variation, ocean circulation patterns, chemistry, seafloor 
terrain and fish distributions should enhance attempts to improve 
fisheries management.
    The National Research Council report Understanding Marine 
Biodiversity (1994) recognized that the human interactions can lead to 
transformations in ecosystem structure and function and that this 
transformation is manifested in changes to marine biodiversity. This 
report, which called for a national marine biodiversity research 
initiative, led to the Census of Marine Life (CoML), a global network 
of researchers in more than 80 nations engaged in a 10-year scientific 
initiative to assess and explain the diversity, distribution, and 
abundance of life in the ocean. From the work of CoML, we have learned 
that preserving natural marine biodiversity is critical to maintaining 
marine ecosystem functions and services, including fisheries, water 
quality, recreation, and shoreline protection. We need management 
systems that conserve marine biodiversity; doing so will increase the 
chance that ecosystems can adapt and recover following natural or 
human-caused disturbances. If we use conservation of marine 
biodiversity as a primary aim of ecosystem-based management, we will 
automatically conserve many of the myriad interconnections among 
species and their environment, we will generate a cost-effective way to 
coordinate diverse agency goals, manage trade-offs in providing 
ecosystem services, and ensure maximum ecosystem function and 
resilience.
    Marine protected areas are an essential component of an ecosystem-
based approach to management, as indicated by the National Research 
Council report on Marine Protected Areas (2001). Marine protected areas 
could provide some insurance against over-harvesting, provide an 
effective way to assess ecosystem structure and functions, and protect 
vulnerable habitats, such as coral reefs. In addition to committing to 
the establishment of marine protected areas, we must also ensure that 
there is continuing support for science to monitor their effectiveness, 
which will allow us to refine and improve the process for identifying 
and conserving important marine habitats.
    To effectively use ecosystem-based strategies, we must improve our 
understanding of the effects of commercial and recreational fishing on 
marine ecosystems; in particular, we need greater knowledge of trophic 
effects and species interactions, indicators of ecosystem regime 
shifts, and baseline abundance data for non-target species and 
organisms that comprise the lower trophic levels of marine ecosystems. 
Only then can we develop accurate ecosystem models to propose 
alternative policy and management scenarios.
CLIMATE CHANGE
    In the ongoing debates about climate change and how to mitigate and 
adapt to its effects, the role of the ocean and the impact of climate 
change on the ocean are often overlooked. The National Research Council 
addressed this issue in several reports. Abrupt Climate Change: 
Inevitable Surprises (2002) highlights how the ocean exerts a profound 
influence on climate through its ability to transport heat from one 
location to another and its capacity to store carbon. Because water has 
enormous heat capacity, the ocean typically stores 10-100 times more 
heat than equivalent land surfaces. Changes in ocean circulation, and 
especially the thermohaline circulation in the North Atlantic, have 
been implicated in abrupt climate change of the past.
    Today, a question of great societal relevance is whether the North 
Atlantic circulation, including the Gulf Stream, will remain stable 
under the climatic changes and global warming that are expected to 
continue for the next few centuries. It was predicted that as the 
Greenland Ice Sheet melted, the influx of fresh, cold water could 
shutdown the ocean conveyer belt that delivers warm water (and weather) 
to northern Europe. A shutdown of this circulation would not induce a 
new ice age, but it was hypothesized that it would cause major changes 
in climate and in the ocean's circulation, upwelling and sinking 
regions, distribution of sea ice and sea level. Surprisingly, after 
seeing a predicted slow-down in this process, last year the conveyer 
belt strengthened, which suggests that something is happening that we 
scientists have not predicted.
    In areas of the Arctic and Antarctic, the loss of sea ice has 
broader implications. For example, as air and water temperature rose, 
sea ice in Alaska has declined; populations of commercially important 
fish, seabirds, seals, walrus, sea otters, and other species depend on 
plankton blooms that are regulated by the extent and location of sea 
ice in the spring. As sea ice retreats, species composition of the 
blooms changes, reducing the amount of food reaching benthic organisms 
which in turn feed other portions of the Arctic food web. Our ability 
to fully understand the ramification of these changes or predict their 
impact on protected species or commercial fisheries is sorely lacking.
    The future amount of greenhouse gases in the atmosphere, such as 
carbon dioxide (CO<INF>2</INF>) and methane, will depend on the ocean's 
ability to absorb these gases in open-ocean and coastal systems. The 
ocean absorbs approximately one-third of the CO<INF>2</INF> emitted to 
the atmosphere from the burning of fossil fuels. However, this valuable 
service comes at a steep ecological cost--the acidification of the 
ocean. Charting the Course for Ocean Science in the United States: 
Research Priorities for the Next Decade, notes that a more acidic ocean 
will threatening a wide range of marine organisms from plankton and 
shellfish to massive coral reefs--further altering ecosystems and their 
processes. While the process by which ocean waters absorb 
CO<INF>2</INF> are well understood, the level at which the ocean loses 
this buffering capacity is not well known nor are the implications for 
ocean food webs and commercial fisheries that depend on shell-forming 
organisms. I want to thank this committee for its foresight and 
leadership in passing the Federal Ocean Acidification Research and 
Monitoring Act last year; this is a good first step. As the committee 
considers climate change and energy legislation, I urge you to include 
provisions that will provide the necessary funding to support research 
and monitoring activities to better understand the effect of climate 
change on the ocean.
OCEANS AND HUMAN HEALTH
    The ocean is a source of health hazards, harboring toxins and 
disease-causing agents that can present serious threats to human 
health. For example, the phytoplankton that cause harmful algal blooms 
produce toxins that not only affect fish and marine mammals, but also 
humans who eat affected fish or shellfish, or in some cases, simply 
visit a beach during a bloom. To prevent disease outbreaks and improve 
public health, we need to develop more effective threat detection and 
monitoring systems, and conduct basic research to better understand of 
the causes and epidemiology of ocean-related health threats.
    Environmental changes can affect the dynamics of waterborne 
diseases. When sea-surface temperatures increase, pathogens can become 
more concentrated in seawater, threatening to contaminate seafood and 
drinking water supplies in coastal communities. When sea levels rise, 
low-lying areas can become inundated with contaminated water. Adaptive 
management practices can recognize these environmental clues, such as 
higher sea-surface temperature or a rise in sea level, and enable 
public health officials to take action to help prevent our citizens 
from being exposed to waterborne diseases.
    The ocean is also a key source of plants, animals, and microbes 
that are beginning to yield new and potent drugs for the treatment of 
human disease, as well as new products for use in biotechnology. More 
than 20,000 chemicals with pharmaceutical potential have been isolated 
from marine organisms since the 1980s, several of these are currently 
in the drug development pipeline, and a few are already clinically 
available. One example is Prialt--a drug developed from the venom of a 
fish-killing cone snail, and which is being used to treat chronic pain 
associated with diseases like cancer and AIDS. Another example is 
Yondelis--a cancer drug developed from a chemical discovered in sea 
squirts that grow on mangrove roots in Florida.
    Ocean research will enable us to develop effective ways of 
protecting communities from harmful toxins, such as those produced by 
harmful algal blooms, and dangerous pathogens, and to fuel discoveries 
of marine-derived medicines, biomedical research probes, and other 
products that improve public health and well-being. Now more than ever 
we need a renewed emphasis on research into the mechanisms of disease 
transmission and the effects of climate and weather patterns on ocean 
and human health. Only then can we equip public health systems with the 
tools and information they need to prevent human exposure to illness, 
both in coastal communities and hundreds of miles inland.
OCEAN OBSERVING
    The capability to adaptively describe and forecast the state of the 
ocean is necessary to predict climate change and large scale phenomena 
such as El Nino and La Nina events, as well as local phenomena, from 
hurricanes and tsunamis to human health hazards. A report issued by the 
National Science and Technology Council Subcommittee on Ocean Science 
and Technology listed the ``capability to forecast key ocean-influenced 
processes and phenomena'' and ``deploying an ocean-observing system'' 
as two of its three central elements of science and technology that 
will ``provide the U.S. with the knowledge and means to redefine our 
relationship with the ocean for the better''.
    By measuring physical, biological and chemical water properties, 
integrated ocean observing systems provide the scientific data 
necessary to support ecosystem-based management and develop adaptive 
strategies to better manage our ocean resources. Models are invaluable 
tools that combine oceanographic data from observing systems with 
scientific theory to recreate past conditions, provide real-time 
observations and enable predictions of future impacts to the ocean. 
Output from models are used by harbor pilots to navigate vessels safely 
into port, to forecast the transport of harmful algal blooms near 
coastal cities, and to predict how increasing levels of carbon dioxide 
in our atmosphere will affect the acidity of the ocean.
    An Integrated Ocean Observing System (IOOS) is a central 
recommendation of the U.S. Commission on Ocean Policy and serves as the 
U.S. contribution to the Global Ocean Observing System (GOOS). The IOOS 
combines information from many sensor types at multiple scales, from 
global to national to regional to local. By integrating and enhancing 
existing ocean observing and monitoring systems already in place, and 
expanding the system to incorporate new sources of data, we can 
aggregate information from regional systems into one national IOOS and 
provide multiple scales of information useful to a variety of end-
users. The data need to be managed and relayed through an integrated 
communications system that allows feedback from end-users to keep the 
system relevant to their needs. Although IOOS is still in its infancy, 
it promises to be a powerful tool for end-users. IOOS end-users make 
decisions affecting or affected by the ocean, from ship captains to 
coastal resource managers to climate scientists, recreational 
fishermen, and surfers.
    A critical need is to expand and sustain components of the IOOS, in 
particular, ocean observations from space. NASA's earth observations 
have improved warning, monitoring, and recovery support from national 
disasters, such as hurricanes and floods; they provide more timely 
detection of tropical storms, resulting in much improved evacuation 
decisions; and they improve wildfire detection and El Nino forecasting. 
Satellite missions to observe sea surface height and ocean color are 
experimental, with no path for transition to true operational status. 
Declarations in the National Research Council's Decadal Survey call for 
a renewal of the national commitment to a program of Earth 
observations. One key recommendation of the survey tasked NOAA with 
restoring measurements of ocean vector winds and sea-surface 
temperatures to planned Earth observing missions: the National Polar-
orbiting Operational Environmental Satellite System (NPOESS) and the 
Geostationary Operational Environmental Satellite-R Series (GOES-R). 
Sustained measurements from Earth observing systems such as these 
provide the long-term record necessary to make sound policy decisions 
regarding our oceans.
    While ocean data from space are important, satellite remote sensing 
can only provide information a few meters deep into the ocean. It is, 
therefore, critical that we continue to invest in our academic research 
fleet, buoys, floats, underwater vehicles, and sensors to expand our 
ability to measure biological, chemical and physical properties, and to 
integrate remote sensing from space with in situ measurements in the 
ocean. A robust, integrated ocean observing system should be able to 
describe the actual state of the ocean as well as provide data to 
predict changes in ocean ecosystems. This information will 
fundamentally alter our ability to understand, conserve, and manage our 
ocean resources.
    Full development and sustained funding to support the operational 
costs of this ocean observing system are important: they will enable 
the promise of ocean forecasting, ecosystem-based management, and 
adaptive management during the next decade.
INTERAGENCY COORDINATION AND ACCOUNTABILITY
    In 2007, the JSOST released the Ocean Research Priorities Plan and 
Implementation Strategy: Charting the Course for Ocean Science in the 
United States: Research Priorities for the Next Decade. The plan 
represents the first coordinated national research planning effort 
involving all federal agencies that support ocean science. I would like 
to emphasize one of the overarching recommendations from this report: 
the need for continued coordination among the federal ocean agencies. 
Ocean research activities are spread across the 25 federal agencies 
that comprise the JSOST. This poses a serious challenge for 
coordination, collaboration and integration of projects for 
implementing ocean research priorities. A central program office, 
similar to that of the National Oceanographic Partnership Program 
(NOPP), should be established to coordinate and manage projects to 
serve the broader ocean sciences community. NOPP has been effective in 
facilitating interagency collaboration on a wide variety of topics, 
including ocean observing system development, and biological and 
chemical sensor development and commercialization. Under the Ocean 
Action Plan (OAP), the NOPP program office has been instrumental in 
ensuring the effective coordination, collaboration, and integration of 
the Inter-agency Working Group on Ocean Partnerships, the Inter-agency 
Working Group on Facilities, and the Ocean Research and Resources 
Advisory Panel as a subset of the various interagency working groups 
established under the OAP.
    Transparency in agency budget requests to specify how funds will be 
used to support the interagency research priorities would ensure 
accountability and encourage participation among all federal ocean 
agencies. However, OMB budget reviews are performed largely per agency, 
presenting an administrative barrier to assessment of progress that can 
be more effectively accomplished through interagency coordination, such 
as those envisioned in the ORPPIS. A more coordinated mechanism will be 
required to ensure that the interagency priorities are included in 
budget planning for individual agencies. A comprehensive interagency 
review, as part of the annual budget process, would help ensure that 
the full suite of research priorities is addressed. Agency budget 
reviews should be coordinated to ensure that interagency priorities are 
included in the plans of each individual agency within the JSOST.
CONCLUSION
    The ocean is the reason that Earth is inhabitable: it sustains all 
life. Yet, we have taken the ocean for granted, often looking to outer 
space and distant planets rather than inner space, the ocean's depths 
and the vast species diversity--diversity that feeds a planet and holds 
the cures to diseases that have plagued humankind. We must recognize 
that the oceans are finite and cannot indefinitely withstand stresses 
of overfishing, climate change, and pollution.
    We have drawn down the assets of the ocean, but now more than ever 
we need to re-invest in and recommit to the health of our ocean planet. 
We have explored only five percent of the ocean and we protect only 
eight-tenths of one percent of it. We need to understand society's 
impact on the ocean and the ocean's impact on society to ensure a 
clean, healthy ocean. We need new technologies to map, explore, and 
observe the ocean--technologies that will enable us to achieve 
ecosystem-based and adaptive management, restore the health of the 
ocean and unlock its secrets. Chairwoman Bordallo, Ranking Member 
Brown, and members of the Subcommittee, I thank you for the opportunity 
to testify before you, and on behalf of the ocean science community, I 
look forward to working with you to provide the science to conserve our 
ocean planet for future generations.
                                 ______
                                 
    Ms. Bordallo. Thank you, thank you very much, Dr. Pomponi, 
for your testimony. And also thank you for the many dedicated 
years working to advance marine science.
    And I now recognize Dr. Jackson from the International 
Union for the Conservation of Nature to testify for five 
minutes. Please proceed.

 STATEMENT OF WILLIAM JACKSON, Ph.D., DEPUTY DIRECTOR GENERAL, 
                  IUCN-USA MULTILATERAL OFFICE

    Mr. Jackson. Thank you, Madame Chairwoman and Members of 
the Subcommittee.
    Madame Chairwoman, you began your opening statement by 
talking about the financial crisis. I think this crisis has 
provided us with a very stark reminder of how the loss of 
assets can affect our livelihoods, but also undermine our 
capacity to make choices.
    It is shown that early warning signals often go unheeded 
until a crisis is upon us; and that when we do have a collapse, 
it can be very rapid and very far-reaching.
    I think if we compare the financial crisis with the state 
of our natural resources, we see some alarming similarities. 
For many years we have been told that our forests, our rivers, 
and our oceans are stressed, and unfortunately we tend to 
ignore these early warning signals. Just look at how 70 percent 
of the world's fisheries are depleted or over-exploited. Yet in 
some areas, fishing industry continues to intensify their 
efforts, opening up new species and new areas.
    The IUCN red list of threatened species tells us that 
nearly 40 percent of the animals and plants that we have 
assessed globally are threatened with extinction. And we know 
that since 1900, the world has lost about half of its wetlands, 
and about 60 percent of coral reefs could be lost by 2030.
    Having the right information is the key to the 
Subcommittee; acting on that information, even more important.
    The consequences of ecosystem degradation have far-reaching 
impacts on human well-being. Climate change, for example, has 
global reach; but poor countries are more, or are least able to 
cope with this. This, in turn, will have a major impact on 
human security issues through food and water scarcity, and 
through ensuring migration.
    When fisherpeople stop fishing because there is no fish 
left, and they start using their boats to ferry refugees, you 
know we have reached another tipping point.
    Technology is critical in reversing climate change, but we 
must be careful not to put all of our eggs in the technology 
basket. Some technologies will definitely work, others won't. 
Some will be economic, others won't.
    But whether we talk about climate change mitigation or 
adaptation, conserving natural resources is a safety net that 
we should never lose. While climate change rightly dominates 
the headlines today, ecosystem degradation will do so tomorrow 
if we don't act now. Economies can recover, whilst biodiversity 
is irreversible.
    Biodiversity can do for the planet what a healthy immune 
system can do for us as individuals. It helps us to adapt to 
change, but if it doesn't function properly, it makes us more 
vulnerable.
    We have many years, and thousands of years indeed, of 
experience in using nature to help us to grow our food, to 
provide us with clean water and medicines, and to protect us 
from natural hazard. We know that investing in ecosystems can 
yield multiple benefits at the same time.
    For example, in a fight against climate change, restoring 
forest ecosystems, not only stores large amounts of carbon, but 
can directly improve the resilience of poor people's 
livelihoods, and therefore reduce impacts.
    We know enough about marine ecosystems to create far more 
effective national and international management mechanisms to 
halt the decline and maintain resilience, so that they can have 
a better chance of coping with climate change.
    The bottom line, we need to act urgently on the existing 
knowledge we have, while increasing, at the same time, 
understanding of natural processes.
    What is it that you can do as lawmakers? The first answer, 
to me, is fairly obvious, and the one that fits within your 
Administration's stated intentions. You can invest in 
knowledge, you can support research.
    This committee has a special interest in oceans. Your 
support for time-series data on fisheries, pollution, and 
climate variability to allow us to better understand the 
impacts of climate change on marine ecosystems is essential. We 
need to understand processes, such as acidification and 
interaction between oceans and the climate system. Research 
itself is not enough.
    The U.S. has traditionally shown leadership in ocean 
resource management, and I encourage you to renew that 
leadership role. This is particularly important for the Arctic.
    The U.S. also needs to send strong messages into the 
international multi-lateral system, and particularly the U.N. 
Convention on the law of the sea and the upcoming climate 
negotiations.
    Most importantly, you can perhaps do a lot by integrating, 
in the committee's own thinking, the idea of investing in 
nature as infrastructure. Perhaps that is part of your new 
paradigm.
    In short, we have to make biodiversity integral to every 
project in every piece of legislation you work on. The U.S. can 
lead by example in making these necessary interventions. The 
International Union of the Conservation of Nature stands ready 
to help you.
    [The prepared statement of Mr. Jackson follows:]

     Statement of Dr. William J. Jackson, Deputy Director General, 
          International Union for Conservation of Nature--IUCN

The challenge
Conserving Nature--our life support system
    While the global economic crisis certainly warrants the political 
attention it is receiving, another crisis is escalating, the effects of 
which could far outstrip the current financial losses: the global 
decline of the earth's natural capital.
    Healthy biodiversity and ecosystems are the true foundation of all 
economies, yet they are under attack by the same economic forces that 
ultimately depend on them. Economies can eventually recover, but the 
loss of biodiversity is irreversible and the impacts of ecosystem 
degradation are likely to undermine economic recovery.
    Biodiversity affects nearly every aspect of human well-being and 
development. Ecosystems such as forests, wetlands and river basins, if 
allowed to function naturally, provide streams of benefits to people. 
These ``ecosystem services'' include food, timber and medicines, 
regular supplies of fresh water, maintaining a healthy climate, 
pollinating crops, preventing soil erosion and controlling diseases. 
Healthy ecosystems minimize the impacts of extreme natural events and 
allow affected communities to recover more quickly. The Economics of 
Ecosystems and Biodiversity study put an average price tag of US$ 33 
trillion a year on these fundamental services which are largely taken 
for granted because they are free. That is nearly twice the value of 
the global GNP of US$18 trillion. Society as a whole--individual, 
households, businesses, and governments--depends on ecosystem services 
but has become so far removed from nature that most people, including 
policy makers, are unaware of this dependence.
    Biodiversity supports much of the energy systems, especially in 
developing countries where firewood and charcoal are by far the most 
important sources of energy used for cooking and heating. Biofuels are 
becoming increasingly important in providing energy security, 
potentially helping to address the problems of climate change, and 
providing new sources of income to poor farmers. Biodiversity also 
provides an effective way to store the carbon produced by burning 
fossil fuels. Millions of tons of carbon are absorbed every year by 
plankton, soils and forests.
    Human health depends on healthy biodiversity. More than half of our 
modern pharmaceuticals originated from wild plants or animals while 
medicinal plants continue to provide the main source of health care in 
many developing countries. In the U.S. alone, the turnover for drugs 
derived from genetic resources was between US$ 75 billion and US$ 150 
billion in 1997. According to the World Health Organization (WHO), the 
demand for medicinal plants is likely to increase from the current 
US$14 billion a year to US$5 trillion in 2050.
    Some 40% of world trade is based on biological products or 
processes including fisheries, timber and food products. The increasing 
dependence of many countries on imports of food and other biological 
resources underlines the important contribution biodiversity makes to 
economies.
    Biodiversity is linked to national security. Conflicts over water, 
fisheries and other shared resources are increasing in many parts of 
the world and natural resources help feed some conflicts. Civil 
conflicts are being fought in tropical forests and illegal harvesting 
of timber and other natural resources provides income that enables 
insurgent groups to purchase arms or corrupt governments to finance 
repression. Better resource management can contribute to peaceful 
relationships among nations. The massive movement of people competing 
for shrinking natural resources in the face of climate change will 
further destabilize fragile States.
How many warnings are needed?
    Despite the growing knowledge of how nature provides societies' 
life support systems, environmental degradation is rampant. The world 
is not reacting to the alarm bells that have been ringing with ever 
greater urgency for many years.
    Almost 40% of the world's species assessed through the IUCN Red 
List are threatened with extinction; 70% of the world's fisheries are 
depleted or over-exploited and still, fishing industries intensify 
their efforts, plundering new species and new areas. The collapse of 
the cod fishery in Canada is a stark reminder of the impacts of 
unsustainable harvest on people and economies. The first sale value of 
marine fisheries was globally valued at US$ 70 billion in 2002, while 
local scale fishing provides a critical source of protein for the poor.
    Nearly every aspect of human development is unsustainable. Demand 
for fresh water exceeds supply in more and more countries, leading in 
some cases to conflict over dwindling resources. Through burgeoning 
levels of waste and industrial pollution, air and water quality 
continues to decrease, even if the problem may seem far away from 
Washington, as the ``workshop of the world'' has moved to East Asia. 
Consumption increases but the world seems unwilling to recognize, let 
alone to invest, in maintaining natural capital.
    Climate change is altering weather patterns and contributing to the 
increasing frequency and strength of extreme weather events. What was 
the impact of hurricane Katrina on the U.S. economy? What was the cost 
of reconstruction associated with the massive fires in California last 
summer? What will be the cost of losing cultural heritage from 
inundation of Pacific islands? What will be the cost of technology to 
try to maintain liveable conditions as temperate areas become hotter?
    In their bid to stimulate economic recovery and create new 
employment, governments around the world are using public financial 
resources to invest in infrastructure such as roads and airports. In 
many cases, these investments could further damage the environment. 
Infrastructure spending should address issues of waste and energy 
efficiency and the potential impacts on ecosystems.
    Nature can be viewed as a 'trust fund'. There is a choice to spend 
it all now, use the current stock sustainably (at its current rate of 
return) or increase future opportunities through investment. There is 
no ``natural reserve bank'' or ``natural treasury'' which will bail the 
world out of the environmental debt crisis. The necessary actions will 
not be easy or quick, but the longer we wait, the harder it will be to 
climb out. As Sir Nicholas Stern has shown with respect to climate 
change, every year that serious action is postponed results in more 
unavoidable damage and increased costs of adaptation.
The opportunity
    The current economic meltdown can become a catalyst for a new and 
very real, green economy. It offers an unprecedented opportunity to 
rethink the global economic model. The U.S., with a renewed commitment 
and energy to make its contribution once again towards a better world, 
is ideally placed to lead by example, in putting environmental 
restoration at the heart of economic recovery and biodiversity 
conservation at the forefront of efforts to halt climate change.
    Many governments still worry that if they set tough standards to 
control carbon emissions, their industry and agriculture will become 
uncompetitive, a fear that leads to a foot-dragging ``you go first'' 
attitude that is blocking progress. A positive intervention by the U.S. 
could provide the vital impetus that moves the current climate 
negotiations beyond the national interests which lie at the heart of 
the current impasse. The logjam should not be difficult to break if the 
U.S. helps industrialized countries agree on the principle of equitable 
entitlement to the planet's common resources. Caps on emissions and 
sharing of energy-efficient technologies are in everyone's interests, 
rich and poor.
    U.S. corporations have invented remarkable products that have been 
the source of material well-being for hundreds of millions around the 
world, but for too long have used unsustainable production systems. 
Methods of production and consumption must change, but that does not 
mean going back to the Stone Age. An average citizen of Switzerland, 
whose per capita GDP is higher than that of the U.S., emits one third 
of the CO<INF>2</INF> of an American. And in other societies and 
cultures, a full and happy life can be had for one third of what the 
Swiss consume.
    Climate change, which is triggering environmental, social and 
economic disruptions, should be elevated as a top priority. But 
conservation of biodiversity needs just as much attention, and just as 
urgently. The U.S. interests in conserving its natural resources and 
achieving energy independence, clearly align with the global common 
good in every sphere: in the oceans, by halting the rapid decline of 
fish stocks and increasing acidification; on land, by regenerating the 
health of our soils, forests and rivers; and in the atmosphere by 
reducing the massive emission of pollutants from our wasteful 
industries, construction, agriculture and transport.
    Conservation of nature and natural resources is often perceived as 
an obstacle to development when in reality, conserving forests, 
watersheds and coastlines can bring enormous savings to national 
governments. Investing in green infrastructure secures the continuous 
flow of ecosystem services and is far cheaper than traditional ``built 
infrastructure'' such as flood barriers and water filtration plants.
Green infrastructure = green jobs
    The concept of green infrastructure, which originated in the U.S., 
highlights the importance of the natural environment in decisions about 
land use and emphasizes the ``life support'' functions provided by the 
natural environment. Examples include clean water and healthy soils, 
functions such as recreation and providing shade and shelter in and 
around urban areas. The U.S. Environmental Protection Agency (EPA) has 
extended the concept to the management of storm water runoff at the 
local level through the use of natural systems or engineered systems 
that mimic natural systems. At a larger scale, the preservation and 
restoration of ecosystems such as forests, floodplains and wetlands are 
critical components of green storm water infrastructure.
    Millions of new jobs could be created by ``greening'' development. 
Last week, the German government announced that strong growth in 
Germany's renewable energy sector along with increased state spending 
for environment protection could help shorten the country's worst post-
war recession. The number of jobs in renewable energies will triple by 
2020 and hit 900,000 by 2030.
Putting nature at the centre of the fight against climate change
    For several years, the world has been investing in technology and 
engineering to fight climate change. Technology is a vitally important 
part of efforts to tackle climate change, but we must be careful not to 
put all of our eggs in a ``techno-fix'' basket. Some technologies will 
work; others won't; others will be economically unviable. And yet, 
whether for mitigation or adaptation measures to climate change, 
conserving nature is the safety net we should never lose.
    A well managed reef in the Indian Ocean or the Caribbean will be 
more resistant to rising temperatures and will help to keep fisheries 
healthy. The key role played by forests and other ecosystems like 
peatlands in absorbing CO<INF>2</INF> and therefore, in reducing 
emissions is well known. Greater support should therefore be given to 
the REDD protocol (Reducing Emissions from Deforestation and 
Degradation) being put in place through the United Nations Framework 
Convention on Climate Change (UNFCCC) and a financial mechanism in 
which conserving biodiversity allows countries to reduce their 
emissions. Properly applied, initiatives like REDD can produce better 
managed forests that deliver goods for people. A well-managed forest in 
Ghana brings benefits to the people living in the area, but it also 
helps to regulate the climate for the rest of the planet. This type of 
approach makes sense from both a development perspective and an 
environmental one.
    The U.S. has a clear role to play in promoting international 
cooperation to achieve conservation goals. It is one of only five 
countries that has not ratified the Convention on Biological Diversity 
(CBD). IUCN recommends that the U.S. ratifies the CBD, possibly as part 
of a package of widely-accepted treaties such as the United Nations 
Convention on the Law of the Sea and the Convention on Migratory 
Species.
    IUCN also wishes to see an increased U.S. Federal role in 
conserving biodiversity and maintaining or increasing the ability of 
ecosystems to mitigate and adapt to climate change. IUCN urges the U.S. 
to strengthen its environmental policies and practices by fully 
implementing and enforcing existing laws such as the National 
Environmental Policy Act, the National Forest Management Act and the 
Endangered Species Act.
The way forward
    The knowledge and the tools are at our disposal to restore the 
global environment and create a world that uses its natural resources 
sustainably. There are still some gaps in knowledge that must be filled 
but the problems are identified and so are the solutions.
    The first step is to acknowledge the magnitude of our ecological 
debts. Clear standards and accounting rules are needed for measuring 
and reporting the depreciation of natural capital, at all levels from 
individual businesses to entire countries. Recent advances in 
technology, including remote sensing and internet connectivity, make 
this kind of measurement and reporting easier than ever before.
    The next steps will be harder. In short, there is a need to rebuild 
our natural capital stocks. This will require wide-ranging reform of 
public policy, starting with reductions in ``perverse'' subsidies, such 
as the US$ 300 billion per year that the world's governments hand out 
to the petroleum industry. Subsidies to agriculture, forestry, mining, 
road-building also need to be reformed to create clear economic 
mechanisms that reward nature conservation and penalize environmental 
destruction.
    Conserving biodiversity and ecosystems must be done by addressing 
the underlying forces that are eroding them, particularly development 
and consumption. For conservation to be successful, a flexible approach 
is needed, diagnosing first and adapting specific solutions in changing 
contexts. Policy makers at all levels must better integrate sound 
science and demonstrated practice into their decisions.
    Years of experience ``on the ground'' have shown us the need to 
root conservation at the local level. It is only by working with 
communities, by giving them the knowledge and empowering them to use 
the tools available to them, that any conservation work will be 
possible. Influencing governance arrangements simultaneously from the 
local to global level is key to effecting wider change and building 
public support for environmental protection.
Harnessing the power of the private sector
    Businesses and consumers must start to pay the real economic value 
for ecosystem goods and services. Following the UK-led Review of the 
Economics of Climate Change, IUCN is working with its partners on The 
Economics of Ecosystems and Biodiversity study which will provide tools 
for the true value of nature's services to be accounted for in decision 
making and integrated into national economic measures.
    The priority should be to engage the business sectors in which 
change is most important and urgent, due to the scale of their negative 
impacts on the environment and social equity. These include ``large 
footprint'' industries such as mining, oil and gas, construction, 
automobile and energy which have a large impact on biodiversity through 
their operations. On the other hand, biodiversity-dependent industries 
such as agriculture, fisheries, forestry, food retailing and 
aquaculture must all be encouraged to reduce their negative impacts.
    Given the vast amounts of capital that financial services, banks, 
and insurance companies control, the leveraging potential for projects 
that conserve rather than damage biodiversity is enormous. The 
development of green enterprises whose activities generate conservation 
benefits should be encouraged. These include renewable energy, 
sustainable and organic agriculture, nature-based tourism and ethical 
trade.
    The business case for conserving nature is strong and getting 
stronger. A recent report published by IUCN and Shell International 
Limited calls for policy reforms to increase the commercial rewards for 
conserving biodiversity, increased penalties for biodiversity loss and 
better information on the biodiversity performance of business. A key 
challenge facing all businesses wanting to become more sustainable in 
their practices is the lack of accepted indicators to measure positive 
and negative contributions to biodiversity conservation. Markets for 
organic agriculture and sustainably-harvested timber are growing at 
double-digit rates. Another major area of growth is the demand for 
climate mitigation services such as the protection of forests and 
wetlands to absorb carbon dioxide. Bioprospecting--the search for new 
compounds, genes and organisms in the wild--is also a biodiversity 
business on the rise.
Paying a true price
    Payments for Ecosystem Services schemes reward those whose land 
provides these services with subsidies or market payments from those 
who benefit from them. It is an innovative approach to sustainable 
financing for conservation and highlights the critical importance of 
natural capital to the global economy.
    In the U.S., companies or individuals can buy environmental credits 
from Wetland Mitigation Banks to pay for degradation of wetland 
ecosystems due to agriculture or development activities. More than 400 
banks had been approved by September 2005, almost three quarters of 
them sponsored by private entities, while in 2006 the trade of wetland 
bank credits reached US$ 350 million.
    In France, the Vittel mineral water company (Nestle Waters) was 
concerned about nitrate contamination caused by agricultural 
intensification so it began to pay farmers within its catchment to make 
their practices more sustainable. A key element of success was that 
Vittel gained the farmers' trust and maintained their income levels by 
providing them with sufficiently large payments. It also financed any 
required technological changes, meaning that farmers were not out of 
pocket. The company worked with farmers to identify suitable 
alternative practices and mutually-acceptable incentives.
    The tools for environmental management are increasingly 
sophisticated and do not require massive increases in public spending. 
Market-based approaches such as tradable permits for sulphur dioxide, 
wetland mitigation banking, feed-in tariffs for renewable energy, waste 
deposit schemes and resource user fees, have shown that businesses will 
reduce their ecological footprint and invest in environmental 
protection, if the right incentives are put in place.
Leading the way in restoring our oceans
    The oceans drive weather patterns, generate 70% of atmospheric 
oxygen, absorb most of the planet's carbon dioxide, are the ultimate 
reservoir for replenishment of fresh water to land and contain a wealth 
of biodiversity that keeps the earth's ecosystem services functioning. 
Marine ecosystems such as wetlands, coral reefs, mangroves and sea 
grass beds provide food and livelihood for millions of people and can 
protect communities from extreme weather events.
    However as with the terrestrial environment, our oceans face a 
barrage of threats, one of the biggest being over-exploitation of 
marine resources. Oil spills, agricultural run-off, harmful chemical 
and medical substances and plastic debris are just part of a long list 
of pollutants generated by modern society that end up in the sea.
    The U.S. has the largest ocean area under its jurisdiction of any 
country and has traditionally been a leader in global ocean diplomacy. 
It now has the opportunity to renew its stewardship of ocean resources 
and resume its leadership in international marine affairs.
    Marine ecosystems often extend across political or jurisdictional 
boundaries. It therefore follows that they must be managed using a 
broader framework. For larger systems, for example at the level of a 
sea or significant portion of it, such agreements might take the form 
of ``regional ocean management agreements.'' Smaller spaces might 
require agreement among States or provinces, such as the case of 
Chesapeake Bay.
    The goal of applying the ecosystem approach to marine management by 
2010 is incorporated in the Johannesburg Plan of Implementation of the 
World Summit on Sustainable Development, adopted in 2002. Establishing 
this goal represented a culmination of global thinking developed in 
various international processes including the UN Food and Agricultural 
Guidelines on Marine Ecosystems and extensive work by the Conference of 
Parties to the Convention on Biological Diversity. Governments have 
collectively recognized the need to consider the full range of 
activities and processes affecting marine ecosystems in making 
decisions about the nature and extent of human activities.
    Achievement of this goal is not an easy task. Progress, however, 
has been steady and widespread. Asia-Pacific Economic Cooperation 
(APEC) members and the Arctic Council have taken important collective 
steps. The Global Environment Facility, the World Bank, participating 
countries and other donors are funding 16 large marine ecosystem 
projects in Africa, Asia, Latin America and Eastern Europe at a multi-
year level of US$1.8 billion. In the U.S., the National Oceanic and 
Atmospheric Administration has adopted ecosystem-based management as 
one of its principal strategic goals.
    Marine Protected Areas (MPAs) are an important tool in implementing 
the ecosystem approach. When effectively designed and managed these 
areas can deliver many ecological and socio-economic benefits as well 
as build the resilience of marine ecosystems in the face of increasing 
global pressures such as climate change.
    Improved coordination and implementation of land-based pollution 
programs, in alignment with other sectoral policies, and oil spill 
prevention measures are required to avoid nutrient overload and 
hazardous impacts. We need to improve fisheries management if we are to 
sustain healthy fish stocks and economically-viable fishing industries. 
Destructive fishing practices must be eliminated and bycatch 
drastically reduced. The development, strengthening and implementation 
of international and national policies are also needed to address 
declines in vulnerable and declining marine species.
    Despite the role of the oceans and coasts play in supporting our 
economic well-being, they remain poorly understood. Core funding for 
ocean science and research is necessary to expand our knowledge and 
allow us to continually adapt our management strategies for maximum 
effectiveness. Traditional approaches to coastal and marine management 
should be re-assessed and vulnerability studies need to consider new 
demands on marine ecosystems and their productivity.
    In the last few years, the importance of marine biological 
resources that exist beyond the limits of national jurisdiction--the 
high seas--as well as on the threats to these important resources have 
increasingly been highlighted. There is a need to capitalize on this 
growing awareness and find ways to reduce the multiple threats to 
marine biodiversity in these areas in ways that are consistent with 
international law. Broadest possible participation in the United 
Nations Convention on the Law of the Sea would ease this process.
Working together
    There are many other important steps needed to boost biodiversity 
conservation at the international level. There is a need to make all 
data on biodiversity and ecosystems easily accessible to all who need 
it, including industry. This means solving data proprietary issues. All 
relevant institutions need to be encouraged to share their data, even 
though they may have invested significant resources in compiling the 
information. A sustainable, self-financing, business model for open 
access needs to be developed and implemented. Financial support must be 
provided to developing countries, which arguably have the greatest need 
for access to biodiversity data.
    The world is looking to the U.S. with great expectations in 
relation to the environment. Of course, one nation alone cannot change 
the world but it can have an enormous influence. Much is possible, but 
only by mustering the political will at all levels to face and confront 
environmental challenges. The environmental community is heartened by 
the positive steps taken in the early days of the new U.S. 
Administration, particularly towards putting science at the foundation 
of policy development and natural resource management. IUCN, like other 
science-based conservation organizations, stands ready to help the U.S. 
and other nations achieve the ambitious but achievable goal of global 
sustainability.
IUCN--International Union for Conservation of Nature
1,000 organizations and 10,000 experts solving our planet's greatest 
        challenges
    In addition to the U.S. State Department, IUCN has six U.S. 
government agency members including the Environmental Protection 
Agency, the Fish and Wildlife Service and the National Oceanic and 
Atmospheric Administration. Working on behalf of more than 1,000 member 
organizations, both government and non governmental, IUCN is a unique 
environmental democracy operating at all levels from the villages of 
Central Africa to the United Nations' General Assembly. By mobilizing 
knowledge and expertise from all regions of the world, IUCN's powerful 
machinery is best able to convert policy into practice, allowing key 
decisions at higher levels to be informed by field information and 
expertise, and in turn, applying policy lessons at the ground level.
                                 ______
                                 
    Ms. Bordallo. Thank you, Dr. Jackson. And I am very 
encouraged by your testimony, and congratulate your 
organization for developing important products that deliver 
critical data to decision makers on the ground.
    And now I would like to recognize Mr. Nutter. It is a 
pleasure to welcome you this morning, and you can proceed.

    STATEMENT OF FRANKLIN W. NUTTER, PRESIDENT, REINSURANCE 
                     ASSOCIATION OF AMERICA

    Mr. Nutter. Thank you very much, Madame Chair. It is a 
pleasure to be here before the committee today and offer our 
perspective on managing risk by promoting the conservation of 
our natural resources, and through risk mitigation efforts 
along our densely populated coastlines.
    In simple terms, reinsurance is the insurance of insurance 
companies. One of its primary functions is to provide transfer 
for insurers for major natural catastrophe risk.
    For example, in 2005, with Hurricanes Katrina, Rita, and 
Wilma, nearly 61 percent of all the insured losses paid by the 
insurance industry were transferred to the reinsurance market.
    The insurance industry's financial interest is 
interdependent with climate and weather. It is the risk of 
natural events that drives the demand for insurance coverages; 
yet, if not properly managed, can threaten the financial health 
of an insurer if it is over-exposed in high-risk areas.
    As has been mentioned by several witnesses, the insured 
property along our coastlines has risen dramatically. One study 
estimated that it has nearly doubled every decade. And at the 
end of 2007, our estimates are that the privately insured 
property values along the Gulf and Atlantic coasts totaled 
nearly $9 trillion. And of course, economic losses associated 
with natural catastrophes has risen dramatically.
    With 30 percent of the U.S. population living in coastal 
counties that are exposed to extreme events, global climate 
change will only increase this exposure and potential losses.
    Congress should help people living in hurricane-prone 
coastal areas to take proactive mitigation steps to protect 
their property, rather than encourage further development in 
these high-risk environmentally sensitive locales, by creating 
taxpayer-funded programs to subsidize insurance.
    Our organization has partnered with other diverse interest 
groups to create the Americans for Smart Natural Catastrophe 
Policy to promote environmentally responsible, fiscally sound 
approaches to natural catastrophe policy, in the interest of 
public safety. I have listed a number of our partners in this, 
including the National Wildlife Federation, American Rivers, 
Defenders of Wildlife, Friends of the Earth, Republicans for 
Environmental Protection, the Sierra Club, and, most recently, 
the Nature Conservancy as part of that coalition.
    And it stands for the following principles: that we should 
build smart, according to the most modern building standards 
and codes reflecting exposure to natural catastrophe disasters 
and cost-effective loss-reduction measures; promote risk 
avoidance and proactive mitigation measures; protect both the 
public and ecosystems that provide natural buffers to storms, 
renewed efforts should be made to preserve coastal areas 
consistent with effective state and Federal laws; and also to 
provide, to ensure, based upon risk, private and public 
property, insurance should be established based upon risk 
exposure.
    While our coalition members have different priorities, we 
all agree that certain actions being considered by Congress may 
have a detrimental impact on oceans, coastal systems, and 
wildlife. Our coalition opposed proposals to expand the 
National Flood Insurance Program to include wind-power 
coverage, largely because it would overwhelm a program that is 
already $18 billion in debt, and encourage further development 
in unsafe or environmentally sensitive areas.
    There are many steps that we can take to mitigate losses 
and protect our oceans, coastal and wildlife resources. Among 
them include incorporating climate change and risk assessment 
and risk mitigation that is translated to local levels, 
particularly for the mapping of flood, shoreline, and 
inundation areas.
    We should require risk-based land-use planning and the 
integration of natural hazards into land-use planning. We 
should design infrastructure to consider natural hazards and 
climate change.
    Our organization is also part of a building code coalition 
whose goal is to enact legislation to amend the Stafford Act, 
by encouraging states to adopt nationally recognized model 
building codes for residential and commercial structures.
    During this year's consideration of the economic stimulus 
package, our coalition supported an increase in funding to 
FEMA's pre-disaster-mitigation program to provide funds to 
states for community-based hazard-mitigation activities. We 
also advocated for efforts to ensure that infrastructure 
projects funded through Federal appropriations consider and 
incorporate measures to reduce the risk of potential impacts of 
natural disasters.
    Our coalition supports the Coastal Barrier Resources 
System, which prevents structures proposed for construction in 
undeveloped environmentally pristine areas from purchasing 
Federal flood insurance. The Coastal Zone Management Act could 
provide a tool, essentially a climate adaptation tool, to 
ensure states are planning for potential risks posed by the 
impacts of climate change.
    If blended with state mitigation plans already required by 
the Stafford Act and approved by FEMA, the combination provides 
states with the planning tools they need to develop and 
implement a climate adaptation policy.
    Last, I would like to commend the committee for recognizing 
the importance of risk mitigation to conservation of our ocean, 
coastal ecosystems, and wildlife resources in an increasingly 
dynamic and unpredictable environment. Clearly, all 
stakeholders must work together to make sure that we have 
environmentally sound and fiscally responsible policy that will 
ultimately reduce costs borne by the Federal and state 
governments, insurers, and American taxpayers.
    Thank you.
    [The prepared statement of Mr. Nutter follows:]

              Statement of Franklin W. Nutter, President, 
                   Reinsurance Association of America

    My name is Frank Nutter and I am President of the Reinsurance 
Association of America (RAA). The RAA is a national trade association 
of property and casualty reinsurers doing business in the U.S. Its 
membership is diverse, and includes reinsurance underwriters and 
intermediaries licensed in the U.S. and those that conduct business on 
a cross-border basis. It is a pleasure to appear before you today at 
this hearing on ``Managing Ocean and Wildlife Resources in a Dynamic 
Environment.'' In particular, I will address the reinsurance 
perspective on managing risk by promoting the conservation of our 
natural resources and through risk mitigation efforts along our densely 
populated coastlines.
U.S. Reinsurance Market's Interest in Oceans and Wildlife Resources
    First, let me provide a brief background on reinsurance. In simple 
terms, reinsurance is insurance for insurance companies. Reinsurance is 
critical to the insurance marketplace because it reduces the volatility 
experienced by insurers and improves insurers' financial performance 
and security. It is widely recognized that reinsurance performs at 
least four primary functions in the marketplace: to limit liability on 
specific risks; to stabilize loss experience; to provide transfer for 
insurers of major natural and man-made catastrophe risk; and to 
increase insurance capacity. I cannot emphasize enough the important 
role that reinsurance plays in the insurance marketplace. Reinsurers 
have assisted in the recovery from every major U.S. catastrophe over 
the past century. By way of example, 60% of the losses related to the 
events of September 11 were absorbed by the global reinsurance industry 
and 61% of Hurricanes Katrina, Rita and Wilma in 2005 were ultimately 
borne by reinsurers.
    Reinsurers have a keen interest in managing risk as a means to 
reduce economic loss. The insurance industry's financial interest is 
inter-dependent with climate and weather. It is the risk of natural 
events that drives the demand for insurance coverage, yet if not 
properly managed, can threaten the financial health of an insurer if it 
is over-exposed in high risk areas. An insurance company's financial 
viability rests on its ability to estimate the economic consequences of 
future events.
Increasing Exposure to our Nation's Coastlines and Wildlife Resources
    According to AIR Worldwide, a catastrophe modeling firm, insured 
property values along the Gulf and Atlantic coasts have doubled every 
decade. At year-end 2007, Gulf and Atlantic coast insured property 
values equaled $9 trillion. Globally, the economic losses due to 
extreme weather have also risen dramatically over time: 1950-59--$53B; 
1906-69--$93B; 1970-79--$162B; 1980-89--$263B; 1990-99--$778B; 2000-
2008--$620B. <SUP>1</SUP> Interestingly, between 1970 and 2004, storms 
and floods accounted for 90% of those losses. In 2005, Hurricanes 
Katrina, Rita, and Wilma resulted in $87B in insured losses and an 
additional $20B of losses due to flood that were ultimately covered by 
the National Flood Insurance Program. Since 2001, nine out of the top 
20 costliest natural disasters have occurred in the U.S.
---------------------------------------------------------------------------
    \1\ Data from Munich Reinsurance Company
---------------------------------------------------------------------------
    There are two principal socio-economic factors driving these 
increased losses--the degree of urbanization and value at risk (i.e., 
higher property values in higher risk areas). <SUP>2</SUP> With 30% of 
the U.S. population living in coastal counties that are exposed to 
extreme events--such as hurricanes and storm surge--global climate 
change will only increase this exposure and potential losses because of 
its affects on the intensity and frequency of extreme atmospheric 
events and storm surge. According to Dr. Dennis Miletti, author of 
``Disasters by Design,'' ``we are putting more property of greater 
value in harms way.''
---------------------------------------------------------------------------
    \2\ 2 The Wharton School
---------------------------------------------------------------------------
Mitigation Works to Save our Coastlines and Wildlife
    Congress should help people living in hurricane-prone coastal areas 
take proactive mitigation steps to protect their property, rather than 
encourage further development in these high-risk, environmentally-
sensitive locales by creating taxpayer-funded programs to subsidize 
homeowners' insurance. The RAA has partnered with other diverse 
interest groups to create the Americans for Smart Natural Catastrophe 
Policy Coalition to promote environmentally-responsible, fiscally-sound 
approaches to natural catastrophe policy in the interest of public 
safety. Our environmental allies and coalition partners are 
particularly interested in protecting our oceans, coastal ecosystems, 
and wildlife. They include American Rivers, Defenders of Wildlife, 
Environmental Defense Fund, Friends of the Earth, National Wildlife 
Federation, Republicans for Environmental Protection, Association of 
Bermuda Insurers and Reinsurers, American Consumer Institute, Americans 
for Prosperity, Competitive Enterprise Institute, Council for Citizens 
Against Government Waste, and the National Association of Professional 
Insurance Agents. The Coalition's guiding principles are as follows:
    Principles for Natural Disaster Mitigation and Assistance
    <bullet>  Build Smart: Properties in coastal areas and other high-
hazard areas should be built, replaced or repaired according to the 
most modern building standards and codes reflecting exposure to natural 
disasters and effective loss-reduction measures. Based on the 
continuing scientific assessment of the effects and consequences of a 
changing climate, property and infrastructure development in coastal 
and other high-hazard areas have placed people in harm's way and 
property at significant risk of loss from natural catastrophic events.
    <bullet>  Encourage Safety: Government incentives should promote 
risk-avoidance and proactive mitigation measures to protect the public 
from a broad range of natural disasters, including wind, flood, 
wildfires and earthquakes.
    <bullet>  Use Nature: To protect both the public and ecosystems 
that provide natural ``buffers'' to storms, renewed efforts should be 
made to preserve coastal areas consistent with effective state and 
federal laws, using uniform, objective standards.
    <bullet>  Insure Based On Risk: Private and public property 
insurance premiums should be established on the basis of risk exposure, 
including catastrophic risk, subject to state law that risk premiums 
should be neither excessive nor inadequate.
    <bullet>  Assume Responsibility: Responsibility for state insurance 
and reinsurance programs that pool natural disaster risks should remain 
with those states which have established such programs, rather than 
shifting the financing to the federal government through such means as 
federal loans or reinsurance.
    <bullet>  Target Government Assistance: Programs should focus on 
people and not on insurance companies:
      <all>  Extend tax credits, loans and grants for measures designed 
to protect the property from natural disasters--rather than for 
programs designed to support artificially low insurance rates.
      <all>  Provide means-based assistance, focused on low and fixed 
income residents--rather than wealthy individuals with expensive beach 
front or vacation homes.
      <all>  Discourage development in coastal areas and other high-
risk areas--federal assistance should not subsidize new property 
development in coastal areas vulnerable to catastrophic storms, or 
other high-risk areas.
    While Coalition members have differing priorities, we all agree 
that certain actions being considered by Congress will have a 
detrimental impact on oceans, coastal ecosystems, and wildlife. During 
the last Congress, proposals to expand the National Flood Insurance 
Program (NFIP) to include wind damage were considered in both the House 
and Senate. We believe adding wind as a covered peril would:
    1.  Overwhelm the NFIP. The program already has an $18 billion 
deficit and is struggling to resolve flood claims, manage fraud arising 
from Hurricane Katrina payouts, and prevent insolvency. Adding wind 
insurance will distract from the program's mission and substantially 
undermine efforts to stabilize the program.
    2.  Encourage further development in unsafe or environmentally 
sensitive areas. Supporting wind insurance that encourages unwise 
construction in high risk areas sends the wrong message to communities 
regarding the environmental impact and danger of living in hazard-prone 
coastal areas and floodplains--areas that may be increasingly 
vulnerable given the potential impacts of climate change.
    3.  Cost taxpayers billions. Experience with the NFIP shows, and 
the American Academy of Actuaries confirms, that adding federally-
backed wind insurance will not be actuarially sound despite language 
the contrary. Taxpayers nationwide will be left to pay the cost of wind 
damage, which would more than triple the government's exposure under 
NFIP.
    4.  Discourage the provision of wind insurance by the private 
market.
    Similar problems apply to the creation of new federal natural 
catastrophe programs that would require the federal government to 
provide loans intended to bail out state natural disaster catastrophe 
funds or require the federal government to provide government 
reinsurance for a state's property and casualty insurance program.
Positive Steps to Protect Our Coastlines and Wildlife
    There are many steps we can take to mitigate losses and protect our 
ocean, coastal and wildlife resources. Among them:
    1.  Incorporating climate change in risk assessments and risk 
mitigation. The scientific community should be encouraged to translate 
the localized impacts of climate change for planning purposes--flood, 
shoreline and inundation maps should reflect local climate change 
impact assessment, including scenario assessments.
    2.  Requiring risk-based land use planning. This would include the 
integration of natural hazards into land use planning with goal of 
protecting development and wildlife from extreme weather and erosion.
    3.  Designing infrastructure to consider natural hazards and 
climate change.
    4.  Strengthening ecosystems as part of risk mitigation strategies. 
Coastal wetlands, barrier islands and natural coastal vegetation serve 
as buffers from ocean-driven extreme events. Make them part of an 
adaptation strategy.
    5.  Insisting that insurance for properties in coastal zones be 
risk-based as a means to set more appropriate risk-based costs for 
building in environmentally sensitive or high risk areas, such as along 
our nation's coastlines.
Additional Considerations
    The RAA is also part of the Building Code Coalition whose goal is 
to enact legislation to amend the Stafford Act. This legislation would 
enhance existing mitigation programs by encouraging states to adopt 
nationally-recognized model building codes for residential and 
commercial structures. With billions of dollars paid by the federal 
government and the private sector for disaster relief and rebuilding of 
communities, legislation that would enhance FEMA's ability to ``prepare 
for, prevent, respond to and recover from disasters'' is critically 
important.
    There are several other statutes that are not traditional areas of 
expertise of the insurance industry where there may be opportunities to 
adopt legislative changes and move them closer to implementation. For 
example, during this year's consideration of the economic stimulus 
package, many members of our Coalition supported an increase in funding 
to FEMA's Pre-Disaster Mitigation (PDM) program. This program provides 
funds to states for community-based hazard mitigation activities 
identified in a State Mitigation Plan such as increasing building 
elevations, flood-proofing, improving the survivability of existing and 
new buildings, and relocating willing sellers from natural disaster 
prone areas. In addition, we advocated for an effort to ensure that 
infrastructure projects funded through federal appropriations consider, 
and incorporate measures to reduce, the risks of the potential impacts 
of natural disasters, such as windstorms and floods, particularly in 
light of the anticipated effects of global climate change. Our 
Coalition also supported a tax credit proposal that would have provided 
homeowners with a credit of up to $1500 for actions taken to make their 
homes more structurally sound to protect them against risks posed by 
natural disasters.
    Hazard mitigation programs are well-established as a cost-effective 
means to reduce the impact of natural disasters. For example, in 2007, 
the Congressional Budget Office found that projects funded through the 
Pre-Disaster Mitigation program between 2004 and June 2007 resulted in 
a reduction of future disaster spending of approximately three dollars 
for every dollar spent on these projects. Similarly, in 2005, a 
Congressionally-mandated study by the Multihazard Mitigation Council 
(an advisory body of the National Institute of Building Sciences) 
concluded that cost-effective mitigation saves an average of four 
dollars for every dollar spent.
    Land-use planning, largely the purview of local governments, is 
also key to reducing development in environmentally-sensitive, high-
risk coastal areas. Our Coalition supports the Coastal Barrier 
Resources System which prevents structures proposed for construction in 
undeveloped, environmentally-pristine areas from purchasing federal 
flood insurance. The Coastal Zone Management Act could provide a tool--
essentially a climate adaptation tool--to ensure states are planning 
for the potential risks posed by the impacts of climate change. If 
blended with the State Hazard Mitigation Plans already required by the 
Stafford Act and approved by FEMA, the combination provides states with 
the planning tools they need to develop and implement a climate 
adaptation plan.
Conclusion
    I would like to commend the Committee for recognizing the 
importance of risk management to the conservation of our ocean, coastal 
ecosystems, and wildlife resources in an increasingly dynamic and 
unpredictable environment. Clearly all stakeholders must work together 
to ensure environmentally-sound and fiscally responsible policy that 
will ultimately reduce the costs borne by federal and state 
governments, insurers/reinsurers, and the American taxpayers, as well 
as save lives, protect habitats, and ensure our coastal areas thrive 
for generations to come.
    Thank you.
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Mr. Nutter. I will now 
recognize Dr. Rothschild to testify. Please begin.

   STATEMENT OF BRIAN ROTHSCHILD, Ph.D., MONTGOMERY CHARTER 
  PROFESSOR OF MARINE SCIENCE, SCHOOL FOR MARINE SCIENCE AND 
            TECHNOLOGY, UNIVERSITY OF MASSACHUSETTS

    Mr. Rothschild. Thank you, Madame Chairman, committee. I 
have been asked to address information products, services, and 
tools to address conservation, and to protect and conserve the 
ocean.
    In the early 1900s, conservation was a concept. At the time 
many people thought our natural resources were unlimited. This 
suppressed actions that would have prevented irreversible 
effects of human activity that we see today.
    Clearly, the global human population explosion, consequent 
saturation of the atmosphere and ocean with pollutants, and 
mismanagement of resources, places conservation beyond a mere 
concept. Conservation is now an imperative.
    The conservation imperative requires action. This is easy 
to say, but difficult to implement.
    The difficulty arises from the fact that we do not have the 
budget resources to address the total array of conservation 
problems. As a result, we have to focus on the problems that 
are most critical. We have to ask the right questions. It is 
not so easy to conduct the concrete analysis required to 
identify the most critical questions.
    We have to produce the concrete quantitative analysis 
necessary to ensure that we are making the best program 
investments.
    Let us take an example from fisheries. The Magnuson-Stevens 
Act has a number of goals. One is to eliminate overfishing; two 
is to fully utilize optimal yield; and three is to take account 
of economic and social fabric of fishing communities.
    To take these goals seriously and efficiently balance them, 
we need to fill in serious and material shortfalls in our 
information base. For example, standard fishing conservation 
management practices only account for being able to manage one 
species at a time. We don't have the techniques to manage the 
interaction between two species, let alone a whole ecosystem.
    The techniques do not account for changes in physical 
environment. Something as simple as water temperature is not 
accommodated in fishery management.
    Fishery management techniques do not presently account for 
ecosystems, and, as a consequence, can't really deal with 
issues of climate change. The fishery management techniques 
that are used don't take into account economics even, and 
sociology, even though these are well-known components of 
fishing.
    And finally, there is not an end-to-end systems engineering 
approach to ensuring coordinated and coherent cost-effective 
management of the entire process.
    In my view, we need a three-year effort to retool fishery 
management. The effort would be initiated with the creation of 
three centers that focus on our greatest shortfalls in science, 
engineering, and technology.
    The first center would be a national center for ocean 
ecosystem research, which would focus, organize, and program an 
in-depth understanding of ocean ecosystems, particularly as 
they relate to fisheries and the waste-sink capacity of the 
ocean in an environment that is changing because of the 
climate.
    The second national center for fishery management systems 
would develop a systems engineering approach to fishery 
management, including the end-to-end balancing of data 
acquisition, control rules for management, and dissemination of 
information to managers, legislators, and the fishermen.
    And finally, a national center for fishing engineering 
would focus on the green issues of improving the efficiency of 
fishing gear, separating good fish from bad fish, big fish from 
little fish, reducing by-catch, and improving fuel utilization, 
and less influence of bottom-tending gear on the bottom 
organisms.
    I see the creation of these centers by using existing 
resources and personnel. The answers to the questions that are 
posed essentially relate to creating a capability. That is what 
these three centers are intended to do, is to create a 
capability which does not presently exist to address the most 
critical conservation issues, using our fishery resources as a 
model.
    Thank you very much.
    [The prepared statement of Mr. Rothschild follows:]

    Statement of Brian J. Rothschild, Montgomery Charter Professor 
        of Marine Science, University of Massachusetts Dartmouth

    The Subcommittee recognizing ``that the conservation of our ocean 
and wildlife resources will be `...impacted by a host of challenges, 
including climate change, energy development, the economic downturn, 
and federal budget deficits','' has asked my views ``regarding: 1) the 
information, product, and service needs necessary to address 
conservation in a dynamic era; and 2) new tools, which Congress may 
consider...to protect and conserve...ecologically healthy oceans.''
    In the global and national context, the substantial environmental 
challenges that we face are intertwined with the ever-increasing human 
population and consequent food and water shortages; growing limitations 
in waste-management options; and declining societal welfare. The 
concentration of population into cities located on coasts or large 
waterways continues unabated. The differences in priorities between the 
rich and the poor are significant challenges to any comprehensive 
approach to coastal and ocean conservation.
    In addressing these issues, we have sometimes arrived at simplistic 
definitions and approaches that are potentially ineffective in solving 
the problem. These simplistic approaches are evident in terms of both 
what we know and what we do not know and in terms of the conceptual 
underpinnings for policy.
    For example, while everyone knows that climate change is affecting 
the ocean, many think that the effect is limited to sea-level rise and 
increased ocean temperatures. However, the increased heat has 
significant influence on ocean stability and hence on nutrient cycling 
and ocean productivity, affecting at the fundamental productivity and 
organization of the ocean ecosystem.
    With regard to conceptual underpinnings, when we think of the 
challenges facing our ocean resources, we naturally think of 
``conservation.'' In the early 1900s, society became aware of the need 
to conserve our natural resources. At that time, ``conservation'' was 
an important concept. While, at that time, some had the prescience to 
understand its importance, others perceived resources to be virtually 
limitless and suppressed actions that would have prevented the 
irreversible effects of human activity that we observe today.
    But, conservation is no longer a concept, it is an imperative. 
Taking into account the involvement of a burgeoning global population, 
a growing scarcity of many resources, and the complex character of 
global environmental change requires establishing the conservation 
imperative. An imperative requires action! And it is obvious that plans 
for action need to be constructed in the context of shrinking budgets 
and the need to preserve and even create employment.
    How do we address the conservation imperative in time of scarce 
possibly shrinking budget resources?
    In a time of shrinking budgets, we have to ask the right questions 
to ensure that we focus our resources on the most important problems. 
As an approach, we might start by listing all of the perceived 
conservation issues that concern us. We would find some issues would be 
relatively easy to identify. Other issues would be extremely 
complicated. Some of the complicated issues would be oversimplified to 
the extent that their supposed solutions would not result in the 
intended effect and, in fact, some of the unintended consequences might 
be negative.
    In addition, we would almost certainly find that the magnitude of 
the total perceived required effort would far exceed resources needed 
to address the issues. (Let us not forget that some environmental 
issues are global in scope.)
    The actions implied by the conservation imperative require us to 
select the most important conservation programs given a fixed budget. 
What are the smart choices? Are some remedies simplistic? Can we make 
everything pristine? How do we factor in sustainability and balance the 
political realities of resource use?
    At the end of the day, we need a concrete quantitative analysis to 
assure us that we are asking the right questions. Without such 
analysis, how can we be sure that the budget and personnel are 
appropriately allocated? As important, are we organized to maximize our 
capability to address the right questions in a cost effective way?
    Let's examine the specific case of the conservation and management 
of fish stocks. The conservation of fish stocks is governed by the 
Magnuson-Stevens Act. This legislation requires that management strike 
a balance among competing goals: 1) eliminating overfishing, 2) fully 
utilizing optimum yield, 3) taking into account the economic and social 
fabric of fishing communities, and 4) utilizing the best available 
science in the process.
    In the context of the conservation imperative in this particular 
application, we do not have the tools to address the balance among 
controlling fishing, obtaining the optimum or maximum yield, and 
balancing the needs of society.
    The core science equations used in fishery management are not 
realistic. The ocean environment drives variations in fish stock 
abundance, yet it is not included in the core science equations. Many 
fisheries catch many species at the same time, yet the core equations 
are only capable of dealing with a single species at a time (not two 
species and certainly not entire ecosystems). The population dynamics 
of fish populations are dependent upon the ecosystem within which they 
live, yet ecosystems are poorly understood. In particular, the 
component of the ecosystem that drives fish recruitment--the dynamics 
of the plankton and their interaction with physical forcing--is in 
particular even less understood. Despite the fact that there is 
considerable information on fishery economics, that information and 
associated body of theory is almost never used in fishery management.
    Existing data on fisheries is dependent to a significant degree on 
results from research survey vessels. Because these vessels are very 
expensive to operate, it is difficult to assemble frequent relatively 
real time data. The reliance on survey vessels meets some needs but 
suppresses obtaining data from fishing vessels. Data from fishing 
vessels satisfies the need to know how effective each fishing vessel 
is, a critical need in management, and provides basic data.
    The nature of the core science equations, the data necessary to 
fuel the core equations, and the flow of information comprise a system. 
This system has neither been specified nor analyzed in the context of a 
systems engineering problem. Experience shows that managing without 
using a systems context is very expensive. Adopting a systems approach 
would improve the quality of management without increasing costs.
    At stake is the fact that the legal requirement of the MSA, to 
balance the competing goals of suppressing overfishing, attaining 
optimum yield, and taking into account the economic and social needs of 
fishing communities are poorly addressed.
    So, how do we develop the capability to address the conservation 
imperative in fisheries? We need to develop a critical-mass effort in 
three essential areas. To do this we need to develop a sending-a-man-
to-the-moon approach. We need to focus many existing efforts in three 
national research centers.
    There needs to be a National Center for Ocean Ecosystems Research 
(NCOER). Virtually every fundamental problem that relates to our 
resources--fisheries and the waste-sink capacity of the ocean--can be 
found in the structure and functioning of the ocean ecosystem. The 
NCOER would focus on critical problems in our understanding of 
ecosystems, particularly the role of the plankton as it affects fish 
population dynamics. It is important to recognize that understanding 
ecosystems is also critically important to understanding the very 
important role plankton play in driving the ocean and atmospheric 
component of global change. A particular issue of concern is the 
interaction among species of fish, recruitment dynamics, and scenarios 
that result from a changing climate--the linkages we need to forecast 
our nation's fisheries resources, and other species of concern. This 
would address critical components of the identification of conservation 
imperatives.
    There needs to be a National Center for Fishery Management Systems 
(NCFMS) applying a systems engineering approach to the technical 
requirements of fishery management. This center needs to focus on the 
requirements for fishery management and the alternative approaches to 
meet these requirements. NCFMS would develop the procedures for 
development of end-to-end fishery management systems facilitating 
sampling theoretic data collection; efficient and focused use of simple 
fishery control rules; and rapid information reports to managers and 
various user groups. The focus would be on developing simpler, more 
cost-effective techniques that effectively sample the catch and provide 
advice on optimum yield--a critical aspect of the conservation 
imperative.
    There needs to be a National Center for Fisheries Engineering 
(NCFE). NCFE would focus on the improvement of fishing gear and fishing 
strategies to reduce by-catch and fuel consumption. New net systems and 
ways of sensing fish from fishing boats would be a priority with the 
thought-in-mind that these would do a better job in saving fuel and 
separating wanted fish from unwanted fish--both conservation 
imperatives. Much of the work in this Center would be undertaken in 
collaborative programs with the fishing industry--a possible target for 
stimulus funding.
    To respond to the second question posed by the subcommittee 
concerning new conservation tools, I think that the most productive 
effort is to take an end-to-end systems approach to fisheries 
management. This has essentially not been done, and because of this, we 
are not sure whether we are asking the right questions or being cost-
effective in our approach to management.
    A priority focus establishing the three Centers would involve a 
refocusing and retargeting of existing personnel and budget resources. 
In the short term, we could continue to manage fish under the existing 
system. I envision after a three-year carefully phased effort, the 
three Centers would arrive at an innovative approach to fishery 
management, effectively providing new and more cost-effective 
conservation tools. This approach would not only enable a much clearer 
public perception of our nation's fishery resource management process, 
but also achieve solid definable results in balancing overfishing, 
optimum yield, and the economic needs of communities.
                                 ______
                                 
    Ms. Bordallo. Thank you, Dr. Rothschild. And I will now 
recognize Members for any questions that they may wish to ask. 
And this will alternate between the Majority and the Minority 
Members.
    I will begin with a few questions for Dr. Pomponi.
    Your testimony outlined several areas of research that need 
further study to make adaptive management more effective, and 
enhance our ability to predict impacts of climate change.
    Can you prioritize these research needs?
    Ms. Pomponi. Probably the greatest need--well, in fact the 
greatest need would be to get a better understanding of kind of 
the baseline data.
    But I think the greatest, to enable us to do that, I think 
we are going to have to develop the infrastructure, put the 
infrastructure in place. We have already got part of that in 
place, in terms of our observing systems; but I think being 
able to establish a regional approach that is integrated across 
many regions, to be able to provide the data so that we can 
effectively communicate among regions and convert those data 
into information that can be used by resource managers, I think 
is going to be probably the greatest priority.
    Ms. Bordallo. So, improving the infrastructure on the 
current infrastructure?
    Ms. Pomponi. Yes.
    Ms. Bordallo. All right. Now, how will these critical 
research programs facilitate better decision making with regard 
to the threats of sea-level rise and ocean acidification?
    Ms. Pomponi. I think if we are going to adapt, we need to 
know what we are adapting to. And as I mentioned, that requires 
data and models and predictions.
    If what we expect is going to happen in terms of sea-level 
rise occurs, there will be habitat loss; there will be shifting 
ecosystems. That is going to affect not only our natural 
resources; it is going to affect our infrastructure, our 
coastal infrastructure, public health, national security.
    We need to reduce those uncertainties in our predictions in 
terms of sea-level rise. We need to reduce the uncertainties 
into what marine life is going to survive in a warmer and more 
acidic ocean environment.
    So, that is the type of information that we need to provide 
to better formulate our predictive models, and be able to 
provide more information, so that we can manage to these, 
adaptively manage to these changes in the environment.
    Ms. Bordallo. And Doctor, what new technologies are on the 
horizon that will enable better ocean management?
    Ms. Pomponi. I think there are some exciting new biological 
and genomic sensors that are going to help us, tags that we can 
put on, on larger animals. More sophisticated molecular tools 
that help us to understand what is actually living in the ocean 
environment. From an engineering standpoint, gliders that 
enable us to assess the environment on a more comprehensive 
scale, on a broader scale.
    I think that it is important for us to maintain the 
continuity of our remote sensing data. So, satellite 
observations from space are going to be extremely important to 
continue that, to make a commitment to continue that.
    And I think probably even most important out of this is 
that we need to make sure we can get the agencies to coordinate 
acquisition of data, the management of data, and the 
dissemination of those data to our end users. I think more than 
anything else, I mean, we have information, we have data. We 
need to be able to coordinate that.
    Ms. Bordallo. We have to share it.
    Ms. Pomponi. Yes, and share it. Get it back in a usable 
format to the users.
    Ms. Bordallo. What are your immediate and long-term 
infrastructure needs, and how can we reduce the costs?
    Ms. Pomponi. Probably the more immediate ones are getting 
the ocean-observing system in place, and making sure that we 
have an integrated system across the United States. It is going 
to be costly, it really is.
    And so the key here is going to be, I think, to engage 
private partnerships, to get private partnerships involved; and 
to make sure that we are making best advantage, making optimal 
use of the existing facilities, so that we truly are 
integrating them.
    But I would be remiss if I didn't say that I think we need 
to make a commitment to our academic research fleet. That is, 
we really do need to improve our research vessels that are 
going to be able to go out and service ocean observatories, 
take other additional measurements, and be able to integrate 
what we are finding, what we are learning from our satellite 
observations with what we are learning in situ in the ocean.
    Ms. Bordallo. Thank you very much, Doctor. And now I would 
like to recognize our Ranking Member here, Mr. Wittman from the 
State of Virginia.
    Mr. Wittman. Thank you, Madame Chairwoman.
    Dr. Jackson and Dr. Pomponi, I just wanted to point out I 
appreciate your advocacy of the ecosystem approach in marine 
management. I think that sort of holistic approach is 
extraordinarily valuable.
    It has been, though, it seems somewhat difficult to the 
U.S., because of things like the Endangered Species Act and 
Marine Mammal Protection Act, that elevate protection of 
certain species at higher levels than others.
    And with that in mind, can you comment about how you see 
the U.S. approach to an ecosystem paradigm or framework in 
managing our marine resources? How can we do that, based on 
these existing Acts that sort of create a tiered approach to 
this ecosystems management?
    Ms. Pomponi. If I may go first? I think the key to that is 
going to be to get the agencies that are responsible for these, 
these regulatory policies to work together. I mean, we are 
dealing with a situation right now where we are trying to come 
up with a plan for environmental management prior to putting in 
some offshore renewable energy prototypes.
    And it really does involve working with a variety of 
agencies to make sure that we are taking care of, you know, we 
are addressing each of these regulatory policies. I think that 
is probably, it might be a Pollyanna approach, but it is the 
simplest approach. And it is one actually that is working right 
now, I think.
    Mr. Jackson. Yes, I think I will just add very simply to 
that. I think that the ecosystem approach could provide you a 
tool to focus the efforts of multiple government agencies and 
non-governmental organizations on a single, a single objective, 
if you like, for a sub-region.
    It also enables trade-offs to be made. And we have heard 
that this morning in the Subcommittee. First to identify what 
those trade-offs could be, and for decision makers and 
yourselves to understand what is the consequence of those 
trade-offs, including with predicted species, and make better 
informed decisions.
    So, this may not necessarily require a substantially 
increased investment; it is just refocusing where the 
investment goes.
    Mr. Wittman. Thank you. Mr. Nutter, you say that programs 
should focus on people, and not insurance companies; and that 
measures should be designed to protect the property, not 
support artificially low insurance rates.
    Can you tell me, does this type of program exist today? And 
if so, where? And can you tell us where it has been successful, 
and maybe give us some examples of its application?
    Mr. Nutter. Certainly. Let me start with where it exists 
today, and that is inappropriate, it would seem to us. The 
National Flood Insurance Program, which is a FEMA-run program, 
has somewhere between 25 percent and 30 percent of its insured 
policies are subsidized. In other words, they are not based 
upon true actuarial risk. It is an example of really 
encouraging and facilitating development in coastal areas.
    Insurance is regulated at the state level, so I think the 
answer to your question is that some states have done a good 
job in finding that balance between consumer protection of 
insurance rates, and finding a risk-based rate.
    The state that has the most difficult time with this is 
really Florida, largely because it is so exposed to extreme 
natural events. It is very heavily populated, mostly, say that 
80 percent of the people who live in Florida are exposed to 
hurricanes. And they have struggled with finding the balance 
between actuarially sound insurance rates that send a clear 
message about what the risk is, and making certain that 
insurance is available to people.
    Mr. Wittman. Mr. Rothschild, one last question. In your 
testimony you refer to simplistic definitions and approaches 
that have been potentially ineffective in solving the problems 
that we face in our marine environments.
    Can you give some examples of what definitions and 
approaches you mean? And maybe some effective ways with which 
to deal with these concepts.
    Mr. Rothschild. Well, one simplistic approach is the 
concept that we can rebuild fishery stocks in a 10-year time 
period. And empirical observations show that sometimes fishery 
stocks take many more years than that 10 years, or a shorter 
period of time.
    And the approach to dealing with this really relates to 
having a better understanding of the dynamics of ecosystems. 
And I propose that we have a national center to study those 
components of ecosystems.
    It is very difficult to have an ecosystem approach to 
management in fisheries when the most sensitive aspect of fish 
population dynamics is recruitment. And that is a problem--in 
other words, the number of young fish that are born each year. 
And that is a problem that is unsolved.
    Mr. Wittman. Dr. Rothschild, thank you. I think that is 
very insightful. I think sometimes there is a tendency to 
oversimplify issues that we all know are extraordinarily 
complex, and all inter-related as to the ecosystem and other 
aspects of what we deal with.
    So, I think that holistic approach in trying to go away 
from some of the more simplistic ways to say well, it is as 
simple as A produces B, is where we need to go. And I 
appreciate your insights there.
    Thank you, Madame Chairman.
    Ms. Bordallo. I thank the Ranking Member, Mr. Wittman. And 
now I would like to recognize the gentleman from Michigan, Mr. 
Kildee.
    Mr. Kildee. Thank you, Madame Chair.
    Dr. Jackson, how does IUCN envision the Federal government 
fully implementing and enforcing existing laws, such as the 
National Environmental Policy Act, the National Forest 
Management Act, and the Endangered Species Act?
    Mr. Jackson. Yes, thank you. I will just say that I am not 
expert on the U.S.; my expertise is in international work.
    But I think coming from that perspective, there are many 
eyes on the U.S., particularly on the excellent legislation 
that has been put in place over many years. And it is, I think 
I mentioned in my testimony about leadership of the U.S.
    And I think a key thing here is the implementation that was 
in my statement, the implementation of that legislation, if 
fully followed, will solve many of the environmental problems 
we have had, particularly on an ecosystem-based level.
    But more than that, it shows international leadership that 
these things can be done, they should be done, and they can be 
done economically by investing in good legislation and in good 
implementation of that.
    This morning we heard also about the need for more 
integration across those various pieces of legislation, across 
the various agencies. So, I think the comment in my statement 
was more keep up the good work, and take it forward; rather 
than shy away from the economic crisis, and go backwards.
    Mr. Kildee. Let me ask you this. This is kind of a general 
problem we find in government.
    We have good laws, like NEPA and the National Forest 
Management Act and the Endangered Species Act. Those are 
authorization bills, and authorization bills are somewhat like 
a get-well card. You know, if I have a friend who is ill, I 
will send my friend a get-well card that expresses how I value 
my friend, how I feel about my friend.
    What my friend really needs is the healthcare card. That is 
the appropriation.
    Is there a difference, do you see a difference, a 
significant difference, between our sentiment expressed--and 
thank God they are, and I supported all of these things--in the 
authorization bills, and the actual health card bill, the 
appropriations to make sure these Acts actually carry out their 
purposes?
    Mr. Jackson. Yes, definitely a difference. I think if we 
don't follow up with investment in the legislation, in the 
ability of agencies to implement those things, then it does 
remain as a get-well card.
    To me this is an issue of decision making. If you 
understand the degree of dependency we have on natural----
    [Electronic interference.]
    Mr. Jackson.--is that sufficient for what you get in turn? 
Internationally, a recent study showed that we get somewhere 
around $33 trillion a year from ecosystem services, comparing 
that to gross national product globally of $16 trillion a year. 
But if you look at the investment in economic issues versus 
environmental issues, I think we are fundamentally failing to 
understand where our dependency lies as human beings.
    Mr. Kildee. Thank you very much. I yield back, Madame 
Chair.
    Ms. Bordallo. I thank the gentleman from Michigan, Mr. 
Kildee.
    And now I would like to recognize the gentleman from the 
Commonwealth of the Northern Marianas, Mr. Sablan.
    Mr. Sablan. Thank you very much, Madame Chairman. And I am 
very happy that you continue to give some attention to the 
issues that are very important to the area we represent. I come 
from the Northern Mariana Islands, a part of Micronesia.
    And I am very pleased with the commitments or the attention 
that the oceans and climate change has been, are being given, 
because frankly, whether it involves that we are concerned 
about the polar bears in the Arctic or whether we are concerned 
about the inhabitants of an island in the Kiribas, climate 
change are indeed affecting these people and these mammals, 
these species.
    Dr. Pomponi, obviously despite that sometimes governments 
give their departments, their patients healthcare cards, 
sometimes patients compete for attention from doctors.
    So, the testimony highlighted the need for continued 
coordination among Federal ocean agencies. And that problem was 
highlighted in the report of the Commission on Ocean Policy.
    But can you tell us, please tell us how the lack of 
coordination has affected your own work through time?
    Ms. Pomponi. I think that the fact that there are 
multiple--you know what, I will give you one good example. I 
thought of actually just one example.
    One is that my own work involves marine natural products 
drug discovery. It is discovery of novel compounds from marine 
organisms that can be used to treat diseases, like cancer.
    The National Science Foundation doesn't fund drug 
discovery, and the National Institutes of Health doesn't fund 
kind of ocean-related work. So, that type of research often 
falls between the cracks.
    So, that is one example that I can give you from my own 
personal experience. And so, for example, when you go to the 
National Science--and there has been an approach to address 
that, and that is the establishment of these ocean, the centers 
for oceans and human health, that have been joint ventures 
between the National Science Foundation and the National 
Institutes of Environmental Health Sciences.
    There are just a few of those. And the funding for those 
programs has dwindled. It has been drastically reduced. But 
that is an example of where going to a single agency is not, is 
not effective, but efforts have been made to collaborate among 
two or more agencies, to provide the necessary resources to 
address ocean and human health issues.
    Mr. Sablan. Thank you, Doctor. Now we really need that 
health card.
    [Laughter.]
    Mr. Sablan. Dr. Jackson, in your submitted, your written 
testimony, you have said that the ocean drives weather patterns 
and so many other things. But I agree with you that marine 
ecosystems often extend across political jurisdictional 
boundaries.
    And so my question is, implementing existing law and 
accurate valuations for understanding that this Subcommittee on 
Insular and Ocean and Wildlife had oversight responsibility for 
certain agencies under NOAA or the Department of the Interior.
    What would be the focus of policy reforms to increase the 
commercial rewards for conserving biodiversity, and increased 
penalties for biodiversity laws?
    Mr. Jackson. I am not sure if I am qualified to answer that 
question. In fact, I don't think I can talk about national 
legislation to that extent. I am sorry.
    Mr. Sablan. All right. So, my other question is how do you 
envision regional ocean management agreements governing the 
range of activities and process currently affecting marine 
ecosystems?
    Mr. Jackson. Yes. I think you mentioned before that the, 
many of these marine ecosystems cross political jurisdictions, 
not just internationally, cross internationally. And an area of 
substantial weakness at the moment in international law is, it 
relates to the high seas, particularly to the U.N. Floor of the 
seas.
    I think that you could show considerable leadership here in 
engaging in these issues, at least from the agencies' 
perspective, with research into understanding the opportunities 
and constraints of improving that. We talked before about the 
ecosystem approach, applying that to the international high 
seas.
    It is something that is not impossible for several 
governments to come together, perhaps also with the private 
sector, the fishing industry, with the conservation community, 
to look at how can this be done in an effective manner, to 
yield longer-term benefits, both in terms of in biodiversity, 
but also in terms of economics of making those fisheries more 
sustainable. This is particularly important for island 
communities that are heavily dependent on those fisheries.
    Mr. Sablan. Thank you, Chair.
    Ms. Bordallo. I thank the gentleman from the Commonwealth 
of the Northern Marianas, Mr. Sablan.
    I would like to recognize the gentlelady from the Virgin 
Islands, Mrs. Christensen.
    Mrs. Christensen. Thank you, Madame Chair. I just have 
maybe a few questions. But I would just like to point out that 
this afternoon at Salt River in the Virgin Islands is a meeting 
on the Joint Institute for Caribbean Marine Studies, a marine 
research and education center that the University of the Virgin 
Islands is collaborating with several other universities. And 
we have been working on it for years. So, hopefully, we will be 
able to contribute to the kinds of research that we are 
discussing today, and do it in the right way.
    It started out as a reef research center. So, the fact that 
it has gone from reef to marine, I think we are heading in the 
right direction. We are not just focusing on one, one entity in 
the oceans.
    Mr. Nutter, we live on, I represent the U.S. Virgin 
Islands. We can't move from our coastal areas or get out of the 
way of the hurricanes.
    And I have been here 12 years, and we have not been able to 
really pass any good legislation to provide for disaster 
insurance and windstorm insurance. I believe early on there was 
one, H.R. 2 it might have been, that was around for several 
years, where states were required to put together an entity to 
provide reinsurance.
    You seem to not want the Federal government to do it. But 
do you have any opinions about that approach? Or is there some 
kind of regional approach where risk could be spread? We would 
look at that, but it seems like no matter where you are, you 
are subject to some kind of a disaster.
    So, if you can understand what I am asking.
    Mr. Nutter. I think I do, and I appreciate the frustration 
of dealing with a very high-risk area that has hurricane 
exposure, has lived through many difficult time periods.
    Mrs. Christensen. And is experiencing some of the effects 
of climate change.
    Mr. Nutter. Absolutely. Certainly the companies that we 
represent, the reinsurance companies, do in fact provide a 
risk-spreading mechanism for insurers that provide insurance to 
homeowners in a variety of areas. I am not as familiar with the 
Virgin Islands perhaps as I should be to answer your question.
    But it seems no question that, that a solution clearly is 
hazard mitigation, to see that the Federal government does 
provide sufficient funding for the Virgin Islands and states to 
give people against their taxes, for instance, for providing 
mitigation against natural hazards--shutters, improved roofs, 
those kinds of things--so that people survive these natural 
disasters.
    And those kinds of efforts would seem to me to go a long 
way toward moderating the cost of insurance and the 
availability of insurance in particularly high-risk areas like 
that.
    Mrs. Christensen. Well, we have done some of those things. 
We haven't gotten tax credits for them. And our insurance costs 
didn't go down commensurate to the fact that we did apply new 
building codes, new roofing standards, and so forth. But thank 
you for your answer.
    Dr. Pomponi, I have listened, and I went through your 
testimony last night on ecosystem-based management. And 
obviously it brings together all of the ecosystem and managing, 
the marine resources. And as I understand it, it also 
coordinates activities between those entities that impact 
adversely or positively on the marine environment.
    But in my district, and I suspect others, it is the fishing 
community that bears the brunt of any restrictions or attempts 
to address for any, the reduced fish resources of marine 
resources, or adversely impacted marine resources.
    So, in your experience, how have we been able to address 
points toward non-point-source pollution and development, and 
their impact on our marine resources. Because we haven't been 
able to do it successfully.
    Ms. Pomponi. And in my experience, we are not doing it 
successfully in many other areas, as well. So, it is not only 
the Virgin Islands.
    By the way, the reason I am a marine scientist today is 
because of an experience I had in the Virgin Islands when I was 
in college, so that is what led to me going into this field.
    Mrs. Christensen. Great.
    Ms. Pomponi. I think that in general, any group that is 
targeted--let me give you an example. In the state of Florida, 
non-point-source pollution that is attributed to nutrients 
coming in from septic tanks has been a very great cause of 
concern.
    And so, you know, what has happened in our state is that 
there is legislation that has been passed that is going to 
reduce that, both point and non-point-source pollution from 
nutrients, sewage going into our coastal environments.
    But it is a balancing act for each of these. I know that 
the fisheries are often targeted. And I think that when we 
start looking at establishment of these marine protected areas 
or habitat areas or particular concerns, we have to be really 
careful in terms of saying OK, which areas are ones where 
fishing can occur, or which areas are ones where bottom-
trawling should definitely not ever occur.
    So, it just requires more detailed information about the 
environment itself, about the actual impacts of the 
environment, and being able to show that there is a true cause-
and-effect relationship.
    Does that sort of answer your question?
    Mrs. Christensen. I think it begins to get to it. I think, 
you know, sometimes it is just politics that gets in the way.
    Ms. Pomponi. The public, yes, the political will.
    Mrs. Christensen. Yes, and the need for development. And I 
listened to Nature Conservancy, you know, talk about trying to 
bring some balance. But sometimes in a small community, that 
balance is very difficult to achieve.
    Thank you, Madame Chair. I don't have any other questions.
    Ms. Bordallo. I thank the gentlelady from the Virgin 
Islands. And I just have a couple of wrap-up questions here.
    First, for Mr. Nutter. In a recent chartered Insurance 
Institute report, the CEO writes, and I quote, ``In reality, 
climate change is here now. And it is as much opportunity as 
risk for those who are wise enough to adapt early on.''
    So, how can the government help the insurance and 
reinsurance industries adapt and create opportunities in these 
times? And how can the government provide better climate-change 
information, so the reinsurance industry can reduce or mitigate 
for risk? At what scale is this information needed?
    Mr. Nutter. That is a very good question, and I think the 
scale is really the answer to your overall question.
    Climate science that is being pursued by the National 
Science Foundation, the University Center for Atmospheric 
Research, and other climate researchers really need to localize 
as much of the climate information as possible, in order to do 
financial planning for the insurance industry or local planning 
for local governments in dealing with infrastructure--bridges, 
levees, roads, that sort of thing that localize climate 
information--would make a huge difference in helping everyone 
assess the risk, both to storm surge, to increase in intensity 
or severity of storms, as well as increased precipitation.
    So, I think the answer to your question is that if we could 
set a priority that we need to have localized impacts of 
climate change, as best we can get it, that would make a large 
difference in how we assess the risk, and how we manage the 
risk.
    Ms. Bordallo. Thank you, thank you very much. And Mr. 
Nutter, in your opinion, if we do a better job of recognizing 
and mitigating the risk of natural hazards in the coastal zone, 
can we expect to see more and better opportunities for fish and 
wildlife conservation as a collateral benefit?
    Mr. Nutter. It is a question for me? Certainly, the 
coalition that we are working with that involves a number of 
environmental groups, the Consumer Federation of America, a 
number of taxpayer groups, is really seeking to find that 
balance between proper land-use management that preserves 
coastal ecosystems that can be used as buffers for extreme 
weather events, as well as to allow the development that Mrs. 
Christensen was talking about, to find that balance.
    So, absolutely. Trying to find that coordination between 
preserving coastal areas that provide habitat, as well as 
provide protection for people, would be the best long-term 
solution to providing local land-use planning and financial 
management.
    Ms. Bordallo. Dr. Rothschild, did you want to comment on 
that?
    Mr. Rothschild. I didn't have anything to add.
    Ms. Bordallo. You just agree, right?
    Mr. Rothschild. Yes, right.
    Ms. Bordallo. Thank you. I have one that, well, this takes 
me home.
    Dr. Jackson, I am particularly interested in the section of 
your testimony that discusses mitigation banking in the context 
of wetlands. So, I would appreciate your thoughts on how 
mitigation banking might be utilized in Guam.
    Could the principals underlying the development of wetland 
mitigation banks be employed to mitigate any adverse ecological 
impacts of the current military buildup?
    Mr. Jackson. Yes. I think the simple answer is yes, I think 
they could be. There have been, the early development of them, 
which was pioneered here in the United States, has been very 
promising.
    I think you have to keep in mind they are a tool, a tool 
that needs to be used with other regulatory mechanisms, not 
just to be based on financial mechanisms. But they are a very 
promising tool. The user-pay system I think is the basic 
principle behind it, and the precautionary principle behind 
that again.
    So, I think for Guam, yes, they could be. You know that you 
have also the environmental challenges, invasive species being 
a particular one. And we also know how that was introduced, 
some of those species introduced into Guam via the military. 
And I think that that principle of wetland banking or 
biodiversity banking could certainly be applied more generally, 
which would help with mitigation efforts, but also help with a 
broader understanding of if you have to make a change, then who 
is responsible and who should pay.
    Ms. Bordallo. Thank you. Thank you, Doctor.
    Do you have any questions, our Ranking Member? Mr. Kildee?
    [No response.]
    Ms. Bordallo. I want to thank the witnesses on the second 
panel for their participation in the hearing today. It was 
certainly very informative. And Members of the Subcommittee may 
have some additional questions for the witnesses, and we will 
ask you to respond to these in writing.
    The hearing record will be held open for 10 days for these 
responses.
    And if there is no further business before the 
Subcommittee, the Chairwoman again thanks the Members of the 
Subcommittee and our witnesses for their participation here 
this morning.
    And the Subcommittee stands adjourned.
    [Whereupon, at 12:04 p.m., the Subcommittee was adjourned.]

    [Additional material submitted for the record follows:]

    [The prepared statement of Mrs. Capps follows:]

  Statement of The Honorable Lois Capps, a Representative in Congress 
                      from the State of California

    Thank you, Madame Chairwoman, for holding this hearing today to 
explore how we might better manage the oceans and our wildlife 
resources as we move forward in the 111th Congress and in working with 
the new Administration.
    Thank you also to our witnesses who have traveled to testify before 
us today.
    I represent a district that spans more than 200 miles of coastline, 
and includes two national marine sanctuaries, a national forest, a 
national estuary program, two national monuments, and a national park. 
The well-being of my district depends almost entirely on the health of 
our oceans and the welfare of our natural resources.
    Our country is in the midst of a financial crisis and we face 
difficult choices. However, we cannot let these challenges deter us 
from investing in our future.
    One of the best ways to invest is by protecting some of our 
nation's biggest economic drivers--our oceans and our coasts.
    We need to reauthorize the National Marine Sanctuary Act. Our 
national marine sanctuaries are some of our nation's greatest 
treasures.
    We need to make sure that our Sanctuary Office has the tools to 
employ adaptive, ecosystem-based management that ensures that all the 
ecosystem services our Sanctuaries provide--from tourism to sustainable 
fisheries--remain intact.
    I look forward to delving into this legislation in the coming 
months.
    It is also crucial that we reauthorize the Coastal Zone Management 
Act, and include in it the tools we need to mitigate global warming and 
adapt to our changing environment. In the coming weeks, I will 
introduce two bills to begin to address these issues.
    The first is the ``Coastal State Renewable Energy Promotion Act'', 
which will provide grants to states to survey the coastline to identify 
areas suitable for renewable energy development.
    The second is the ``Coastal State Climate Change Planning Act'', 
which will provide assistance to coastal states to voluntarily develop 
climate change adaptation plans.
    These two policies will help our nation on its path to energy 
independence, and assist us as we prepare for an uncertain future on a 
warming planet.
    We also need to continue to invest in the Coastal and Estuarine 
Land Conservation Program (CELCP). CELCP provides states with matching 
funds to purchase significant coastal and estuarine lands.
    For example, in my congressional district I've worked 
collaboratively with environmental groups, willing sellers, and the 
State to conserve lands and waters around Morro Bay, on the Gaviota 
Coast, and near the Piedras Blancas Light Station.
    These projects have offered numerous benefits to local communities 
by preserving water quality, natural areas for wildlife and birds, and 
outdoor recreation opportunities--thereby protecting for the future the 
very things we love about the coasts.
    This hearing could not come at a more opportune time. As we move 
forward as a new Congress and with a new Administration, I look forward 
to working together to better manage the oceans and our wildlife 
resources.
                                 ______
                                 

   Response to questions submitted for the record by John Baughman, 
                 Member, Sporting Conservation Council

Questions from Ranking Republican Member Henry E. Brown, Jr., SC
A. North American Model of Wildlife Conservation
    Mr. Baughman, thank you your excellent testimony and references to 
the North American Model of Wildlife Conservation.
 Notwithstanding the durable success and accomplishments of the North 
        American Model, in your opinion, under the present ``user-pays-
        user benefits'' system of financing conservation, can we 
        maintain funding for existing programs let alone take on new 
        initiatives?
    We cannot meet the needs of existing programs and take on new 
initiatives without doing something to increase revenue for federal and 
state programs. We could expand the user-pays concept to more 
adequately provide for conservation of all species and all forms of 
wildlife-related recreation and enjoyment by increasing the categories 
of outdoor equipment that are subject to a federal excise tax (e.g. 
binoculars, sleeping bags, backpacks, hiking boots, bird seed, outdoor 
guidebooks, etc.). This has been suggested and congressionally pursued 
in the past, but it met resistance due to the complicated taxing and 
collection mechanisms and the political unpopularity of supporting any 
new tax. Other user fees such as permits for general access to federal 
and state lands, permits for certain wildlife viewing areas, etc. could 
be implemented, but again it results in a complicated system of 
collecting and administering lots of small pots of money, and the 
public eventually pushes back when subjected to the inconvenience of 
lots of small user fees. A more logical approach would be to dedicate a 
small portion of federal and state revenues for conservation of fish, 
wildlife, and their habitats, so that in affect, all Americans are 
sharing in the costs of conservation. The revenues need to be 
dedicated, so they don't drop to zero every time there is a war or 
healthcare crisis. Revenue from new Outer Continental Shelf or new 
onshore energy production, or revenue from trading carbon credits have 
been proposed as reasonable sources.
 Are there specific strategies you might be able to recommend to 
        broaden the number of user groups that might pay into a system 
        of wildlife conservation to diversify and increase available 
        sources of funding?
    See the above item. My suggestion is to pursue reasonable, 
sustainable funding from a portion of the rents, royalties and/or other 
receipts from new energy production, or a portion of any income 
received due to carbon trading protocols established by future climate 
change legislation. Every state should also have a significant, 
sustainable stream of state generated funding to support conservation 
within their borders. Congress could provide incentives to encourage 
states to generate this funding that would compliment--not substitute 
for--federal revenue.
B. Clarification of Landscape Conservation Recommendation
 Mr. Baughman, in your statement you recommend that the Congress 
        authorize and the Administration implement landscape-level 
        programs to treat at-risk forest, grassland, and wetland 
        habitats?
 Can you please explain what you mean by ``at risk'' habitats?
    Habitats, just like species (e.g. Threatened and Endangered 
species) can be at risk; in fact, habitat degradation is one of the 
most common causes of jeopardy to species at risk. In the West, the 
sagebrush-steppe ecosystem is at risk due to effects of long-term 
drought, over-grazing, and invasive species--particularly cheat grass 
which results in a more frequent fire cycle that can completely 
eliminate sagebrush over vast areas. As the sagebrush disappears, sage 
grouse, sagebrush sparrows, and mule deer disappear too.
 Would the migratory bird Joint Ventures be a model that might serve as 
        a template for these broader ``landscape'' initiatives?
    The migratory bird Joint Ventures are excellent examples of 
``landscape'' initiatives, as are the efforts that are being supported 
by the Healthy Lands Initiative. All of these efforts treat the causes, 
rather than the symptoms, of habitat loss over wide areas, and they 
deliver conservation through partnerships and highly leveraged funds.
                                 ______
                                 

 Response to questions submitted for the record by Dr. Peter Kareiva, 
                Chief Scientist, The Nature Conservancy

Questions from Hon. Madeleine Z. Bordallo
    Dr. Kareiva, please respond to the following questions regarding 
decision support tools and valuing ecosystem services.
1.  What is the biggest limiting factor in getting ecosystem services 
        valued appropriately when making decisions?
    At this moment in time there are two limiting factors. The first is 
simply that most decision-processes in the USA do not build in any sort 
of comprehensive ecosystem service valuation, and most decision-makers 
are not yet aware of this approach. That is changing.
    The second big limitation is that we lack easy-to-use tools that 
can help public institutions do these valuations in a scientifically 
credible manner using widely available land or coastal marine 
management data. A major goal of the Natural Capital Project is to 
develop these tools and to make sure they are consistent, transparent 
and scientifically credible. It will likely be 2-5 years before the 
tools have been sufficiently developed, and easy-to-use web interfaces 
allow non-specialists to begin using the tools in routine planning 
exercises.
2.  If the decision-support tools you discuss lead to a decision to 
        halt a development project, won't that mean fewer jobs for 
        public works?
    First, one of the greatest values of decision support tools that 
rely on maps of ecosystem services is that they generally do not lead 
to prohibitive decisions such as ``no development'', but instead 
provide guidance about where to move the development or how to do the 
development differently to reduce degradation of ecosystem services. 
Unlike prescriptive regulations, ecosystem service analyses point to 
options.
    Second, thoughtful valuation of ecosystem services will often lead 
to a new kind of development project--development projects that restore 
or build up ecosystem services. Examples of these include reforestation 
on steep slopes, floodplain restoration, planting out oysters to 
rebuild oyster reefs and so on. These all are labor intensive.
    Lastly, we should not forget that ecosystem service valuation can 
reveal that a development project that might produce jobs in one place, 
could reduce jobs elsewhere because of undesirable ecosystem impacts. 
Thus ecosystem service assessments should provide a more complete 
``jobs analysis'' than decisions that do not take into account impacts 
on ecosystem services that are often felt downstream, offshore, or 
twenty years later.
3.  How close are we to realizing your vision of a network of tools 
        that can accurately assess threats to our most vulnerable 
        ecosystems?
    As I mentioned above we are 2-5 years from having a portfolio of 
web-based tools that could be widely and easily applied. At this point 
in time the tools require a team of PhD scientists to do the analyses. 
Frankly how fast it happens depends on the resources available to the 
Natural Capital Project and to scientists doing studies that connect 
land use and coastal marine activities to ecosystem services.
4.  What policy frameworks could Congress propose to ensure these tools 
        are explicitly and systematically integrated into decision-
        making by individuals, corporations and governments?
    There are many options for this. One possibility is to use the 
existing EIS framework, and require an ecosystem services assessment as 
part of that EIS process. Ecosystem service assessments could also be 
required of U.S. Army Corps of Engineer Projects. Some have argued that 
we should institutionalize ecosystem service assessments as a routine 
component of policy analyses concerning everything from energy options 
to transportation systems. This is being experimented with in some 
states. Secondly, for those cases where the private sector requires 
licenses or some sort of ``approval'', ecosystem service assessments 
could be required.
    Finally, it may be fruitful to include ecosystem service valuations 
into national accounts of productivity or well-being. Some countries, 
such as China are even experimenting with identifying certain counties 
as especially important because of their ecosystem services, and to 
then track the ``productivity'' of these counties in terms of both 
traditional metrics of economic production ``but also an accounting of 
the value of the ecosystem services. In that way, if a county achieves 
economic development at the cost of degraded ecosystem services, that 
degradation could be subtracted from its more traditionally reported 
productivity. Similarly, Canada is constructing a ``well-being index'' 
that will be used as an alternative measure to GDP to gauge the well-
being of Canadians. It includes, among other things, a measure of 
ecosystem health--using the same ideas that have inspired China to 
embrace a more thorough accounting, whereby a degradation of ecosystem 
health counts negatively toward the overall human-well being index.
    In general, consideration should be given to applying these tools 
explicitly and systematically as new legislation is developed. For 
example as we grapple with the adaptation provisions of climate change 
legislation, care should be taken to require that these tools be used 
to ensure that ecosystem service assessments are an integral part of 
both domestic and international adaptation programs. The same could be 
said of legislation governing the development of new energy sources.
5.  Can decision support tools and accurate ecosystem service 
        valuations provide short-term economic benefits, in addition to 
        long-range sustainability benefits?
    Of course they can. Imagine a big infrastructure or energy project 
that is conducted without any ecosystem service assessment. Then that 
project will either proceed or not, and if it proceeds it will produce 
the jobs and economic benefits directly related to the project. Now 
imagine the same project that has been evaluated using an ecosystem 
service assessment and has been found to produce some negative impacts 
that need mitigation action. Then the very same project produces its 
original job and economic benefits, but now also has a mitigation 
component that represents additional jobs. In some ecosystems, habitat 
restoration and mitigation can also enhance fisheries productivity, 
increase recreation opportunities, and even enhance water quality and 
human health.
    In a climate stressed world, natural ecosystems can be especially 
beneficial in a way that would be revealed by a careful ecosystem 
service valuation. As a result of climate change it is already evident 
that heat waves are more common and more severe. These heat waves 
actually are a significant source of mortality in cities, which because 
of all the concrete and lack of vegetation can act as heat sinks with 
temperatures as much as 10 degrees higher than nearby rural landscapes. 
An ecosystem service assessment of climate mitigation could lead to 
investment in more green space in cities, and ultimately a cooling 
effect that reduced the health costs of urban heat overloads--which 
preferentially put children and the elderly at risk.
6.  What are the key actions that the federal government can take to 
        bring decision support tools to decision makers?
    There are two major steps the federal government could take. First 
they could invest in research at universities, and federal agencies and 
in NGO's that is aimed at testing and validating these tools in an 
experimental manner. Second they could offer incentives to private 
industry and to public institutions that perform ecosystem service 
assessments of alternative options--those incentives could be more 
streamlined approval processes and expedited support for development 
projects that have used ecosystem service valuations in their project 
design.
7.  How can the United States be a leader in implementing these mapping 
        and decision-support tools?
    Through its great universities, and some pioneering initiatives 
surrounding ecosystem services on the part of the USDA and EPA, the 
U.S. is already the world leader in the development of ecosystem 
service assessments. However other countries such as Australia and 
China are farther ahead in terms of requiring ecosystem service 
assessments as a prelude to their public planning or infrastructure 
decisions. The U.S. needs to invest heavily in applying ecosystem 
service assessments to real-life decisions as soon as possible, and 
then to evaluate the quality of decisions made when ecosystem services 
are considered compared to when ecosystem services are not considered. 
If the U.S. combined such experimentation with its already vanguard 
research, it would truly lead the world in land-use, infrastructure, 
and development decision-making.
                                 ______
                                 

   Response to questions submitted for the record by Jeff Trandahl, 
       Executive Director, National Fish and Wildlife Foundation

Questions from Hon. Madeleine Z. Bordallo
    Please respond to the following questions.
 Question 1: Mr. Trandahl, you have testified that Congress should 
        provide clear prioritization of federal conservation goals and 
        objectives in order to increase conservation funding from 
        private sources.
 How would federal prioritization improve the availability of funding 
        from private sources?
    There are un-tapped funding resources for conservation in the 
private funding community. Private funders are seeking leveraging 
opportunities and enthusiasm by the federal government to invest in 
conservation priorities through collaborative public-private 
partnerships. A new set of federal priorities for conservation, 
implemented as a single effort, would catalyze private resources for 
conservation.
    Administrative and/or legislative language that recommends and 
encourages agencies to pool federal resources and combine them with 
funding from the private sector is needed. Incentives for agencies to 
pool funds in a simple fashion have been nearly nonexistent. 
Encouraging Federal agencies and Departments to pool funds and work 
together would help administrative hurdles and should reduce overall 
cost by limiting total overhead and result in greater conservation 
outcomes.
 Question 2: Can you help us to better understand why NFWF still finds 
        it difficult to convince federal agencies to partner with you? 
        If it is a cultural issue, as you describe, what can be done to 
        promote a more constructive culture?
    Federal conservation priorities and associated performance measures 
are needed to incentivize public-private partnerships within the 
agencies. Under the current structure, program implementation favors 
retention of FTE's and federal resources without regard for the 
potential benefits of establishing meaningful partnerships for the 
strongest conservation outcomes. As stated above, the agencies need 
specific motivation (via performance measures, statutory requirements 
or otherwise) to work together and partner with the corporate, 
foundation and non-profits.
    Agencies tend to maintain control and direct oversight of grant 
programs and other conservation initiatives, regardless of the 
potential efficiency or effectiveness gained through multi-sector 
partnerships. Current measures, i.e. acres/miles restored, do not 
accurately measure whether or not conservation opportunities have been 
fully maximized. Similarly, assessing matching funds provided by 
grantees only provides part of the actual ``matching'' funds that are 
available. To promote a more constructive culture, agency performance 
could be measured according to how well their program funds are 
leveraged with (1) other federal agencies (2) states (3) corporations 
and private foundations (4) non-profit organizations (5) individuals.
 Question 3: What incentives, especially non-monetary incentives, are 
        most effective in encouraging responsible stewardship of 
        natural resources and in engaging private individuals and 
        entities in promoting such stewardship? Can you think of any 
        examples to show the marked success or failure of incentive 
        approaches?
    Safe Harbor agreements are an effective method to motivate 
landowners to protect wildlife habitats. When faced with a legal 
threat, private entities are likely to avoid conservation 
opportunities. Another frustration is multi-layered bureaucracy and 
roadblocks which delay progress. Assurances for individuals or groups 
who are meeting and/or exceeding federal requirements that new 
requirements will not be put into place after the fact would ensure 
responsible stewardship of natural resources.
 Question 4: Could you please be more specific about the other untapped 
        opportunities you reference to establish new partnerships to 
        expand the base of funding for conservation?
    As stated in our testimony, the Foundation is currently working 
with the USDA Natural Resources Conservation Service (NRCS) to 
implement the Conservation Innovation Grants (CIG) program. NRCS awards 
approximately $20 million annually to support projects that advance 
innovative practices and technology to improve stewardship on working 
farms and ranches. This program is highly attractive to private funders 
as it is geared to ensuring that America maximizes food production 
while enhancing environmental protection goals such as minimizing soil 
and nutrient runoff, improving wildlife habitat, and reducing water and 
energy consumption.
    Based on our initial inquiries, we were able to identify 6-10 
private funders who were excited about the opportunity to work with 
NRCS and NFWF to leverage funds and expand the pool of financial 
resources to address the high demand for this program.
    Similarly, we believe there are other existing federal programs 
that offer opportunities to generate partnerships within the federal 
government and private corporations/foundations. There are multiple 
invasive species programs that involve various federal agencies and 
both public and private lands. Rather than creating more new programs 
that cannot be funded, Congress and the Administration should consider 
a single, inter-agency program that would be attractive to private 
partners and leverage significant funds to ensure meaningful 
conservation outcomes. New programs and potential federal funding for 
climate change adaptation and mitigation of energy development offer 
similar opportunities for public-private partnerships. It is critical 
for the federal government to take full advantage of these partnership 
opportunities if we want to achieve measurable progress in restoring 
healthy populations of fish and wildlife and their habitats.
 Question 5: Can habitat be managed in a way that respects private 
        ownership? If so, how?
    Since the majority of land in the U.S. is privately owned, it is 
absolutely essential to manage habitat in a way that respects private 
ownership. The key to private lands conservation has been partnering, 
identifying common interests, and respecting the landowners' business 
and conservation goals. Many of the Foundation's grant programs are 
focused on providing incentives for private landowners to restore and 
conserve habitat for wildlife. One example is our Columbia Basin Water 
Transactions Program, a partnership with Bonneville Power 
Administration, which has successfully created a voluntary marketplace 
for private landowners to restore in-stream flows for imperiled salmon, 
steelhead, resident trout and other wildlife species. Through program 
partners like the Idaho Department of Water Resources, landowners have 
the opportunity to sell, lease, and/or conserve water while maintaining 
the traditional agricultural uses of their land.
 Question 6: How will the downturn in the economy affect the Foundation 
        and its ability to find private/corporate partners?
    To date, the downturn in the economy has not had a significant 
impact on the ability of the Foundation to maintain our private/
corporate partners. More than ever, our private partners are attracted 
to the opportunity to work hand-in-hand with the federal government and 
the non-profit community to invest in on-the-ground conservation. Our 
annual appropriations and discretionary cooperative agreements with the 
federal agencies are essential to our private partnerships. The federal 
funds provide a base for the Foundation to generate private funding 
interests in national conservation priorities.
    To ensure success in both private and public investments, we are 
incorporating monitoring and evaluation into our programs in order to 
measure progress, promote adaptive management, demonstrate results, and 
continuously learn from our grant-making.

                                 <all>

</pre></body></html>
